No. 21-______

In the Supreme Court of the United States
KWS INC., A MEMBER OF THE THIELE GROUP,
Petitioner.
v.
ERIC SCALLA,
Respondent,
ON PETITION FOR A WRIT OF CERTIORARI
TO THE PENNSYLVANIA SUPREME COURT
FOR THE EASTERN DISTRICT

PETITION FOR A WRIT OF CERTIORARI

AUGUST 16, 2021

COLIN E. WRABLEY
Counsel of Record
ARND VON WALDOW
DEVIN M. MISOUR
EZEKIEL K. REDIKER
REED SMITH LLP
255 Fifth Avenue
Pittsburgh, PA 15222
(412) 288-3131
(412) 288-3548
cwrabley@reedsmith.com

i
QUESTION PRESENTED
As this Court long has made clear, the Supremacy Clause of the United States Constitution “imposes
on state courts a constitutional duty ‘to proceed in
such manner that all the substantial rights of the parties under controlling federal law [are] protected.’”
Felder v. Casey, 487 U.S. 131, 151 (1988) (quoting
Garrett v. Moore-McCormack Co., 317 U.S. 239, 245
(1942)). Thus, while the States “retain the authority
to prescribe the rules and procedures governing suits
in their courts[,]” id. at 141, “that authority does not
extend so far as to permit States to place conditions
on the vindication of a federal right.” Id. at 147. That
means, as relevant here, that state procedural law
“cannot control the privilege of removal granted by the
federal [removal] statute.” Chicago, R.I. & P.R. Co. v.
Stude, 346 U.S. 574, 580 (1954). In this case, Pennsylvania’s state courts violated these bedrock principles
of federal-law supremacy when they affirmed a default judgment against Petitioner because Petitioner
failed to ask a federal district court to open the state
court default following removal of the underlying suit,
even though no federal law requires that procedural
step. This Petition presents the following question:
Whether a state court may require a federalcourt litigant that has exercised its federal statutory
right of removal following the state court’s entry of a
default to petition the federal court to open the default
as a prerequisite to obtaining relief from the default
in state court following a remand?

ii
PARTIES REPRESENTED
All parties appear in the caption of the case on
the cover page.
RULE 29.6 STATEMENT
Pursuant to this Court’s Rule 29.6, petitioner
KWS Inc., a member of Thiele Corporation, states that
it has no parent company, and no publicly held corporation owns 10% or more of its stock.
LIST OF ALL PROCEEDINGS
There are no proceedings directly related to this
case in state and federal trial and appellate courts.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED........................................ i
PARTIES REPRESENTED ..................................... ii
RULE 29.6 STATEMENT ........................................ ii
LIST OF ALL PROCEEDINGS ............................... ii
TABLE OF CONTENTS ......................................... iii
APPENDIX TABLE OF CONTENTS...................... v
TABLE OF AUTHORITIES .................................... iii
PETITION FOR WRIT OF CERTIORARI .............. 1
INTRODUCTION ..................................................... 1
OPINIONS BELOW ................................................. 3
JURISDICTION ....................................................... 3
CONSTITUTIONAL PROVISIONS INVOLVED ... 4
STATEMENT OF THE CASE ................................. 4
A. Legal Background ...................................... 4
B. Procedural Background ............................. 6
1.

Plaintiff’s Lawsuit, The Default
Judgment Against KWS, And Removal
To Federal Court. ................................ 6

2.

Following Remand, KWS Promptly
Petitions To Open The Default
Judgment. ........................................... 7

iv
3.

The Trial Court Denies KWS’s
Petition To Open, Finding That KWS
Failed To Timely File Its Petition
Because It Did Not File It In The
Federal Court, And The Superior
Court Affirms. ..................................... 8

4.

The Pennsylvania Supreme Court
Denies KWS’s Petition For Allowance
Of Appeal........................................... 10

REASONS FOR GRANTING THE PETITION .... 10
I.

THE PENNSYLVANIA COURTS’ APPLICATION OF A
NEWLY MINTED RULE OF FEDERAL PROCEDURE
CONTRAVENES THIS COURT’S PRECEDENT AND
WARRANTS SUMMARY REVERSAL. .................... 11
A. Erie And Its Progeny Establish That
Federal Courts Control Their Own
Procedure. ................................................ 11
B. The Pennsylvania Courts Committed
Clear Error By Creating a New Rule of
Federal Procedure That Placed
Unconstitutional Conditions On KWS’s
Federal Removal Right............................ 15

II. SUMMARY REVERSAL OR CERTIORARI REVIEW IS
NECESSARY TO PROTECT FEDERAL RIGHTS AND
REINFORCE THE CONSTITUTIONAL BARRIERS TO
STATE COURTS’ INVASION OF FEDERAL-COURT
PROCEDURE. .................................................... 17
CONCLUSION ....................................................... 19

v
APPENDIX TABLE OF CONTENTS
App. Page
Appendix A,
Supreme Court of Pennsylvania
Order Denying Petition for
Allowance of Appeal, May 18, 2021..................... 1a
Appendix B,
Supreme Court of Pennsylvania
Order Granting Motion for Stay of
Proceedings, July 7, 2021 .................................... 2a
Appendix C,
Superior Court of Pennsylvania
Opinion, Aug. 11, 2020 ........................................ 3a
Appendix D,
Superior Court of Pennsylvania
Concurring Opinion, Aug. 11, 2020 ................... 31a
Appendix E,
Superior Court of Pennsylvania
Order Denying Reargument, Aug.
25, 2020 .............................................................. 34a
Appendix F,
Court of Common Pleas of
Philadelphia County Order and
Opinion, Apr. 10, 2019 ....................................... 35a
Appendix G,
Court of Common Pleas of
Philadelphia County Opinion per
Pa.R.A.P. 1925(b), Sept. 27, 2019 .................... 128a

vi
TABLE OF AUTHORITIES
Page(s)
Cases
Bank & Tr. Co. v. Line Pilot Bungee,
752 N.E.2d 650 (Ill. 2001) .................................... 18
BHA Invs., Inc. v. City of Boise,
108 P.3d 315 (Idaho 2005) ................................... 13
Chicago, R.I. & P.R. Co. v. Stude,
346 U.S. 574 (1954) .......................................... 1, 14
Collins v. Yellen,
141 S. Ct. 1761 (2021) .......................................... 18
De Niz Robles v. Lynch,
803 F.3d 1165 (10th Cir. 2015) ............................ 16
Dep’t of Human Servs. v. J.G. (In re
C.G),
317 P.3d 936 (Ore. Ct. App. 2014) ....................... 14
Dixon v. von Blanckensee,
994 F.3d 95 (2d Cir. 2021) ................................... 13
Erie Railroad Co. v. Tompkins,
304 U.S. 64 (1938) .................................. 1, 4, 11, 12
Felder v. Casey,
487 U.S. 131 (1988) ...................................... 1, 5, 12
Gibson v. Am. Cyanamid Co.,
760 F.3d 600 (7th Cir. 2014) ................................ 16

vii
Hanna v. Plumer,
380 U.S. 460 (1965) ...................................... 1, 5, 12
Illinois Cent. Gulf R.R. Co. v. Price,
539 So. 2d 202 (Ala. 1988) ................................... 14
Johns v. Harborage I, Ltd.,
664 N.W.2d 291 (Minn. 2003) .............................. 13
Klocke v. Watson,
936 F.3d 240 (5th Cir. 2019) .................................. 6
Mistretta v. United
States, 488 U.S. 361 (1989) .................................. 18
Nuveen Mun. Trust ex rel. Nuveen High
Yield Mun. Bond Fund v.
WithumSmith Brown, P.C.,
692 F.3d 283 (3d Cir. 2012) ................................... 6
Pecarsky v. Galaxiworld.com Ltd.,
249 F.3d 167 (2d Cir. 2001) ................................. 18
Pena v. Seguros La Comercial, S.A.,
770 F.2d 811 (9th Cir. 1985) ................................ 18
Richmond v. A.F. of L. Med. S. Plan,
204 A.2d 271 (Pa. 1964) ....................................... 19
Rosebud Sioux Tribe v. Trump,
495 F. Supp. 3d 968 (D. Mont. 2020) ................... 18
Sanchez v. Degoria,
733 So. 2d 1103 (Fla. Dist. Ct. App.
1999) ..................................................................... 13

viii
Scalla v. KWS, Inc.,
No. 18-1333, 2018 U.S. Dist. LEXIS
203453, 2018 WL 6271646 (E.D. Pa.
Nov. 30, 2018)......................................................... 7
Schultz v. Erie Ins. Exchange,
477 A.2d 471 (Pa. Super. 1984) ............................. 8
Shamrock Oil & Gas Corp. v. Sheets,
313 U.S. 100 (1941) ........................................ 14, 15
Shaw v. Leatherberry,
706 N.W.2d 299 (Wis. 2005) ................................ 13
Trump v. Vance,
140 S. Ct. 2412 (2020) .......................................... 12
Velasco v. Ruiz,
457 P.3d 1014 (Okla. 2019) .................................. 18
Wayside Church v. Van Buren Cnty.,
847 F.3d 812 (6th Cir. 2017) ............................ 5, 12
Statutes
28 U.S.C. § 1257 .......................................................... 3
Other Authorities
U.S. Const. art. VI, cl. 2 ............................................ 13

1
PETITION FOR WRIT OF CERTIORARI
KWS Inc. respectfully petitions for a writ of certiorari to review the judgment of the Supreme Court
of Pennsylvania.
INTRODUCTION
This case involves a default judgment entered by
a Pennsylvania state trial court against KWS based
on KWS’s failure—following its removal of the underlying lawsuit to federal court—to petition the federal
district court to open the default. No federal law or
rule of procedure, including the federal removal statute itself, imposes such a requirement. Nor, prior to
the rulings in this very case, did the law of Pennsylvania or that of any other jurisdiction in the country.
The Pennsylvania courts’ imposition of this
newly invented de facto rule of federal procedure on a
federal-court litigant plainly contravenes this Court’s
precedent and the long-settled Supremacy Clause
mandate that state courts must protect a party’s federal rights—including federal removal rights—and
may not “place conditions on the vindication” of those
rights. Felder v. Casey, 487 U.S. 131, 147, 151 (1988);
Chicago, R.I. & P.R. Co. v. Stude, 346 U.S. 574, 580
(1954). It also contravenes the equally fundamental
rule, first established in Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938), that federal procedural law
alone governs federal-court proceedings. See also
Hanna v. Plumer, 380 U.S. 460 (1965) (same).
The Pennsylvania courts’ creation of a federal
procedural requirement here violates these fundamental rules that define the respective spheres of
state and federal judicial power and preserve the su-

2
premacy of federal law and the rights it confers. According to the rulings below, KWS could not establish
the Pennsylvania-law requirement that it promptly
sought to open the default entered against it because
KWS failed to ask the federal district court to do so
while that court decided the propriety of removal after
Plaintiff had filed a remand motion calling that court’s
jurisdiction into question. The Pennsylvania courts
cited no federal statutory or procedural law for this
unprecedented rule—or a single case, federal or state,
adopting such a novel requirement. Instead, the Pennsylvania courts predicated this brand-new de facto
rule of federal procedure in removed cases on the mere
fact that some federal district courts have allowed federal litigants to petition to open state-court default
judgments.
Making matters worse, despite the serious due
process concerns that arise from the decision to apply
a newly adopted, judge-made legal principle to the
parties in the case at hand, the state courts below did
not hesitate to apply their newly minted rule of federal procedure to KWS. And they did so, further,
knowing the disfavored status of default judgments
and the severe consequences that follow from their entry. For these reasons alone, the Court should grant
the petition, vacate the judgment below, and remand
for further proceedings—or summarily reverse—in order to correct the Pennsylvania courts’ clear departure
from this Court’s precedents and the foundational
constitutional principles they establish.
Review also is needed because of the critical importance of the issues engendered by the Pennsylvania courts’ unprecedented rulings. Ensuring that
state courts do not encroach on the exclusive federal

3
domain is a paramount interest. It is all the more vital
where, as here, state courts do so without acknowledging the settled federal ground rules, without any notice to the affected litigants, and without accounting
for the severe consequences to those litigants—here,
the entry of a default against KWS. The Court should
intervene to underscore and reinforce the rules that
constrain state courts when it comes to federal-court
proceedings, and undo the grave prejudice and unfairness KWS suffered as a result of the Pennsylvania
courts’ failure to adhere to those rules.
OPINIONS BELOW
The order of the Supreme Court of Pennsylvania
denying KWS’s petition for allowance of appeal is not
reported. App. 1a. The opinion of the Superior Court
of Pennsylvania, App. 3a-33a, is reported at Scalla v.
KWS, 240 A.3d 131 (Pa. Super. 2020). The opinion of
the Court of Common Pleas of Philadelphia County,
Pennsylvania, App. 35a-79a, 128a-142a, is not reported.
JURISDICTION
The Supreme Court of Pennsylvania entered its
judgment denying KWS’s petition for allowance of appeal on May 18, 2021. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1257.1

1
Because the Pennsylvania Supreme Court issued its judgment
before July 19, 2021, the extended window for filing petitions for
certiorari established by the Court’s March 19, 2020 order governs this petition.

4
CONSTITUTIONAL PROVISIONS INVOLVED
This case concerns Congress’ power under Article
I, Section 8 of the U.S. Constitution to make rules governing the practice and pleading in the courts of the
United States, Art. I, § 8, cl. 18 (“To make all Laws
which shall be necessary and proper for carrying into
Execution the foregoing Powers, and all other Powers
vested by this Constitution in the Government of the
United States, or in any Department or Officer
thereof”), as outlined in Art. III, § 2, (“The judicial
power shall extend to all cases, in law and equity, arising under this Constitution, the laws of the United
States, and treaties made, or which shall be made, under their authority… to controversies… between citizens of different states”), and the Supremacy Clause,
Article VI, Paragraph 2 (“This Constitution, and the
Laws of the United States which shall be made in Pursuance thereof; and all Treaties made, or which shall
be made, under the Authority of the United States,
shall be the supreme Law of the Land; and the Judges
in every State shall be bound thereby, any Thing in
the Constitution or Laws of any State to the Contrary
notwithstanding.”).
STATEMENT OF THE CASE
A.

Legal Background

The law is well-established that states cannot
impose procedural requirements on federal-court litigants while in federal court because that is the exclusive province of federal law. This principle has been
settled at least since Erie, where this Court held that
while federal courts must apply the substantive law of
the states to state-law claims in diversity jurisdiction
cases, they must also apply federal procedural law.

5
Erie, 304 U.S. at 77–79. Under Erie and the cases that
followed, this Court repeatedly reinforced that federal
courts must apply federal procedural law, which can
only be made by Congress.
In Hanna v. Plumer, 380 U.S. 460, 468 (1965),
this Court held that when a Federal Rule is at issue,
the Rules Enabling Act controls, and “federal courts
are to apply state substantive law and federal procedural law.” Id. at 465. Thus, the Court reasoned, in
the event of a conflict between state and federal procedural rules, courts need only ask whether the Federal Rule is constitutional and within the ambit of
Congressional legislation. Id. at 473. If so, the federal
court must apply it. Id. (describing the “long-recognized power of Congress to prescribe housekeeping
rules for federal courts”). Ultimately, this Court reasoned that “[t]o hold that a Federal Rule must cease
to function whenever it alters the mode of enforcing
state-created rights would be to disembowel either the
Constitution’s grant of power over federal procedure
or Congress’ attempt to exercise that power in the
[Rules] Enabling Act.” Id. at 473.
More recent decisions reinforce and extend these
firmly entrenched ground rules and clarify the constitutional limits on the authority of state courts. In
Felder, the Court explained that, “[j]ust as federal
courts are constitutionally obligated to apply state law
to state claims, so too the Supremacy Clause imposes
on state courts a constitutional duty ‘to proceed in
such manner that all the substantial rights of the parties under controlling federal law [are] protected.’”
487 U.S. at 151 (citation omitted). Thus, although the
states do “retain the authority to prescribe the rules
and procedures governing suits in their courts[,]” id.

6
at 147, “that authority does not extend so far as to permit States to place conditions on the vindication of a
federal right.” Id.; see also Wayside Church v. Van Buren Cnty., 847 F.3d 812, 820 (6th Cir. 2017) (recognizing that a state court’s “jurisdictional rule cannot be
used as a device to undermine federal law, no matter
how evenhanded it may appear”) (internal quotation
marks and citation omitted); Klocke v. Watson, 936
F.3d 240, 244 (5th Cir. 2019) (recognizing that “state
procedural law yields to” federal procedural law);
Nuveen Mun. Trust ex rel. Nuveen High Yield Mun.
Bond Fund v. WithumSmith Brown, P.C., 692 F.3d
283, 302 (3d Cir. 2012) (“Erie provides that a federal
court sitting in diversity must apply … federal procedural law.”).
As discussed below, these principles are directly
implicated by the state-court rulings, and the federal
procedural requirement they created and applied to
KWS’s detriment.
B.

Procedural Background

1. Plaintiff’s Lawsuit, The Default Judgment Against KWS, And Removal To
Federal Court.
Plaintiff initiated this action on December 19,
2017, by filing a complaint against KWS, an Oklahoma corporation, in the Court of Common Pleas of
Philadelphia County (the Trial Court). App. 4a. According to his complaint, Plaintiff was working at his
construction job when an object held up by a crane
hook allegedly manufactured by KWS fell, seriously
injuring his leg. App. 3a-4a. Plaintiff asserted claims
against KWS for strict liability, negligence, and
breach of express and implied warranties. App. 107a.

7
The lone employee in KWS’s only U.S. office,
Elizabeth Roberts, is the company’s Vice President of
Operations. Plaintiff’s counsel mailed the complaint
to KWS’s Tulsa office, but Ms. Roberts did not open
the package, as it was her practice to set mail aside if
she did not recognize the sender. App. 70a. Consequently, KWS only learned of the lawsuit by way of an
email from Plaintiff’s counsel on March 27, 2018—one
day after Plaintiff filed a praecipe to enter default
judgment in the Trial Court. App. 38a.
Upon learning of the lawsuit and the praecipe to
enter a default, KWS promptly secured legal counsel
and two days later, on March 29, removed the case to
the U.S. District Court for the Eastern District of
Pennsylvania (Federal Court) on the basis of diversity
jurisdiction. See Scalla v. KWS, Inc., No. 18-1333,
2018 U.S. Dist. LEXIS 203453, 2018 WL 6271646
(E.D. Pa. Nov. 30, 2018). At the time of removal, the
Trial Court docket reflected Plaintiff’s filing of a
praceipe to enter default, not a formal default judgment by the Court. A week later, on April 5, KWS filed
an answer and affirmative defenses in the Federal
Court within the time prescribed by Federal Rule of
Civil Procedure 81(c)(2)(C). Thereafter, Plaintiff
moved to remand and, following two rounds of briefing
and limited discovery ordered by the Federal Court,
the Federal Court granted Plaintiff’s motion to remand. Id. at *14-15.
2. Following Remand, KWS Promptly Petitions To Open The Default Judgment.
On Monday, December 31, 2018, the Trial Court
received the case record from the Federal Court and
noted the remand order on its docket. App. 46a. On
Friday, January 4, 2019, the Trial Court listed the

8
case for “assessment,” without further information.
App. 10a.
Three weeks later, KWS filed a petition to open
the default in the Trial Court. Id. KWS argued that
its petition to open was timely because, although it
had been approximately 10 months since the default
had been entered, the Trial Court was divested of jurisdiction during that time while the case proceeded
in Federal Court following removal.
3. The Trial Court Denies KWS’s Petition
To Open, Finding That KWS Failed To
Timely File Its Petition Because It Did
Not File It In The Federal Court, And
The Superior Court Affirms.
The Trial Court denied KWS’s petition with prejudice, declining to consider many of KWS’s arguments
for opening the default or the evidence KWS adduced
under the three-pronged state-law standard governing such petitions. App. 36a-37a. That standard looks
at three factors: whether (1) the petition was promptly
filed; (2) the failure to appear or file a timely answer
is excused; and (3) the party seeking to open the judgment has pleaded meritorious defenses. App. 54a
(quoting Cintas Corp. v. Lee’s Cleaning Servs., Inc.,
700 A.2d 915, 919 (Pa. 1997)); see also Schultz v. Erie
Ins. Exchange, 477 A.2d 471, 472 (Pa. Super. 1984).
As is relevant here, the Trial Court concluded
that KWS did not meet the first prong because it was
required, but failed, to file a petition to open the judgment in the Federal Court after removal. App. 59a61a. The Trial Court faulted KWS for “litigat[ing] the
issue of whether it had been properly served with the
complaint” for removal purposes, and noted that

9
“[n]othing stopped KWS from filing a petition to open
the default judgment in the federal court while simultaneously litigating the service issue.” Id. The Trial
Court concluded that “[t]he filing of such a petition
would have satisfied the state and federal tests to
open default judgments[,]” and that “KWS was required to file a petition to open the default judgment
at the earliest opportunity”—here, in the Federal
Court on removal. Id. (bold emphasis added).
As to the second and third prongs, the Trial
Court found that KWS did not allege a meritorious defense because it relied on “boilerplate allegations devoid of any supporting facts” and failed to offer a legitimate excuse for its failure to defend because KWS
had no safeguards in place to identify and respond to
legal claims. App. 68a-79a.2
The Pennsylvania Superior Court affirmed. In
response to KWS’s argument that it was not legally
obligated to file its petition to open while in Federal
Court, the Superior Court, like the Trial Court, found
that KWS was obligated to file its petition to open in
the Federal Court in order to establish the timeliness
of its challenge. App. 11a-13a. Like the Trial Court,
the Superior Court cited no legal authority or precedent to support this holding. In fact, it acknowledged
that “KWS is correct in noting that there was nothing

While not at issue here, KWS maintains that it met all of the
requirements for opening the default, including pleading a meritorious defense and demonstrating a legitimate excuse for its
failure to defend.

2

10
that required it to file its petition [to open] in federal
court.” App. 12a.3
4. The Pennsylvania Supreme Court Denies KWS’s Petition For Allowance Of
Appeal.
KWS filed a Petition for Allowance of Appeal
with the Pennsylvania Supreme Court. KWS argued
that the Supreme Court should grant review of the
lower courts’ finding that KWS’s failure to petition the
Federal Court to open the default established the untimeliness of its petition to open after remand in the
Trial Court. See Petition for Allowance of Appeal, at
5, 8, 22-23. On May 18, 2021, the Pennsylvania Supreme Court denied KWS’s Petition. App. 1a.4
REASONS FOR GRANTING THE PETITION
KWS seeks this Court’s review or summary reversal of the lower courts’ novel and unprecedented ruling that KWS was required to file a petition to open a
state-court default while the case was removed to federal court in order to have timely filed its petition for
purposes of state law. KWS had no notice of such a
requirement at the time and, to KWS’s knowledge, no
such requirement exists anywhere in this country.
The lower courts’ ruling violates bedrock constitutional principles of federalism embodied in Erie and
its progeny, and the Supremacy Clause. Put simply,
KWS filed a timely Application for Reargument in the Superior
Court on August 25, 2020. The Superior Court denied the application on October 14, 2020. App. 34a.
3

4
On June 2, 2021, KWS asked the Pennsylvania Supreme Court
to stay the remand to the Trial Court pending its filing of this
petition. The Supreme Court granted the stay until August 17,
2021. App. 2a.

11
state courts cannot impose rules of federal-court procedure on federal-court litigants, and this Court
should grant certiorari or—at the very least—summarily reverse and categorically reject the Pennsylvania courts’ unconstitutional effort to do so.
I.

THE PENNSYLVANIA COURTS’ APPLICATION OF
A NEWLY MINTED RULE OF FEDERAL PROCEDURE CONTRAVENES THIS COURT’S PRECEDENT
AND WARRANTS SUMMARY REVERSAL.

Erie Railroad Co. v. Tompkins, 304 U.S. 64
(1938) and its progeny establish foundational principles of federalism and federal supremacy that govern
the relationship between state and federal courts, and
impose clear limitations on the role of state law and
state courts when it comes to federal-court proceedings. In this case, the Pennsylvania courts cast aside
these core principles by creating and imposing a rule
of federal procedure requiring KWS to file a petition
to open a default in federal court following removal of
the case from state to federal court. This not only is
without precedent in this Court or anywhere else in
the federal and state reporters, but it plainly contravenes this Court’s precedent and the United States
Constitution. This Court, accordingly, should grant a
writ of certiorari or summarily reverse the lower
courts’ plainly erroneous decisions.
A.

Erie And Its Progeny Establish That
Federal Courts Control Their Own Procedure.

Erie and its progeny have long established the
boundaries between state and federal courts on matters of procedure and the limits on state courts when

12
it comes to the enforcement of federal rights. The message from those decisions is clear: matters of state concern must yield to federal procedural rules as applied
to federal-court litigants and proceedings, and state
courts may not impose limits or conditions on federal
law or rights that they create.
In Erie, the Court held that federal courts must
apply federal procedural law. Erie, 304 U.S. at 77–79.
Later, in Hanna, the Court went a step further, recognizing Congress’s power over matters of federal procedure, and noting that “[t]o hold that a Federal Rule
must cease to function whenever it alters the mode of
enforcing state-created rights would be to disembowel
either the Constitution’s grant of power over federal
procedure or Congress’ attempt to exercise that power
in the [Rules] Enabling Act.” Hanna, 380 U.S. at 473–
74.
Relatedly, pursuant to the command of the Supremacy Clause, the Court has erected high barriers
to prevent state courts from intruding on the work of
federal courts or impinging on federal-court litigants
and their ability to vindicate federal rights. Particularly on point in this regard is Felder. There, this
Court explained that, “[j]ust as federal courts are constitutionally obligated to apply state law to state
claims, so too the Supremacy Clause imposes on state
courts a constitutional duty ‘to proceed in such manner that all the substantial rights of the parties under
controlling federal law [are] protected.’” Felder, 487
U.S. at 151 (quoting Garrett, 317 U.S. at 245). States
“retain the authority to prescribe the rules and procedures governing suits in their courts.” Id. at 147. But
“that authority does not extend so far as to permit

13
States to place conditions on the vindication of a federal right.” Id.; see also Wayside Church, 847 F.3d 812,
820 (6th Cir. 2017) (recognizing that a state court’s
“jurisdictional rule cannot be used as a device to undermine federal law, no matter how evenhanded it
may appear”) (internal quotation marks and citation
omitted). These principles follow from the broad command of the Supremacy Clause. See Trump v. Vance,
140 S. Ct. 2412, 2425 (2020) (noting that federal law
is the “supreme Law of the Land,” U.S. Const. art. VI,
cl. 2, and that “the Constitution guarantees ‘the entire
independence of the General Government from any
control by the respective States’”) (quoting Farmers &
Mechanics Sav. Bank of Minneapolis v. Minn., 343
U.S. 516, 521 (1914)); Dixon v. von Blanckensee, 994
F.3d 95, 105 (2d Cir. 2021) (noting that a “principal
tenet of the Supremacy Clause is that ‘the states have
no power … to retard, impede, burden, or in any manner control the operations of the constitutional laws
enacted by Congress.’”) (quoting McCulloch v. Maryland, 17 U.S. 316, 436 (1819)).
Heeding their obligation to adhere to the Supremacy Clause and Felder, state courts long have
acknowledged the need to protect federal rights and
ensure their unencumbered enforcement even if that
means relaxing otherwise generally applicable state
law and procedure—or not applying that law or procedure at all. See, e.g., BHA Invs., Inc. v. City of Boise,
108 P.3d 315, 322–23 (Idaho 2005) (finding that a
state-law notice-of-claim requirement under the
Idaho Tort Claim Act does not apply to a federal takings claim); Shaw v. Leatherberry, 706 N.W.2d 299,
308 (Wis. 2005) (finding that the heightened burden
of proof in excessive force claims under state law was
inconsistent with the congressional intent behind the

14
lower burden of proof in 42 U.S.C. § 1983 cases);
Johns v. Harborage I, Ltd., 664 N.W.2d 291, 298–99
(Minn. 2003) (recognizing that the federal successorliability doctrine applied in state court where claims
were brought pursuant to Title VII); Sanchez v. Degoria, 733 So. 2d 1103, 1107 (Fla. Dist. Ct. App. 1999)
(concluding that state-law prerequisites for pleading
a claim for punitive damages violated the Supremacy
Clause as it related to a claim filed in state court pursuant to 42 U.S.C. § 1983); Dep’t of Human Servs. v.
J.G. (In re C.G), 317 P.3d 936, 944 (Ore. Ct. App. 2014)
(holding that state rule requiring preservation of arguments for appeal had to yield to federal Indian
Child Welfare Act provision allowing arguments to be
made for the first time on appeal, because the “state
[rule] interferes with a method created to achieve the
goal of the federal law”).
In other cases, courts have taken this deference
even further, and pointed to the Supremacy Clause
and principles of comity as grounds to defer to federal
law and federal rights, without even engaging in the
preemption analysis outlined in Felder. See Illinois
Cent. Gulf R.R. Co. v. Price, 539 So. 2d 202, 206 (Ala.
1988) (“Under the concepts of civility and courtesy ….
We defer to federal law, whether it be substantive or
procedural, in enforcing a federal cause of action ….”).
Consistent with Erie and Felder, and the constitutional principles they implement, this Court specifically has protected the right of removal from state interference, making clear that state “procedural provisions cannot control the privilege of removal granted
by the federal statute.” Chicago, Rock Island & Pac.
R.R. Co. v. Stude, 346 U.S. 574, 580 (1954). Thus, in

15
Shamrock Oil & Gas Corp. v. Sheets, this Court explained that “[t]he removal statute, which is nationwide in its operation, was intended to be uniform in
its application, unaffected by local law definition or
characterization of the subject matter to which it is to
be applied.” 313 U.S. 100, 104 (1941). As a result, the
act of Congress that governs removal “must be construed as setting up its own criteria, irrespective of local law, for determining in what instances suits are to
be removed from the state to the federal courts.” Id.
In other words, state courts cannot set up state-law
barriers to removal that would impinge on the federal
statutory right to remove—or, for that matter, that
prioritize state-law interests over the federal right to
remove—consistent with what Felder provides.
B.

The Pennsylvania Courts Committed
Clear Error By Creating a New Rule of
Federal Procedure That Placed Unconstitutional Conditions On KWS’s Federal Removal Right.

By requiring KWS to file a petition to open in federal court while the lawsuit against it was removed to
federal court, the Pennsylvania courts plainly violated
the clear constitutional limits on their authority by intruding into the exclusive territory of Congress and
the federal courts. Erie and Hanna squarely forbid the
lower courts’ rulings, which impermissibly fashion a
judge-made rule of federal procedure that must be followed by federal litigants against whom a state-court
default judgment has been entered. Felder and Chicago Railway likewise foreclose the lower-court decisions, which unconstitutionally impose state-law conditions or limits on the federal rights of federal litigants. And no federal statute, rule of procedure, or

16
precedent requires or remotely supports the unconstitutional overreach of the Pennsylvania courts below.
But that is not the only error in the lower courts’
rulings. As noted, the newly minted rule was unprecedented and was applied for the first time in this case
to KWS, without any prior notice. That raises a different but no less serious set of constitutional due process concerns over the retroactive application of a new
rule that prejudiced KWS in the most extreme way
possible: depriving it of its day in court for failing to
pursue a procedure in federal court that KWS could
not reasonably have known existed. Indeed, given
that the only reference to the default on the Trial
Court’s docket was a praecipe filed by the Plaintiff, not
a formal judgment by the court, there was reason to
doubt that a default had even been entered. And KWS
did not learn of the newly adopted novel rule of procedure until after the case against it was remanded to
state court—by which time, of course, it could not have
even attempted to satisfy it by filing a petition in the
Federal Court.
Nor was there any reason for KWS to anticipate
such a radical usurpation of lawmaking authority, resulting in a state-court created rule of federal procedure. This kind of unfair and unconstitutional surprise is directly contrary to due process. Indeed, there
are due process limits on the retroactive application of
a judicial decision” including whether the decision is
“is unexpected and indefensible by reference to the
law which had been expressed prior to the conduct in
issue.” Gibson v. Am. Cyanamid Co., 760 F.3d 600,
614 (7th Cir. 2014) (quoting Rogers v. Tennessee, 532
U.S. 451, 462 (2001)); De Niz Robles v. Lynch, 803 F.3d

17
1165, 1170-71 (10th Cir. 2015) (Gorsuch, J.) (explaining that “the Constitution has sought to mitigate the
due process and equal protection concerns associated
with retroactive decisionmaking in other ways, by
rules circumscribing the nature of the judicial function and the judicial actor… It invests judges with
none of the ‘legislative Power[]’ to devise new rules of
general applicability, a power Article I reserves to
Congress and its elected officials alone.”).
Given these clear, significant, and prejudicial
constitutional errors, the Court should intervene to
correct them and summarily reverse the decisions below. Intervention also would enable the Court to prevent future drastic departures from settled precedent
and constitutional precepts. Few principles are more
firmly settled than that, in our constitutional system,
state courts cannot create and impose rules of federal
procedure that purport to govern litigants in federal
court, and constrain their federal rights.
II.

SUMMARY REVERSAL OR CERTIORARI REVIEW
IS NECESSARY TO PROTECT FEDERAL RIGHTS
AND REINFORCE THE CONSTITUTIONAL BARRIERS TO STATE COURTS’ INVASION OF FEDERALCOURT PROCEDURE.

The principles at issue here could not be more
important and there is a compelling need for this
Court’s involvement. To be sure, state and federal
courts decide an enormous volume of cases, some correctly, others not. And this Court cannot—and does
not—stand as error-corrector of all erroneous decisions that come from the respective judiciaries in this
country.

18
But sometimes buried in the mass of lower-court
jurisprudence are erroneous decisions that strike at
the heart of the constitutional order and that, if left
intact, threaten to erode some of our most basic constitutional safeguards. That is the case here. And
these are no mere “structural” or academic constitutional principles. They go to the core of our separation
of powers system of government and they are, as this
Court often has stressed, essential to protecting the
constitutional rights and liberties of the people. See
Collins v. Yellen, 141 S. Ct. 1761, 1780 (2021) (“[T]he
separation of powers is designed to preserve the liberty of all the people”); Mistretta v. United States, 488
U.S. 361, 380 (1989) (“This Court consistently has
given voice to, and has reaffirmed, the central judgment of the Framers … that, within our political
scheme, the separation of governmental powers … is
essential to the preservation of liberty.”). Federalism,
too, plays an important role in safeguarding these liberties, and is directly implicated in this case. See Rosebud Sioux Tribe v. Trump, 495 F. Supp. 3d 968, 978
(D. Mont. 2020) (“These safeguards include the separation of powers between the coordinate branches, the
qualified delegation of authority from Congress, and
federalism.”).
Apart from the critical need to preserve the broad
principles outlined above, this Court’s failure to intercede will have a particularly insidious effect on KWS
here. The Pennsylvania courts’ constitutional error
gave rise to a uniquely draconian result—upholding a
default judgment against KWS. Default judgments
are universally disfavored. See, e.g. Pecarsky v. Galaxiworld.com Ltd., 249 F.3d 167, 174 (2d Cir. 2001) (“[i]t
is well established that default judgments are disfa-

19
vored. A clear preference exists for cases to be adjudicated on the merits.”); Pena v. Seguros La Comercial,
S.A., 770 F.2d 811, 814 (9th Cir. 1985) (“[D]efault
judgments are generally disfavored. Whenever it is
reasonably possible, cases should be decided upon
their merits.”); Bank & Tr. Co. v. Line Pilot Bungee,
752 N.E.2d 650, 652 (Ill. 2001) (“A default judgment
has been recognized as a drastic action, and it should
be used only as a last resort.”); Velasco v. Ruiz, 457
P.3d 1014, 1017 (Okla. 2019) (“we have consistently
recognized that default judgments are disfavored.”);
Richmond v. A.F. of L. Med. S. Plan, 204 A.2d 271, 272
(Pa. 1964) (recognizing that default judgments should
be avoided).
This unfortunate outcome merely underscores
the critical role that this Court plays in the constitutional system of state and federal courts—no more so
than when it comes to policing and upholding the bedrock principles that define the limits of state-court authority. The Pennsylvania courts here grossly overstepped that authority, and severely prejudiced KWS
in the process.
CONCLUSION
The Court should grant certiorari or summarily reverse the rulings of the Pennsylvania courts.

20
Respectfully submitted,
COLIN E. WRABLEY
Counsel of Record
ARND VON WALDOW
DEVIN M. MISOUR
EZEKIEL K. REDIKER
REED SMITH LLP
255 Fifth Avenue
Pittsburgh, PA 15222
(412) 288-3131
cwrabley@reedsmith.com

AUGUST 16, 2021

APPENDIX

1a
APPENDIX A
IN THE SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT
————
No. 443 EAL 2020
————
ERIC SCALLA,
v.

Respondent,

KWS, INC., A MEMBER OF THE THIELE GROUP,
Petitioner.
————
Petition for Allowance of Appeal from the
Order of the Superior Court
————
ORDER
PER CURIAM
AND NOW, this 18th day of May, 2021, the Petition
for Allowance of Appeal is DENIED.

2a
APPENDIX B
IN THE SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT
————
No. 443 EAL 2020
————
ERIC SCALLA,
v.

Respondent,

KWS, INC., A MEMBER OF THE THIELE GROUP,
Petitioner.
————
ORDER
PER CURIAM
AND NOW, this 7th day of July 2021, the
Application for Stay of Remand is GRANTED. Per
Pa.R.A.P. 2572(c), remand of the record is STAYED
until August 17, 2021, unless extended by operation of
that rule.
A True Copy
As Of 07/07/2021
Attest: /s/ Patricia A. Johnson
Patricia A. Johnson
Chief Clerk
Supreme Court of Pennsylvania

3a
APPENDIX C
2020 PA Super 191
IN THE SUPERIOR COURT OF PENNSYLVANIA
[Filed: August 11, 2020]
————
No. 2003 EDA 2019
————
ERIC SCALLA,
v.
KWS, INC., A MEMBER OF THE THIELE GROUP,
Appellant.
————
Appeal from the Order Entered April 12, 2019
In the Court of Common Pleas of Philadelphia
County Civil Division at
No(s): 171202802
————
BEFORE: BENDER, P.J.E., LAZARUS, J., and
STRASSBURGER, J.*
OPINION BY LAZARUS, J.:
KWS, Inc. (KWS), appeals from the order, entered
in the Court of Common Pleas of Philadelphia County,
denying its petition to open a default judgment. After
careful review, we affirm.
On March 30, 2016, Eric Scalla worked as a laborer
for Rockland Manufacturing. On that day, Scalla was
assisting other employees to use an overhead crane to
*

Retired Senior Judge assigned to the Superior Court.

4a
move an excavation ripper. The excavation ripper
was attached to the overhead crane with a chain hook,
which was manufactured by KWS. At one point, the
excavation ripper detached from the chain hook and
crushed Scalla’s leg, which required a below-the-knee
amputation.
On December 19, 2017, Scalla filed a products liability case against KWS in Philadelphia County, seeking
damages for his injuries. Scalla served his complaint
on KWS via USPS certified mail, return receipt requested,
and via regular mail, to KWS’ Tulsa, Oklahoma office—
its only United States office. On January 23, 2018,
Elizabeth Roberts, Vice President of Operations and
registered agent for KWS according to the Secretary
of State of Oklahoma, signed for the USPS return
receipt. Roberts, KWS’ lone United States employee,
set the package containing Scalla’s complaint aside
because she did not recognize the sender. Setting mail
and packages aside, unopened, was Roberts’ usual practice for KWS’ mail received from senders that Roberts
did not recognize. Roberts’ superiors at KWS were
familiar with her mail-opening practices.
On March 13, 2018, Scalla served KWS with a 10day notice of intention to enter default judgment, pursuant to Pa.R.Civ.P. 237.1. Roberts received and
signed for this notice as well—she signed both the
FedEx package receipt and the USPS return receipt
card, but, again, did not open the package. On March
26, 2018, Scalla filed a praecipe to enter default judgment, which was then entered in Scalla’s favor and
against KWS that same day.
On March 27, 2018, Scalla’s counsel sent an email to
KWS’ company email address (sales@kwschain.com)
notifying KWS that it was in default for failure to
respond to Scalla’s complaint. Roberts, who also

5a
monitored this email account, opened the email and
alerted her superiors to its contents. The next day,
KWS’ counsel responded to the email stating that they
were retained for the matter and would respond to the
complaint the following day. On March 29, 2018, KWS
removed the action to federal court on the basis of
diversity of citizenship jurisdiction, pursuant to 28
U.S.C. § 1332(a), and, on April 5, 2018, KWS filed an
answer to Scalla’s complaint in federal court. On April
19, 2018, Scalla filed a motion to remand the case
back to state court, pursuant to 28 U.S.C. § 1446(b),
on the grounds that more than thirty days had elapsed
between KWS’ receipt of notice of the complaint, which
was effectuated on January 23, 2018. Because more
than thirty days had elapsed, Scalla argued, the federal court no longer had jurisdiction to hear the case.
On May 30, 2018, the federal court ordered that the
parties engage in additional discovery on the issue of
the sufficiency of the service of process, and ordered
that the parties file supplemental briefs on that issue.
In an opinion filed November 30, 2018, the federal
court agreed with Scalla and remanded the case
back to state court, finding that: (1) under relevant
Pennsylvania and Oklahoma law, Roberts was KWS’
registered agent, at least between September 8, 2009
and May 31, 2018; (2) Roberts accepted service of
process on behalf of KWS on January 23, 2018, under
Pennsylvania law; (3) KWS’ time for removal began
when it was served with Scalla’s complaint, on January
23, 2018; and (4) KWS’ notice of removal to federal
court was untimely filed because it was filed sixty-five
days after Roberts accepted the complaint on behalf
of KWS. Scalla v. KWS, 2018 WL 6271646 (filed
November 30, 2018). On December 20, 2018, the
federal court remanded the record to state court.

6a
On December 31, 2018, the Court of Common Pleas
of Philadelphia County acknowledged return of the
record. On January 25, 2019, KWS filed a petition to
open the default judgment. The parties then filed a
series of counseled replies and sur-replies, amounting
to ten briefs in total, which caused the trial court “to
endure a death by a thousand cuts from eight separate
sur-reply briefs.” Trial Court Opinion, 9/30/19, at 12.
In an order dated April 10, 2019, the trial court
denied with prejudice KWS’ petition to open the default
judgment, and issued a thirty-six-page opinion in support thereof, finding that: (1) the federal court’s rulings
have collateral estoppel effect, which prevents KWS
from re-litigating the issues of Roberts’ authority and
the validity of service of Scalla’s complaint; (2) KWS’
petition was not verified, and four of five of KWS’ reply
briefs were unverified, which required that the court
could not consider the claims made within those filings,
pursuant to Pa.R.C.P. 206.3; (3) KWS filed an inappropriate number of reply briefs; and (4) on the merits,
KWS failed each of the prongs of the three-part test for
opening a default judgment. See Trial Court Opinion,
4/10/19. KWS appealed, and KWS and the trial court
timely complied with Pa.R.A.P. 1925. On September
30, 2019, the trial court issued a thirteen-page opinion,
and, in so doing, incorporated and adopted its initial
thirty-six-page opinion dated April 10, 2019.
On appeal, KWS presents the following issues for
our review:
(1) Did KWS establish its right to open the default
judgment against it by proving each of the
three prongs for opening under controlling
Pennsylvania law?

7a
(2) Does Pennsylvania law obligate courts to
balance the equities in considering petitions to
open default judgments?
(3) Did KWS establish its right to open the default
judgment against it by proving that a balancing of the equities favored opening under
controlling Pennsylvania law?
Appellant’s Brief, at 6.
Our standard of review for a trial court’s ruling on a
petition to open a default judgment is well-settled:
A petition to open a default judgment is
addressed to the equitable powers of the court
and the trial court has discretion to grant or
deny such a petition. The party seeking to
open the default judgment must establish
three elements: (1) the petition to open or
strike was promptly filed; (2) the default can
be reasonably explained or excused; and (3)
there is a meritorious defense to the underlying claim. The court’s refusal to open a
default judgment will not be reversed on
appeal unless the trial court abused its
discretion or committed an error of law. An
abuse of discretion is not merely an error in
judgment; rather it occurs when the law is
overridden or misapplied, or when the judgment exercised is manifestly unreasonable or
the result of partiality, prejudice, bias or illwill. Moreover, this Court must determine
whether there are equitable considerations
that weigh in favor of opening the default
judgment and allowing the defendant to defend
the case on the merits. Where the equities
warrant opening a default judgment, this

8a
Court will not hesitate to find an abuse of
discretion.
Stabley v. A&P, 89 A.3d 715, 719 (Pa. Super. 2014)
(quoting Castings Condominium Assn, Inc. v. Klein,
663 A.2d 220, 222-23 (Pa. Super. 1995)) (internal
brackets omitted).
KWS first claims that the trial court abused its
discretion in finding that it failed to satisfy each of the
three prongs for opening a default judgment. With
regard to the first prong, KWS claims that, “the undisputed record shows that it promptly filed its [p]etition
once the [t]rial [c]ourt regained jurisdiction following
the [f]ederal [c]ourt’s remand ruling.” See Appellant’s
Brief, at 23-24. KWS cites to our Court’s decision in
Kelly v. Siuma, 34 A.3d 86 (Pa. Super. 2011), and our
Supreme Court’s decision in Queen City Elec. Supply
Co., Inc. v. Soltis Elec. Co., Inc., 421 A.2d 174 (Pa.
1980), for the argument that,
Pennsylvania courts have not established a
specific time period within which a petition to
open a default judgment must be filed to
qualify as timely. Instead, the court must
consider the length of time between discovery
of the entry of the default judgment and the
reason for delay. It is well established that
where equitable circumstances exist, a default
judgment may be opened regardless of the
time that may have elapsed between entry of
the judgment and filing of the petition to open.
Appellant’s Brief, at 24 (internal citations, quotation
marks, brackets, and original emphasis omitted). KWS
claims that because it was actively litigating the
case in federal court, there was good reason to delay
filing its petition to open, since it was exercising “its

9a
Important [ ] right’ to remove the case to federal court
on the basis of the parties’ uncontested diversity of
citizenship.” See id. at 25 (internal citation and
footnote omitted).
In Kelly, supra, we discussed the timeliness
requirement of the first prong of the three-part test
when considering a petition to open a default
judgment:
[w]ith regard to the first prong, whether the
petition to open was timely filed, we note:
The timeliness of a petition to open a
judgment is measured from the date that
notice of the entry of the default judgment
is received.
* * *
In cases where the appellate courts have
found a ‘prompt’ and timely filing of
the petition to open a default judgment,
the period of delay has normally been
less than one month. See Duckson v.
Wee Wheelers, Inc., [] 620 A.2d 1206
(Pa. Super. 1993) (one day is timely);
Alba v. Urology Associates of Kingston, []
598 A.2d 57 (Pa. Super. 1991) (fourteen
days is timely); Fink v. General Accident
Ins. Co., [] 594 A.2d 345 (Pa. Super. 1991)
([] five days is timely).
[US Bank N.A. v. Mallory, 982 A.2d 986, 995
(Pa. Super. 2009)] (quotation omitted) (finding
eighty-two day delay was not timely).[]
Kelly, 34 A.3d at 92 (emphasis added).
Here, KWS claims that the trial court abused its
discretion on the issue of prompt filing because: (1) KWS

10a
was exercising its important federal statutory right
to seek removal based on diversity of citizenship;1
(2) KWS filed a timely answer within one week of
removing the case to federal court; (3) KWS filed its
petition to open the default judgment within twentyone days of the trial court’s post-remand listing of the
case for “assessment”; and (4) it would have been a
waste of resources for KWS, Scalla, and the federal
court, to file the petition to open the judgment in
federal court, since there existed the prospect that the
federal court’s ruling on the petition would be void if
the federal court remanded for lack of jurisdiction. See
Appellant’s Brief, at 31-33.
As an initial matter, we note that the March 26,
2018 docket entry of “Judgment Entered by Default,”
states, “Notice Under Rule 236 Given. Notice Under
237.1 Given.” Such a notation is sufficient to prove
that the prothonotary sent notice either to an unrepresented party or to KWS’ attorney of record under
Pa.R.C.P. 236 and 237.2 See Murphy v. Murphy, 988

1

In its opinion, the federal court denied Scalla’s motion for
attorney’s fees connected with the remand. In support of its
ruling, the federal court found that KWS had “an objectively reasonable basis for seeking removal,” and that there was “no reason
to believe that [KWS’] position (i.e., that it was not properly
served with the [c]omplaint) [was] not asserted in good faith.”
Scalla v. KWS, 2018 WL 6271646, at 9 (filed November 30, 2018).
2

Pennsylvania Rule of Civil Procedure 236(b) provides in
relevant part that “[t]he prothonotary shall immediately give
written notice by ordinary mail of the entry of any order, decree
or judgment.” See Pa.R.Civ.P. 236(b). Additionally, Pa.R.A.P.
108(b) provides that “[t]he date of entry of an order in a matter
subject to the Pennsylvania Rules of Civil Procedure shall be
the day on which the clerk makes the notation in the docket
that notice of entry of the order has been given as required by

11a
A.2d 703, 710 (Pa. Super. 2010) (holding docket entry
stating, “NS ORDER FOR HEARING FILED; HEARING FIXED FOR JUNE 12, 2008 AT 8:30AM. DATE
REPLACES PRIOR HEARING DATE OF MAY 2,
2008,” satisfied notice requirement and established
presumption that opposing party received filing); see
also Fraternal Order of Police, Lodge No. 5 v. City of
Philadelphia, 655 A.2d 666, 668 (Pa. Cmwlth. 1995)
(holding docket entry stating, “Notice Under Rule 236”
sufficient to establish notice was sent); cf. Hepler v.
Urban, 609 A.2d 152, 154 (Pa. 1992) (“[A prothonotary’s]
notation [of ‘N.S.’] on a blueback is not a ‘notation in
the docket that notice of entry of the order has been
given.”) (emphasis in original). Under these circumstances, we find that the trial court did not err in
determining that KWS received notice of the entry of
default judgment on March 26, 2018, when the prothonotary entered the appropriate notice in the docket.3
With regard to KWS’ first argument on prompt
filing—that KWS was actively litigating the matter in
federal court and exercising its important federal right
to do so—we note that there was nothing preventing
KWS from filing its petition to open the default judgment in federal court during the pendency of the federal
proceedings. Indeed, we have previously said that,
[w]henever any action is removed from a
State court to a district court of the United
States, . . .[a]ll injunctions, orders, and other
proceedings had in such action prior to its
Pa.R.Civ.P. 236(b).” See Pa.R.A.P. 108(b) (emphasis added). See
also Hepler v. Urban, 609 A.2d 152, 154 n.2 (Pa. 1992).
3

The trial court calculated that 304 days elapsed between
March 26, 2018 and January 25, 2019, however, 306 days elapsed,
in actuality.

12a
removal shall remain in full force and effect
until dissolved or modified by the district
court. 28 U.S.C. § 1450. After removal, the
federal court takes the case up where the
State court left it off. Granny Goose Foods,
Inc. v. Brotherhood of Teamsters and Auto
Truck Drivers Local No. 70 of Alameda
County, 415 U.S. 423, 436 [] (1974) (quotation
and citation omitted).
The federal court accepts the case in its
current posture as though everything done in
state court had in fact been done in the
federal court. See also Nissho-Iwai American
Corp. v. Kline, 845 F.2d 1300, 1303 (5th Cir.
1988) (quotation and citation omitted).
Kurns v. Soo Line R.R., 72 A.3d 636, 639 (Pa. Super.
2013) (internal quotation marks omitted). Also, federal
courts are empowered to set aside a default judgment
that was entered in state court and prior to the removal
to federal court. See Butner v. Neustadter, 324 F.2d
783, 785-86 (9th Cir. 1963) (“The federal court takes
the case as it finds it on removal and treats everything
that occurred in the state court as if it had taken place
in federal court. Therefore, this default judgment should
be treated as though it had been validly rendered in
the federal proceeding. . . . [A] motion to set aside a
default may be made in the district court under Fed.
R. Civ. P. 60(b) because of mistake, inadvertence,
surprise, or excusable neglect.”).
Here, KWS is correct in noting that there was
nothing that required it to file its petition in federal
court. See Appellant’s Brief, at 33. Nevertheless, KWS
was permitted to do so. See Kurns, supra; see also
Butner, supra. We conclude that the trial court did not
abuse its discretion in finding it unpersuasive that

13a
KWS did not file the motion in federal court because it
was exercising its “important federal right,” given that
a motion to set aside the default judgment could have
been made in that court. See Stabley, supra.
Also, with regard to the “prompt filing” prong, KWS
argues that it filed its petition to open within twentyone days of the trial court’s post-remand listing of the
case for “assessment.” See Appellant’s Brief, at 31.
This may be true, but is of no moment; our precedent
is well-settled that, “[t]he timeliness of a petition to
open a judgment is measured from the date that notice
of the entry of the default judgment is received.” See
Kelly, supra (emphasis added). Here, more than threehundred days elapsed after KWS received notice of the
default judgment and before it filed its petition to
open. See Stabley, supra.
Finally, KWS argues that its answer, filed in federal
court less than ten days after the entry of default,
should serve as the functional equivalent of a petition
to open. First, this argument was never raised in the
trial court. Second, when KWS ultimately filed a
petition to open the default judgment, it was filed
pursuant to the three-part test, and made no mention
of Rule 237.3. See Petition to Open Default Judgment,
1/25/19, ¶ 22. Claims raised for the first time on appeal
are waived. See Pa.R.A.P. 302(a) (“Issues not raised in
the lower court are waived and cannot be raised for the
first time on appeal.”) As a result, we discern no abuse
of discretion where the trial court found that KWS did
not promptly file its petition to open the default
judgment on January 25, 2019.4 See Stabley, supra.

4

Since the three-part test is conjunctive and not disjunctive,
we could end our analysis here. See Stabley, supra at 719.
Because of the equitable nature of KWS’ second and third claims

14a
KWS also claims the trial court abused its discretion
with regard to the second prong of the of the three-part
test; the trial court found that KWS failed to provide a
reasonable explanation or excuse for its default. See
Trial Court Opinion, 4/10/19, at 30-33. One basis upon
which the trial court relied for concluding that KWS
failed to submit a reasonable explanation for its delay
was that the court had no obligation to consider the
contents of the eight sur-replies filed between the
parties. The trial court stated:
There is no provision in our rules for filing
reply briefs to petitions to open default judgments. Petitions are ripe for disposition after
the expiration of the response period. A judge
has discretion to consider a reply brief as a
matter of grace but not as of right.
This [c]ourt finds it hard to understand how
two law firm partners believed that it was
appropriate or necessary to inundate the [c]ourt
with five [ ] separate reply briefs on behalf of
KWS. The [p]laintiff was forced to file four [ ]
briefs in response. For the most part, each
reply brief filed by KWS addressed issues
raised in the [p]laintiff’s original answer to
the petition to open. All of those issues
could—and should—have been addressed in
KWS’ first reply brief. Any new issues or
factual allegations could not be raised in any

on appeal, however, we will review all of the three-part test. See
id. (“Moreover, this Court must determine whether there are
equitable considerations that weigh in favor of opening the
default judgment and allowing the defendant to defend the case
on the merits. Where the equities warrant opening a default judgment, this Court will not hesitate to find an abuse of discretion.”).

15a
of KWS’[ ] subsequent reply briefs. They
should have been raised in the petition itself.
Id. at 13-14. The trial court further clarified its
position as to why it would not consider KWS’ reply
briefs in its opinion issued on September 30, 2019:
The court’s original opinion cited three
Pennsylvania Supreme Court and one recent
Superior Court decisions that held that reply
briefs cannot be used to raise new issues or to
remedy the original brief’s deficient discussion of an issue. This trial court recognized
that those cases were discussing appellate
procedure but believed, and still believes, that
[]the principles they espouse are equally relevant to reply briefs filed in the trial courts.[ ]
The usual course of events is that a lawyer
files a motion, the opponent files an answer,
and the first lawyer may file a reply. There is
no provision in the Pennsylvania Rules of
Civil Procedure or in the local Philadelphia
Civil Rules that permitted KWS to file its
sur-reply, sur-sur-reply, sur-sur-sur-reply, and
sur-sur-sur-sur-reply. Further research revealed
that the issue of sur-replies, sur-sur-replies,
etc., is apparently one of first impression for
Pennsylvania trial courts, although Pa.R.A.P.
2113(c) mandates that after a reply brief is
filed, “no further briefs may be filed except
with leave of court.” The issue has been discussed at length by the federal courts. While
federal court decisions are not binding on
Pennsylvania courts, this [c]ourt found the
reasoning of the federal cases discussed below
to be very persuasive.

16a
* * *
An endless volley of briefs and sur-replies
occurred in the often-cited case of U.S. ex rel.
Hockett v. Columbia/HCA Healthcare Corp.,
498 F.Supp.2d 25 (D. D.C. 2007). The court
set forth the standard of review as follows:
The decision to grant or deny leave to file
a sur-reply is committed to the sound
discretion of the court. If the movant
raises arguments for the first time in his
reply to the non-movant’s opposition, the
court will either ignore those arguments
in resolving the motion or provide the
non-movant an opportunity to respond to
those arguments by granting leave to file
a sur-reply.
[Hockett,] 498 F. Supp. 2d at 35.
A “popular mode of advocacy” in Hockett were
motions seeking to strike filings or seeking
leave to file sur-replies. [Id.] at 34. This left
the “[c]ourt as the owner of what may be the
world’s first sur-sur-sur-reply, a position in
which no [c]ourt should ever find itself.” Id. at
35. The court granted the [p]laintiff leave to
file the sur-sur-sur-reply because it responded
to evidence first raised in HCA’s reply. Id.
The [c]ourt also was presented “with something it never thought it would see, a sur-sursur-sur-reply (hereinafter, ‘reply’). All of
these papers, particularly the reply, add very
little that is new, and do not respond to any
improper argument. We are now several
steps removed from a substantive motion,
and are faced only with filings about filings.

17a
Eventually we reach a point where all this
metapleading must stop, and this is that
point. The [m]otion . . . is denied.” Hockett,
498 F. Supp. 2d at 36 (emphasis added). [ ]
The problem with KWS’ fusillade of sur-reply
briefs was they raised issues and facts that
could have been, and should have been, raised
either in KWS’[ ] petition or in its first reply
brief. [Scalla] raised issues in his answer to
the [p]etition that certainly warranted a reply
by KWS discussing them. Instead of discussing all of those issues in one reply brief,
however, KWS spread them out among four
separate sur-reply briefs, which necessitated
[Scalla] filing four of his own sur-reply briefs
in response. Between February 27 and March
11, 2019, the court was forced to endure a
death by a thousand cuts from eight separate
sur-reply briefs.
For example, KWS did not deign to submit
the affidavit of [Attorney] Galligan[ ] until
KWS’[ ] second reply brief, i.e., its first
sur-reply, on February 28th. The matters
[Attorney] Galligan discussed all occurred in
the month before the petition to open was
filed; they were not newly-discovered after
the first reply brief had been filed by KWS.
The matters set forth in the affidavit went to
the heart of KWS’[ ] claim that the petition to
open was timely filed. Timeliness was
the first of the three elements KWS had to
prove to open the default judgment. The
affidavit should have been filed as part of the
petition to open to prove that the petition

18a
was filed timely. There should have been no
difficulty in obtaining the affidavit in time for
inclusion in the petition to open because
[Attorney] Galligan is counsel of record for
KWS in this case. After [Scalla’s] answer to
the petition disputed timeliness, the affidavit
should have been included in KWS’[] first
reply to [Scalla’s] answer, not in its second
reply. Counsel for KWS have never explained
why they failed to include [Attorney] Galligan’s
affidavit in the petition to open or in their
first reply to [Scalla’s] answer to the petition.
Trial Court Opinion, 9/30/19, at 8-12 (internal citations and footnote omitted).
As stated above by the trial court, there is no provision under Pennsylvania law for filing reply briefs to
petitions to open a default judgment. Nevertheless, we
note that our Supreme Court has stated:
Although the [Pennsylvania] Constitution does
not enumerate every specific power inherent
in courts and incidental to the grant of
judicial authority under Article V, the Judicial
Code serves to codify some of these nonparticularized powers. Section 323 of the
Judicial Code provides:
Every court shall have power to issue,
under its judicial seal, every lawful writ
and process necessary or suitable for the
exercise of its jurisdiction and for the
enforcement of any order which it may
make and all legal and equitable powers
required for or incidental to the exercise
of its jurisdiction, and, except as otherwise prescribed by general rules, every

19a
court shall have power to make such rules
and orders of court as the interest of
justice or the business of the court may
require.
42 Pa.C.S. § 323. Section 912 of the Judicial
Code similarly establishes that every court
of common pleas “shall have power to issue,
under its judicial seal, every lawful writ and
process . . . as such courts have been heretofore authorized by law or usage to issue[,]”
and every judge of a court of common pleas
“shall have all the powers of a judge or magisterial district judge of the minor judiciary.” 42
Pa.C.S. § 912.
In re Return of Seized Prop. of Lackawanna Cty, 212
A.3d 1, 12 (Pa. 2019) (emphasis added).
Here, despite citing no binding precedent for refusing to consider the reply briefs filed by the parties, the
trial court nevertheless had the authority to limit its
consideration of the reply briefs. The court has the
“power to make such rules and orders of court as the
interest of justice or the business of the court may
require.” See In re Return of Seized Prop. of Lackawanna
Cty, supra. It is evident that the parties’ use of reply
briefs placed an undue burden on the “business of the
court[.]” See id. KWS’ series of reply briefs added no
claims that could not have been raised in earlier
filings; and, as noted by the trial court, the common
sense considerations underlying Pa.R.A.P. 2113(c),
which governs the submission of appellate briefs,
are “equally relevant” to briefs submitted in the trial
court. See Trial Court Opinion, 9/30/19, at 9. Consequently, the trial court did not abuse its discretion in
refusing to consider the contents of KWS’ sur-reply
briefs. See Stabley, supra.

20a
Additionally, the trial court found there were no
facts before it that supported opening the default judgment because KWS’ petition to open was not verified,
and because four of the five reply briefs it filed were
also unverified. See Trial Court Opinion, 4/10/19, at 12.
Pennsylvania Rule of Civil Procedure 206.3 requires
verification of a petition to open a default judgment.
Rule 206.3 states, “A petition or an answer containing
an allegation of fact which does not appear of record
shall be verified.” Pa.R.C.P. 206.3. With regard to
verification, we have previously stated that,
the failure to verify a petition to open or strike
a default judgment should not be routinely
condoned. However, the error may be excused
where it is inconsequential and not prejudicial. Moreover, courts should not be astute in
enforcing technicalities to defeat apparently
meritorious claims. . . . To determine whether
the error is inconsequential and not prejudicial,
we must examine the function of the allegation within the context of the petition to open.
Penn-Delco Sch. Dist. v. Bell Atlantic-Pa, Inc., 745 A.
2d 14, 18 (Pa. Super. 1999) (internal citation, quotation marks, and brackets omitted).
In Penn-Delco Sch. Dist., we excused a party’s
failure to verify the allegation that “counsel filed the
petition to open immediately after discovering the
default judgment” because that allegation was immaterial and not prejudicial. See id. In that case, we held
the allegation was immaterial and the opposing party
was not prejudiced because the petition to open was
filed pursuant to Pa.R.C.P. 237.3, which states that so
long as the petition to open is filed within ten days
after the entry of the judgment on the docket, the

21a
petition may be granted if a meritorious defense is
stated. See id. The petition to open in Penn-Delco Sch.
Dist. was filed within the ten-day period, and as such,
the unverified allegation was “mere surplusage.” See
id. at 19.
In declining to consider the unverified allegations in
KWS’ petition and reply briefs, the trial court stated
the following in its opinion accompanying its order:
The first, and only, document to contain a
verification was KWS’[ ] third reply brief, filed
March 6, 2019. That document, however,
cannot be considered by the [c]ourt because a
reply brief, especially a third reply brief,
cannot raise new facts or legal arguments
that could—and should—have been raised in
the original petition.
* * *
KWS filed its second reply brief on February
28, 2019, which attached for the first time,
an affidavit by defense counsel Thomas
Galligan, Esq.
Based on that affidavit, KWS’[ ] attorneys
claim that “only after this case was remanded
did KWS’ counsel notice a docket entry indicating that a default judgment was entered
by the [c]ourt, which led KWS to file its
[p]etition to [o]pen [d]efault [j]udgment.”
[Attorney] Galligan stated in his [a]ffidavit:
2. On Monday, December 3, 2018, I
reviewed the online docket for this case
to determine whether the matter had
been remanded back to this [c]ourt. Upon
reviewing the docket, I noticed for the

22a
first time that beneath the docket entry
for [p]laintiff[‘]s [p]raecipe to [e]nter
[d]efault [j]udgment was the language:
“JUDGMENT IN FAVOR OF ERIC
SCALLA AND AGAINST KWS[,] INC[.,]
A MEMBER OF THE THIELE GROUP[,]
FOR FAILURE TO FILE ANSWER
WITHIN REQUIRED TIME. PROPROTHONOTARY. NOTICE UNDER
RULE 236 GIVEN.”
3. The foregoing language on the docket
came as a surprise because neither KWS
nor its counsel received any separate
order or judgment entered by this [c]ourt
in response to [p]laintiff[’]s [p]raecipe to
[e]nter [d]efault [j]udgment.
Galligan Affidavit[, 2/28/19, at] ¶ ¶2 & 3.
The [p]etition and its memorandum of law,
and the first reply brief filed February 26,
2019, do not mention [Attorney] Galligan’s
discovery of the default on [December] 3, 2018.
[Attorney] Galligan’s discovery was first
raised by KWS in its second reply brief filed
on February 28, 2019. KWS has not alleged
that it only discovered [Attorney] Galligan’s
proposed evidence between February 26th
and 28th. Thus, the affidavit cannot be considered because a reply brief, especially a
second reply brief, cannot raise new facts or
legal arguments that could—and should—
have been raised in the original petition.
Trial Court Opinion, 4/10/19, at 12, 24 (internal
citations omitted).

23a
Here, the instant facts can be distinguished from
those in Penn-Delco Sch. Dist. In addition to KWS’
failure to verify its petition to open the default judgment, KWS also failed to verify all of its reply briefs,
except for its third reply brief. Additionally, KWS,
unlike the petitioner in Penn-Delco Sch. Dist., did not
file its petition to open the default judgment pursuant
to Rule 237.3. Thus, KWS was required to satisfy all
three prongs of the test for opening a default judgment, instead of only satisfying the meritorious defense
prong; KWS’ unverified allegations, therefore, are not
“mere surplusage.” See Penn-Delco Sch. Dist., supra
at 19. The unverified allegations here at issue are
material, and would prejudice Scalla if they were
considered by the court. See id. Moreover, in looking
at the allegation’s “function within the context of the
petition,” see id., the allegation itself does not withstand scrutiny. In its response to Scalla’s motion to
remand, filed in federal court on March 3, 2018, KWS
stated, “Although a default judgment was entered
against KWS by the Court of Common Pleas, service
was improper.” Defendant’s Response in Opposition to
Plaintiff’s Motion to Remand, 3/3/18, at ¶ 9 (emphasis
added). The unverified allegation at issue is material,
prejudicial, and lacks indicia of truthfulness; therefore, the trial court did not abuse its discretion, under
these circumstances, in declining to consider the contents of the unverified petition and briefs. See Stabley,
supra; see also Penn-Delco Sch. Dist., supra.
Additionally, on this second “reasonable explanation” prong of the analysis, KWS argues that,
the [t]rial [c]ourt ignores the undisputed
facts that [ ] Roberts was the only employee of
KWS in the United States; did not have a
sophisticated understanding of legal mail or

24a
service of process; did not open any mail that
appeared to be seam or from an unknown
sender; and had no knowledge of the lawsuit
until March 27, 2018. And it disregards the
undisputed fact that once [ ] Roberts—and
KWS—learned of the lawsuit, KWS acted
expeditiously to mount a vigorous defense
and litigation strategy.
Appellant’s Brief, at 45-46.
We addressed a similar argument in Autologic, Inc.
v. Cristinzio Movers, 481 A.2d 1362 (Pa. Super. 1984),
where we stated,
we find appellant’s excuse is rendered no
more reasonable because its reliance on its
insurance company was through what it
now characterizes as an “unsophisticated,
low-level employee.” The fact remains that it
was this type of employee that appellant
chose to give responsibility to for handling
damage claims. While it has been held that
an employee’s clerical error may constitute
sufficient legal justification to open a default
judgment, see e.g., Campbell v. Heilman Homes,
Inc., [ ] 335 A.2d 371 ([Pa. Super.] 1975)
(observing that [ ] employee’s failure to forward [ ] complaint was not unlike [ ] clerical
error), we do not believe the instant case falls
within that category. Appellant gave Ms. Fahrer
the responsibility not simply to forward in
every case all papers she received to her
superiors, but to make the decision whether
or not there was a need to do so. Thus,
appellant’s failure to respond to the complaint
was not due simply to the inattentiveness of its
employee, but to her conscious decision which

25a
it had empowered her to make. We do not
find it unjust to hold appellant responsible for
that decision. If we were to hold otherwise,
employers could cause interminable delays
in litigation simply by intentionally choosing
unqualified employees to handle claims brought
against them.
Id. at 1364 (emphasis added).
Indeed, during her deposition, Roberts stated that
her superiors were aware of her mail-opening practices:
Q. Does the—the president, Mr. Kurz—is he
aware that you don’t open mail if you don’t
know who it’s from?
A. Yes.
Q. And is he okay with that, as far as you
know?
A. We are changing procedure, yes.
Q. What’s the new procedure?
A. I open everything.
Q. Have you ever been reprimanded for not
opening mail?
A. No.
Roberts Deposition, 7/12/18, at 39.
Here, like the appellant in Autologic, KWS argues
that it should be excused for the error of its “unsophisticated” employee. Also, similar to the appellant in
that case, KWS gave its employee both the responsibility of deciding whether to open mail, and the power
of deciding whether to forward that mail to her
superiors. Like, in Autologic, supra, it is similarly not
“unjust to hold appellant responsible for that decision.”

26a
Id. Consequently, we cannot find an abuse of discretion in the trial court’s dismissal of this argument
under the “reasonable explanation” prong of the threepart analysis. See Stabley, supra.
Finally, the third prong of the three-part test
requires KWS to plead an arguably meritorious defense
sufficient to justify relief if proven. See Castings
Condominium Assn v. Klein, 663 A.2d 220, 224 (Pa.
Super. 1995). KWS need not prove every element of
the defense, however, it must plead the defense in
precise, specific, and clear terms. Id. See also Miller
Block Company v. United States National Bank in
Johnstown, 567 A.2d 695, 700 (Pa. Super. 1989).
In Castings Condominium Assn, we stated that an
averment was insufficient to establish a meritorious
defense because it “summarily denie[d] any wrongdoing” and failed “to refute any of the allegations with
particularity.” Id. at 224. In its brief before this Court,
KWS first argues that the trial court placed a burden
on KWS in conflict with our precedent by requiring
KWS to prove its defenses with “supporting facts.” See
Appellant’s Brief, at 39. Second, KWS asserts that the
trial court mischaracterized KWS’ “detailed averments supporting its defenses as boilerplate.’ Id.
The trial court found that all of KWS’ allegations
were boilerplate statements that failed to establish a
meritorious defense:
KWS’ principal defense is that service of
the complaint was improper. ¶ ¶ 38-47 of
Petition. That defense fails due to [the federal
court’s] conclusive ruling that the complaint
was validly served upon KWS. The [p]etition
specifies only these other defenses that were

27a
raised in KWS’[ ] federal court [a]nswer to
[Scalla’s c]omplaint:
50. KWS’[ ] answer denies all material
allegations and pleads numerous affirmative defenses, that, if proved at trial,
will absolve it of liability. First, KWS
denies that it manufactured the product
which is the subject of [p]laintiff’s lawsuit. Further, proof that KWS produced
this product has not been presented.
51. If any product designed, manufactured, distributed and/or sold by KWS is,
in fact, made the basis of this lawsuit
(which is categorically denied), then KWS
denies that this product was in any way
defective and/or unreasonably dangerous.
52. KWS averred that to the extent it
manufactured the product at issue, this
product was in all respects properly
designed, manufactured, assembled, tested,
inspected, distributed and/or sold, and the
product departed KWS’[ ] control equipped
with all elements necessary to make it
safe and containing no elements making
it unsafe, and was properly equipped
with all necessary warnings and instructions for correct and safe use, operation,
maintenance and servicing. No proof to
the contrary has been presented.
53. Finally, in the further alternative,
KWS averred that if any defect is found
to have existed or exists in any KWS
product made the basis of this lawsuit,
which was again categorically denied,

28a
then KWS averred that any such defect
was caused solely and wholly by the
misuse, abuse, alteration, modification,
damage or improper maintenance, repair,
operation, handling, servicing, installation and/or contributory and comparative
negligence, breach of duty and/or fault of
others now unknown.
All of these defenses are boilerplate allegations devoid of any supporting facts that
establish that they are genuinely meritorious
and can be established at trial. They fail the
meritorious defense test.
Trial Court Opinion, 4/10/19, at 35-36 (internal
citation, quotation marks, and ellipsis omitted).
Here, we agree with the trial court, and find that
KWS’ defenses do not refute any of Scalla’s allegations
with particularity. See Castings Condominium Assn,
663 A.2d at 225. Instead, all of the defenses summarily
state that KWS denies any wrongdoing. As such, the
above averments are insufficient to raise a meritorious
defense under the third prong of the three-part test for
opening a default judgment. See id. Accordingly, there
was no abuse of discretion under this prong of the trial
court’s analysis. See Stabley, supra.
In turning to KWS’ second and third issues on
appeal—claims that relate to the equitable nature of
the above three-part test—we have previously stated
that,
[w]e recognize the equitable nature of the
trial court’s task when deciding whether to
open a default judgment. However, the trial
court cannot open a default judgment based
on the “equities” of the case when the

29a
defendant has failed to establish all three of
the required criteria. In Provident Credit
Corporation [ v. Young, 446 A.2d 257 (Pa.
1982) ], the defendant seeking to open the
default judgment established two of the three
elements—she pled a meritorious defense to
the plaintiff’s complaint and offered a reasonable excuse for the default. [Id.] at 262-63.
Under these circumstances, the Court concluded that it would be inequitable to deny
the request to open the judgment simply
because she did not promptly file the petition
to open. The Court weighed the equities of
the case and ruled in favor of granting the
petition to open the judgment. [Appellant], on
the other hand, has not established any of
the three elements in the tripartite test.
Therefore, we reject her argument that the
“equities” weigh in her favor requiring that
we open the default judgment.
Castings Condominium Ass’n, 663 A.2d at 225.
Here, KWS, like the defendant in Castings
Condominium Ass’n, argues that the equities required
the court to open the default judgment. See Appellant’s
Brief, at 49-57. Nevertheless, KWS, also like the
defendant in that case, failed to establish any of the
three elements of the three-part test for opening a
default judgment. Accordingly, we reject KWS’ argument that the equities weigh in its favor with regard
to opening the default judgment. See Castings
Condominium, supra; see also Seeger v. First Union
Nat’l Bank, 836 A.2d 163, 167 (Pa. Super. 2003).
Order affirmed.

30a
President Judge Emeritus Bender joins this
Opinion.
Judge Strassburger files a Concurring Opinion.
Judgment Entered.
/s/ Joseph D. Seletyn
Joseph D. Seletyn, Esq.
Prothonotary
Date: 8/11/2020

31a
APPENDIX D
2020 PA Super 191
IN THE SUPERIOR COURT OF PENNSYLVANIA
[Filed August 11, 2020]
————
No. 2003 EDA 2019
————
2020 PA Super 191
————
ERIC SCALLA,
Appellee
v.
KWS, INC., A MEMBER OF THE THIELE GROUP,
Appellant
————
Appeal from the Order
Entered April 12, 2019 in the
Court of Common Pleas of
Philadelphia County
Civil Division at No(s): 171202802
————
BEFORE: BENDER, P.J.E., LAZARUS, J. and
STRASSBURGER, J.*
CONCURRING OPINION BY STRASSBURGER, J.:
I join the Majority Opinion with respect to the first
two prongs of the tripartite test to open a default
*

Retired Senior Judge assigned to the Superior Court.

32a
judgment. See Majority Opinion, at 5-20. However,
because I would not reach the merits of the third
prong, I respectfully concur.
As the Majority explains, this Court has required
a defendant to set forth a meritorious defense in
“precise, specific, and clear terms” to satisfy the third
prong of the test. Majority at 21, citing Castings
Condominium Ass’n v. Klein, 663 A.2d 220, 224 (Pa.
Super. 1995) (“Klein must plead an arguable meritorious defense sufficient to justify relief if proven. The
defendant does not have to prove every element of
her defense[;] however, she must set forth the defense
in precise, specific and clear terms.”) (citation omitted); see also Penn-Delco Sch. Dist. v. Bell Atl.-Pa, Inc.,
745 A.2d 14, 19 (Pa. Super. 1999) (same). Further, in
Smith v. Morrell Beer Distributors, Inc., we stated the
following.
Although timely filed, the petition [to open a
default judgment] did not set forth allegations of a defense that, if proven at trial,
would entitle [a]ppellants to relief. Instead of
alleging facts of record in the petition that
support a meritorious defense, [a]ppellants
set forth in their petition conclusions of law
and challenges to [a]ppellee’s proof. Motion
to Open Default Judgment, 1/12/10, at ¶¶ 29. In sum, [a]ppellants allege that they have
“a strong defense for this matter and it is
highly likely that plaintiff will not prevail on
this case in chief.” Id. at ¶ 8. We conclude that
[a]ppellants’ petition does not set forth a
meritorious defense supported by verified
allegations of fact.
29 A.3d 23, 28 (Pa. Super. 2011).

33a
On the other hand, and as KWS argues in its brief,
this Court has “accepted a broadly worded answer
as sufficient to set forth a potentially meritorious
defense, noting that ‘[t]here is no requirement that
the answer attached to a petition to open be any more
specific than the typical broad answer to a complaint.’”
Stabley v. Great Atl. & Pac. Tea Co., 89 A.3d 715, 720
(Pa. Super. 2014) (finding general averment of comparative negligence in answer and new matter, in
conjunction with assertions made by defendants
at hearing on petition to open default judgment, satisfied meritorious-defense prong), quoting Attix v.
Lehman, 925 A.2d 864, 867 (Pa. Super. 2007) (concluding “broad averments of contributory negligence in
defendant’s answer and new matter [attached to a
petition to open default judgment were] sufficient to
plead a meritorious defense”); see also KWS’s Brief at
37-42.
As the Majority points out, the three-part test is
conjunctive and a trial court cannot open a default
judgment based on the equities of the case when a
defendant has failed to establish all three prongs of
the test. See Majority at 11 n.4; Seeger v. First Union
Nat. Bank, 836 A.2d 163, 167 (Pa. Super. 2003). Accordingly, because it is not necessary to the disposition
and this Court has been inconsistent in its treatment
of the meritorious-defense prong, I would not address
the third prong of the test here. For these reasons, I
respectfully concur.

34a
APPENDIX E
IN THE SUPERIOR COURT OF PENNSYLVANIA
EASTERN DISTRICT
————
No. 2003 EDA 2019
————
ERIC SCALLA,
v.
KWS, INC., A MEMBER OF THE THIELE GROUP,
Appellant.
————
ORDER
IT IS HEREBY ORDERED:
THAT the application filed August 25, 2020,
requesting reargument of the decision dated August
11, 2020, is DENIED.
PER CURIAM

35a
APPENDIX F
IN THE COURT OF COMMON PLEAS
OF PHILADELPHIA COUNTY
FIRST JUDICIAL DISTRICT
OF PENNSYLVANIA
CIVIL TRIAL DIVISION
————
No. 02802
Control No. 19013624
————
ERIC SCALLA
vs.
KWS, INC.
————
December Term, 2017
————
ORDER
AND NOW this 10 day of April, 2019, upon consideration of the Petition to Open Default Judgment
filed by Defendant KWS, Inc., and the parties’ ten
(10) responses thereto, it is hereby ORDERED and
DECREED that the Petition to Open is DENIED with
prejudice. See Opinion filed this date.
BY THE COURT:
/s/ J. Lachman
LACHMAN, J.

36a
IN THE COURT OF COMMON PLEAS
OF PHILADELPHIA COUNTY
FIRST JUDICIAL DISTRICT
OF PENNSYLVANIA
CIVIL TRIAL DIVISION
————
No. 02802
Control No. 19013624
————
ERIC SCALLA
vs.
KWS, INC.
————
December Term, 2017
————
OPINION
Lachman, J.

April 10, 2019

This opinion sets forth the rationale underlying the
Court’s order denying Defendant KWS, Inc.’s Petition
to Open Default Judgment. In sum, those reasons
were:


Federal District Court Judge Joel Slomsky’s
opinion is conclusive on the issues of whether
the complaint was properly served on KWS and
whether KWS Vice-President Elizabeth Roberts
had authority to sign for and accept the
complaint and ten-day letter as the registered
agent for KWS. The parties are collaterally
estopped from disputing his determinations.





37a
The petition to open filed by KWS and four of
its five (5) reply briefs failed to present any facts
to support relief because they were not accompanied by verifications as required by Pa.R.C.P.
206.3.
KWS failed to meet any of the three tests
required to open a default judgment. 1. The
petition to open was not promptly filed because
it was filed 304 days after the entry of the
default judgment and 25 days after this Court
regained jurisdiction following Judge Slomsky’s
remand. 2. The failure to file a timely answer
to the complaint was not reasonably excused
by Vice President Roberts’ deliberate policy of
intentionally failing to open certified mail
letters from senders she did not recognize. 3.
KWS did not state a meritorious defense
because the service issue was conclusively
decided against KWS by Judge Slomsky, and
KWS did not provide any facts to support its
other defenses.
I. Factual Background

Plaintiff Eric Scalla was seriously injured due to
a defective hook he asserts was manufactured and
sold by Defendant KWS. Plaintiff commenced this case
by filing a complaint on December 19, 2017. The complaint was reinstated on January 19, 2018. A copy
of the state court docket is attached hereto as Exhibit
“A.”
The complaint was served upon Defendant KWS
on January 23, 2018, by certified mail at KWS’ office
at 9718 E. 55th Place, Tulsa, OK 74147. The certified
mail return receipt card was signed by Elizabeth
Roberts, vice-president of operations, corporate secre-

38a
tary, and the registered agent for service of process
upon KWS. Ms. Roberts testified in a deposition that
she put the unopened letter aside to deal with other
matters.
On March 12, 2018, Plaintiff sent to KWS the tenday notice required by Pa.R.C.P. 237.1, in the form
mandated by Rule 237.5. The notice was sent to
KWS at the Tulsa address via Federal Express,
Regular Mail, and by Certified Mail, Return Receipt
Requested. Vice President Roberts signed a receipt for
the FedEx package and the return receipt card on
March 13, 2018.
On March 26, 2018, thirteen days after service of the
10-day notice upon KWS, judgment was entered on the
Plaintiff’s praecipe for the entry of a default judgment
against KWS for failing to answer the complaint.
The next day, March 27th, Plaintiffs counsel sent an
e-mail message to Vice President Roberts informing
her that KWS was in default for failing to respond to
this lawsuit. It attached copies of the complaint,
praecipe for entry of default, and the exhibits to the
praecipe. Three attorneys with Reed Smith, LLP —
Michael C. Falk, Thomas J. Galligan, and Arnd von
Waldow — entered their appearances on behalf of
KWS on March 28 and 30th.
On March 29, 2018, KWS removed the case to the
United States District Court for the Eastern District
of Pennsylvania (“federal court”).1 A copy of the federal
court docket is attached hereto as Exhibit “B.” Despite
the existence of the state court default judgment, KWS
1

The federal court docket shows that the notice of removal
was filed in federal court on March 29, 2018. The state court
docket shows that the notice of removal was filed in state court
on April 2, 2018.

39a
filed an answer to the complaint with affirmative
defenses in federal court on April 5th. KWS never filed
a petition to open the state court default judgment in
federal court, although it had the right to file such a
petition.2
On April 19th, Plaintiff filed a motion to remand the
case back to state court, asserting that the removal
was untimely. Plaintiff contended that the complaint
was served on KWS on January 23, 2018, and the
notice of removal was not filed until sixty-five days
later, on March 29, 2018, which was beyond the thirtyday period for removal permitted by 28 U.S.C.
§ 1446(b).3 KWS contended that removal was timely
because it did not have notice of this lawsuit until
March 27th, when it received notice of the entry of the
default judgment. The motion was assigned to District
Judge Joel Slomsky, who ordered the parties to
conduct discovery on the timing issue and to file
supplemental briefs.
On November 30, 2018, Judge Slomsky granted the
motion to remand, ruling that the service of the complaint on January 23rd was valid and that the removal
2
3

See discussion on pages 20 to 22.

28 U.S.C. § 1446(b) provides, in relevant part: “[t]he notice of
removal of a civil action or proceeding shall be filed within 30
days after the receipt by the defendant, through service or otherwise, of a copy of the initial pleading setting forth the claim for
relief upon which such action or proceeding is based . . . .” A
“defendant’s time to remove starts with ‘receipt of a copy of the
Complaint, however informally . . . .’ Murphy Bros., Inc. v.
Michetti Pipe Stringing, Inc., 526 U.S. 344, 356 (1999). This has
been interpreted to mean that time for removal commences to run
when an agent of a corporation receives the Complaint. Maglio v.
F.W. Woolworth Co., 542 F. Supp. 39, 41 (E.D. Pa. 1982).” Scalla
v. KWS, Inc., No. CV 18-1333, 2018 WL 6271646, at *6 (E.D. Pa.
Nov. 30, 2018).

40a
clock started to run as of that date. A copy of Judge
Slomsky’s opinion is attached hereto as Exhibit “C.”
Consequently, the removal on March 29th was
untimely. In making that ruling, Judge Slomsky made
the following factual and legal determinations which
the parties are collaterally estopped from disputing:
On January 23, 2018, Plaintiff served the
Complaint through certified mail at Defendant’s principal place of business in Tulsa,
Oklahoma. (Doc. No. 7, Ex. B.)5 The envelope
was addressed to “KWS, Inc., a member of
the Thiele Group.” (Id.) Defendant KWS has
one office in the United States, which is
located in Tulsa, Oklahoma. (Doc No. 16, Ex.
G at 20:3-5.) Elizabeth Roberts accepted service of the Complaint by signing for it on
behalf of Defendant. (Id., Ex. B, G at 30:8-19.)
On the return receipt, Ms. Roberts did not
check either box to the right of the signature
line, which designated “Agent” in one box
and “Addressee” in the other. (Id., Ex. B.)
5

On the return receipt, signed by
Elizabeth Roberts, is handwritten by her,
the date “1/23/18.”
Roberts is KWS’s Vice President of Operations and the only employee who regularly
works in the Oklahoma office. (Id., Ex. G
at 10:21.) All other company employees are
located in KWS’s Germany offices. (Id. at
26:1-3.) Among other things, Roberts is
responsible for receiving the mail on behalf of
KWS at its Oklahoma location. (Id. at 19:25;
Id. at 26:1-2.) This includes signing receipts
for certified mail. (Id. at 24:4-8.) According
to documents filed with the Office of the

41a
Secretary of State of Oklahoma, Roberts is
also authorized to receive service of process
on behalf of Defendant KWS. Neither Roberts
nor anyone else at KWS took any action to
respond timely to the Complaint after
receiving it.
Thereafter, on March 13, 2018, Plaintiff
served Defendant with a 10-day notice of
intention to enter default judgment, pursuant
to Pennsylvania Rule of Civil Procedure
237.1, urging Defendant to file an answer
within ten days to avoid the entry of the
default judgment. (Doc. No. 7, Ex. E.) Roberts
also received and signed for this notice. (Id.)
Again no response was forthcoming, so on
March 26, 2018, Plaintiff filed a Praecipe to
Enter Default Judgment, alleging that
Defendant failed to respond to the Complaint
within 20 days, as required. (Id., Doc. 1-1, Ex.
B at 21-22.) A default judgment was then
entered in favor of Plaintiff and against
Defendant in the Court of Common Pleas of
Philadelphia County. (Doc. No. 7, Ex. D.)
The next day, on March 27, 2018, Plaintiffs
counsel, Mr. Dan Hessel, Esquire sent an
email to KWS, Inc.’s company email address,
listed on its website (sales@kwschain.com),
notifying them that the company is in default
for failure to respond to the Complaint. (Id.,
Ex. E.) Roberts read the email, and KWS then
secured counsel in this case. (Id.) On March
28, 2018, Defendant’s counsel responded to
Plaintiffs email, stating that they have been
retained to represent KWS in the matter and
that they would respond to the Complaint

42a
that day. (Id., Ex. G.) On March 29, 2018,
however, Defendant removed the action to
this Court. (Doc. No. 1.)
Scalla v. KWS, 2018 WL 6271646, at *2—*3.
Here, Plaintiff has shown that on January
23, 2018, Ms. Roberts, the registered agent’
who was authorized to accept service of process on behalf of KWS (Doc. No. 16, Exs. B, C,
H) signed and returned the receipt. (Doc. No.
7, Ex. B.) According to the documents filed by
KWS with the seal of the Secretary of State
of Oklahoma, she is the authorized agent to
accept service of process and was appointed
on September 8, 2009. The documents from
the Secretary of State also show that she was
the registered agent for service of process at
least until May 31, 2018, and that no one else
has been designated as the registered agent
for KWS. Moreover, she signed the return
receipt on January 23, 2018, accepting service
of the Complaint, and the fact that she did
not check either box as “addressee” or “agent”
is irrelevant, given her status as the registered agent to accept service of process.8
7

A registered agent is a person authorized to accept service of process for
another person, especially a foreign corporation, in a particular jurisdiction. Registered Agent, Black’s Law Dictionary (10th
ed. 2014). Even though KWS was incorporated in Oklahoma and is not a foreign
corporation in that state, the definition of
a registered agent is still pertinent.

43a
In her deposition, Roberts testified
that even though her signature was on
the successor form, and she considered
herself to be the registered agent, she did
not consider herself to be the registered
agent for service of process. (Doc. No. 16,
Ex. G at 31:2225; Id. at 32: 1-10; Id. at 42:
9-10; Id. at 47: 18-24; Id. at 48:1-6; Id. at
60: 1-25; Id. at 64: 1-4.) This testimony
contradicts the express authority given
to her to accept service in the filings with
the Secretary of State of Oklahoma, and
does not change her legal status to accept
service as set forth in the documents.
Under Oklahoma law, every domestic
corporation is required to designate a
registered agent to remain in the state to
be generally present at the corporation’s
office to accept service of process and otherwise perform the functions of registered
agent. 18 OkI. St. Ann. § 1022. KWS was
incorporated in the state of Oklahoma
(Doc. No. 16, Ex. D-4), and Roberts was so
designated. As the designated individual
to serve as registered agent on behalf of
KWS, she was the person to be served with
the Complaint. Accord Build Servs. v. V.,
No. CJ-2012-6543, 2012 Okla. Dist. LEXIS
3570 (Dist. Ct. Okla. November 21, 2012)
(service on the company’s registered service agent was deemed good and effective
service).
8

Scalla v. KWS, 2018 WL 6271646, at *4.
In its Supplemental Brief, Plaintiff has
submitted the following documents, retrieved

44a
from the Office of the Secretary of State of
Oklahoma, to prove that Roberts is KWS’s
authorized agent: (1) a three-page certificate
issued by the Office of the Secretary of State
of Oklahoma, and signed by the Secretary of
State, which states that Elizabeth Roberts
“is the registered agent for service of process
for [KWS, Inc.]” (Doc. No. 16, Ex. B.); (2) a
certificate of Successor Registered Agent,
which appointed Elizabeth Roberts as the
successor registered agent on September 8,
2009 (Id., Ex. C); (3) a document entitled
“Resignation of Registered Agent Couple with
Appointment of Successor” showing the
appointment of Elizabeth Roberts to succeed
another person as registered agent. (Id., Ex.
D-3.) These three documents were submitted
as part of an affidavit from Plaintiffs counsel
stating that he requested the aforementioned
forms from the Oklahoma Office of the
Secretary of State and was directed to
download them from their website. (Id., Ex.
D.) Attached to this Opinion are copies of the
documents numbered 1 to 3, as well as the
affidavit of Plaintiffs counsel, designated as
Document 4.
Scalla v. KWS, 2018 WL 6271646, at *2 n. 6.
Roberts admitted in her deposition that she
was employed at KWS since it was founded in
1996. (Id., Ex. G at 8:14-17.) In 2009, she was
promoted from her position as Director of
Sales to the Vice President of Operations at
KWS. (Id. at 10: 16-25.) Since 2016, she has
been the only employee of KWS that regularly
reported to the company’s Oklahoma office.

45a
(Id. at 16:4-9.) She is responsible for all mail
to the office. (Id. at 20: 18-21.) All higherranking officers of the company are based in
Germany. (Id. at 25: 19-25; Id. at 26: 1-3.) She
has met the sole shareholder many times. (Id.
at 28: 10-17.) She has access to KWS bank
accounts and the authority to write checks
and pay bills on behalf of KWS. (Id. at 24: 1725.) In addition to the express authority
given to her in the documents filed with the
Secretary of State of Oklahoma, which show
that she was the registered agent for service
of process, her background with KWS establishes a sufficient connection between Roberts
and KWS to confirm her implied authority to
accept service of process on behalf of KWS.
Borah v. Monumental Life Ins. Co., No. 043617, 2005 WL 83261, at *3 (E.D. Pa. Jan. 14,
2005) (finding that service was proper under
Pennsylvania law when it was addressed to
the President and CEO of defendant company, signed for by a mail clerk and then
delivered to the addressee’s secretary);
Thomas v. Stone Container Corp., No. 891537, 1989 WL 69499, at *3 (E.D. Pa. June 21,
1989) (finding service proper where a secretary to a vice president of the defendant company received a complaint that was addressed
to Defendant’s office and served through
certified mail).
Scalla v. KWS, 2018 WL 6271646, at *5.
Based on these determinations, Judge Slomsky
ruled that KWS was properly served with the complaint under Pa.R.C.P. 403 and 404(2). 2018 WL
6271646, at *3—*5. “On January 23, 2018, Ms.

46a
Roberts, the registered agent who was authorized to
accept service of process on behalf of KWS . . . signed
and returned the receipt.” Id. at *4. “On its face, the
return receipt expressly shows that service was
complete.” Id. at *5. These rulings are conclusive upon
KWS and the Plaintiff.
KWS did not appeal Judge Slomsky’s remand order,
although KWS had the right to file such an appeal to
the United States Court of Appeals for the Third
Circuit.
The federal court docket indicates that the case
record was mailed to the Philadelphia Court of Common Pleas on December 20, 2018. The Philadelphia
court docket indicates that the record was received on
December 31, 2018.
KWS did not file a petition to open the default
judgment until January 25, 2019. That was twentyfive days after this court had regained jurisdiction
over this case, and 304 days after the entry of the
default judgment on the docket.
II. The Complaint Was Validly
Served On January 23, 2018
Before this Court may address the merits of KWS’s
petition to open the default judgment, the Court must
address the issue of whether the complaint was validly
served on KWS.
[W]here the party seeking to open a judgment asserts that service was improper, a
court must address this issue first before
considering any other factors. If valid service
has not been made, then the judgment should
be opened because the court has no jurisdiction over the defendant and is without power

47a
to enter a judgment against him or her. In
making this determination, a court can consider facts not before it at the time the
judgment was entered. Thus, if a party seeks
to challenge the truth of factual averments in
the record at the time judgment was entered,
then the party should pursue a petition to
open the judgment, not a petition to strike
the judgment.
Cintas Corp. v. Lee’s Cleaning Servs., Inc., 549 Pa. 84,
93-94, 700 A.2d 915, 919 (1997) (citations omitted).
Judge Slomsky’s opinion in this case conclusively
established that Vice President Roberts was authorized to accept service of process and that KWS was
properly served with the complaint, rulings that KWS
failed to appeal. Judge Slomsky’s ruling collaterally
estops KWS from relitigating the issues of Vice
President Roberts’ authority and the validity of service
of the complaint.
Prior determinations by a federal court of competent
jurisdiction are conclusive upon the same parties in
state court when the issues presented in state court
were raised and decided in the federal court. Robinson
v. Fye, 192 A.3d 1225, 1232 (Pa. Cmwlth 2018) (former
inmate’s civil rights action in state court was barred
by res judicata and collateral estoppel because it
raised the same claims and issues as a previous
federal court civil rights action he filed that was
decided adversely to him); Dempsey v. Cessna Aircraft
Co., 653 A.2d 679 (Pa. Super. 1995) (en banc) (state
court petition to set aside settlement was dismissed
on res judicata grounds because earlier federal court
action raising identical issues was litigated and
dismissed by the federal court); Corn. ex rel.
Bloomsburg State Coll. by Nossen v. Porter, 610 A.2d

48a
516, 520 (Pa. Cmwlth 1992) (former associate professor was barred from pursuing state court litigation
against college for its alleged breach of contract,
due process violations, defamation, and intentional
infliction of emotional distress, because of the res
judicata effect of judgment entered in federal litigation
concerning his alleged improper dismissal and lack of
due process; the same factual information that was
entered into evidence in federal suit underlay the
professor’s state court claims); Rumbaugh v. Beck, 601
A.2d 319, 323 (Pa. Super. 1991) (judgment in federal
action finding that defendants breached agreement
to buy-out plaintiff’s share in corporation collaterally
estopped plaintiff from bringing state court shareholder’s derivative action); London v. City of Phila.,
412 Pa. 496, 194 A.2d 901, 902-03 (1963) (claim that
could have been asserted in previous federal court
action could not be litigated in subsequent state court
action).
“[T]echnical res judicata (claim preclusion) and collateral estoppel (issue preclusion) are ‘related, yet
distinct’ components of the doctrine known as res judicata.” Robinson, 192 A.3d at 1231 (citation omitted).
Collateral estoppel “is a broader concept than res
judicata and operates to prevent a question of law or
issue of fact which has once been litigated and fully
determined in a court of competent jurisdiction from
being relitigated in a subsequent suit.” Vignola v.
Vignola, 39 A.3d 390, 393 (Pa. Super. 2012) (citation
omitted). Collateral estoppel bars the re-litigation of
issues where
(1) the issue decided in the prior case is
identical to one presented in the later case;
(2) there was a final judgment on the
merits;

49a
(3) the party against whom the plea is
asserted was a party or in privity with a party
in the prior case;
(4) the party or person privy to the party
against whom the doctrine is asserted had a
full and fair opportunity to litigate the issue
in the prior proceeding and
(5) the determination in the prior proceeding was essential to the judgment.
Radakovich v. Radakovich, 846 A.2d 709, 715 (Pa.
Super. 2004) (citation omitted). When each of those
elements are met, collateral estoppel “renders issues
of fact or law, incapable of relitigation in a subsequent
suit.” Robinson, 192 A.3d at 1231-1232 (citation
omitted).
Each of those elements are met in the present
case. The identical issues of Vice President Roberts’
authority and whether service of the complaint upon
KWS was valid are at the crux of both the federal
court’s determination of the start time of the 30-day
period for removal, and in the present petition to open
the default judgment. KWS was a party in the federal
action and had a full and fair opportunity to litigate
both issues in that forum. KWS conducted discovery
and filed a supplemental brief arguing its position on
those issues. The determination of the extent of Vice
President Roberts’ authority and whether service of
the complaint upon KWS was valid, were essential to
the judgment that removal was untimely and that
the case had to be remanded to state court.
Judge Slomsky’s order granting the remand petition
and ordering the case remanded was a final order on
the merits of that issue. KWS could have immediately
appealed Judge Slomsky’s remand order to the Third

50a
Circuit, but deliberately chose not to appeal. “[A] judgment is deemed final for purposes of res judicata or
collateral estoppel unless or until it is reversed on
appeal.” Robinson, 192 A.3d at 1232 quoting Shaffer
v. Smith, 543 Pa. 526, 673 A.2d 872, 874 (1996)
(emphasis and citation omitted). See, U.S. Nat’l Bank
in Johnstown v. Johnson, 506 Pa. 622, 629, 487 A.2d
809, 813 (1985) (“the dismissal of a complaint as to one
defendant upon its preliminary objections . . . becomes
res judicata if not appealed within the prescribed
appeal period”); Catanese v. Scirica, 437 Pa. 519, 521,
263 A.2d 372, 374 (1970) (trial court sustained a
demurrer and dismissed the complaint; “when the
period during which an appeal could have been filed
expired, the doctrine of res judicata became applicable
to the cause of action the complaint attempted to
state”); Love v. Temple University, 422 Pa. 30, 33, 220
A.2d 838, 840 (1966) (plaintiffs failure to appeal the
trial court’s order sustaining one defendant’s preliminary objections and dismissing the complaint as to
that defendant, “renders the doctrine of res judicata
applicable and precludes the vacation of the order
after the time of appeal has passed”).
KWS is collaterally estopped from relitigating or
challenging Judge Slomsky’s rulings that Vice President Roberts was authorized to accept service and that
the service of the complaint upon KWS was valid.
III. Because The Petition Was Not Verified,
It Did Not Present Any Facts That Supported
Opening The Default Judgment
A petition to open a default judgment is governed by
Pa.R.C.P. 206.1(a)(1), and must be accompanied by a
verification as required by Rule 206.3, which states: “A
petition or an answer containing an allegation of fact
which does not appear of record shall be verified.” The

51a
petition to open filed by KWS and four of the five (5)
reply briefs it filed, were not accompanied by verifications of the non-record facts alleged therein. Plaintiff’s
counsel objected to the lack of a verification. See
Answer to ¶ 51 of the Petition, and Plaintiff’s memorandum of law at p. 37 n. 2. Thus, the only facts before
this Court are those on the state and federal court
dockets, and those presented in Plaintiff’s verified
answers and reply briefs.
The first, and only, document to contain a verification was KWS’s third reply brief, filed March 6, 2019.
That document, however, cannot be considered by the
Court because a reply brief, especially a third reply
brief, cannot raise new facts or legal arguments that
could – and should – have been raised in the original
petition. See discussion below on pages 13 to 15.
“Mere averments in an unverified petition do not
constitute evidence.” Thus, a court presented with an
unverified petition has “absolutely no facts” before it
from which to make a proper determination. McKnight
v. Corn. Dept. of Transp., 549 A.2d 1356, 1358 (Pa.
Cmwlth 1988).
Failures to verify petitions under Rule 206.3 constitute fatal defects and “may not be brushed aside as
mere ‘legal technicalities.- Pfuhl v. Coppersmith, 434
Pa. 361, 367, 253 A.2d 271, 274 (1969) (construing
former Pa.R.C.P. 206; the 1995 explanatory comment
to present Rule 206.3 states, “Rule 206.3 which continues the requirement of verification is taken almost
verbatim from former Rule 206.”).4
4

Rule 206.3 continues the requirement of verification of nonrecord facts mandated by former Rule 206. See, 1995 Explanatory
Comment accompanying Rule 206.3. “The note to [former] Rule
206 of the Supreme Court Rules of Civil Procedure, 12 P.S.

52a
IV. KWS Filed An Inappropriate
Number Of Reply Briefs
There is no provision in our rules for filing reply
briefs to petitions to open default judgments. Petitions
are ripe for disposition after the expiration of the
response period. A judge has discretion to consider a
reply brief as a matter of grace but not as of right.
This Court finds it hard to understand how two law
firm partners believed that it was appropriate or necessary to inundate the Court with five (5) separate
reply briefs on behalf of KWS. The Plaintiff was forced
to file four (4) briefs in response. For the most part,
each reply brief filed by KWS addressed issues raised
in the Plaintiff’s original answer to the petition to
open. All of those issues could — and should — have
been addressed in KWS’ first reply brief. Any new
issues or factual allegations could not be raised in any
of KWS’s subsequent reply briefs. They should have
been raised in the petition itself.
A party “is prohibited from raising new issues in a
reply brief. Moreover, a reply brief cannot be a vehicle
to argue issues raised but inadequately developed in
[the] original brief.” Commonwealth v. Fahy, 558 Pa.
313, 323 n. 8, 737 A.2d 214, 219 n. 8 (1999). Accord,
Commonwealth v. Bracey, 568 Pa. 264, 274 n. 5, 795
A.2d 935, 940 n. 5 (2001) (a party “is prohibited from
raising new issues or remedying an original briefs
Appendix, explains that the provision for verification continues
the Act of April 9, 1915, P.L. 72, s 1, 12 P.S. s 514. That act
provides that ‘A judge of any court of record shall not, in any
matter, case, hearing, or proceeding before him, receive or consider any petition, or paper in the nature of a petition, alleging
any matter of fact, unless the petition or paper is duly verified as
to such allegations.” Pfuhl v. Coppersmith, 253 A.2d 271, 274 n. 4
(Pa. 1969).

53a
deficient discussion in a reply brief.”); Michael G. Lutz
Lodge No. 5, of Fraternal Order of Police v. City of
Philadelphia, 634 Pa. 326, 335 n. 5, 129 A.3d 1221,
1226 n. 5 (2015) (a party “may not raise a new issue,
or adequately develop an existing issue, in a reply
brief’). “[It] is axiomatic that arguments raised for the
first time in a reply brief are waived.” Brown v.
Halpern, 2019 PA Super 5, -- A.3d ---, --- n.13, 2019 WL
991502019 at *14 n.13 (2019).5
The facts supporting a petition must be set forth in
the petition itself and not in a reply brief, because
briefs are not part of the record. “Because briefs are
not ‘facts’ and are not of record, they cannot serve as a
basis for the trial court’s decision.” In re Lackawanna
County Tax Claim Bureau, 91 A.3d 316, 318 (Pa.
Cmwlth. 2014), citing Erie Indemnity Co. v. Coal
Operators Casualty Co., 441 Pa. 261, 272 A.2d 465,
466-67 (1971) (“Apparently, the court took into
consideration facts alleged in the briefs, but briefs
are not part of the record, and the court may not
consider facts not established by the record.”). Accord,
Scopel v. Donegal Mutual Insurance Co., 698 A.2d 602,
606 (Pa.Super. 1997) (“litigants’ briefs are not part of
the official record”); Laspino v. Rizzo, 398 A.2d 1069,
1073 (Pa. Cmwlth 1979) (factual “representations by
counsel in legal memoranda on the issue cannot
supplant proper documentation through” facts of
record); Bollinger v. Palmerton Area Communities
Endeavor Inc., 361 A.2d 676, 681 n.11 (Pa. Super.
1976) (citation omitted) (“‘[B]riefs are not part of the

5

These cases dealt with reply briefs filed in appellate proceedings. The principles they espouse are equally relevant to reply
briefs filed in trial courts.

54a
record, and the court may not consider facts not
established by the record.’”).
V. KWS Failed The Three-Part Test For
Opening A Default Judgment
KWS contends that it has met all three requirements of the traditional test to open a default judgment. See ¶¶ 22-60 of KWS’ Petition, and pages 5-12
of its memorandum of law. KWS’s petition and memorandum of law did not invoke Pa.R.C.P. 237.3(b)(2).6
[A] petition to open a judgment is an appeal
to the equitable powers of the court. It is
committed to the sound discretion of the
hearing court and will not be disturbed
absent a manifest abuse of that discretion.
Ordinarily, if a petition to open a judgment
is to be successful, it must meet the following
test: (1) the petition to open must be promptly
filed; (2) the failure to appear or file a timely
answer must be excused; and (3) the party
seeking to open the judgment must show a
meritorious defense.
Cintas, 549 Pa. at 94, 700 A.2d at 919 (citations
omitted).
“[T]he trial court cannot open a default judgment
based on the ‘equities’ of the case when the defendant
has failed to establish all three of the required criteria”
for opening a default judgment. Myers v. Wells Fargo
Bank, MA., 986 A.2d 171, 176 (Pa. Super. 2009).
6

On March 6, 2019, KWS filed its third reply brief and mentioned Rule 237.3(b) for the first time. See page 3. Rule 237.3(b)
clearly does not apply to this case because the petition to open
was filed 304 days after the entry of the default judgment. See
discussion at pages 18 to 23.

55a
“Prejudice is not a separate element examined by the
courts when [a petitioner does] not establish all three
requirements of the test to open the default judgment.”
Dumoff v. Spencer, 754 A.2d 1280, 1283 (Pa. Super.
2000). To examine prejudice, or a lack thereof, when
the tripartite test is not satisfied, runs counter to the
basic principle that “a court cannot open a default
judgment based upon equities.” Id.
A. KWS did not successfully rebut the presumption
that it received the Rule 236 and 237.1 notices
of the entry of the default judgment
As a threshold matter, the Court must dispel
KWS’s claims in its second, third, fourth, and fifth
reply briefs that it did not receive the notices of the
entry of the default judgment and documents required
by Pa.R.C.P. 236 and 237.1. That issue was raised
for the first time in KWS’s second reply brief, which
was filed on February 28, 2019. That issue was not
raised in the Petition to Open or its accompanying
memorandum of law. It also was not raised in KWS’s
first reply brief filed on February 26, 2019. This issue
is waived because a reply brief, especially a second
reply brief, cannot raise new facts or legal arguments
that could — and should — have been raised in the
original petition. See discussion on pages 13 to 15.
The March 28, 2018 docket entry announcing the
entry of the default judgment states, “Notice Under
Rule 236 Given. Notice Under 237.1 Given.”
A notation on the docket stating, “Notice Under
Rule 236,” is sufficient to establish that the prothonotary sent notice either to an unrepresented party
or to the attorney of record. Fraternal Order of Police,
Lodge No. 5 v. City of Philadelphia, 655 A.2d 666, 668
(Pa. Cmwlth 1995); Tiber Holding Corp., v. Diloreto,

56a
No. 89-00133, 2002 WL 34097874 (C.P. Chester Jan.
23, 2002) (“The July 31, 2000 docket notation- ‘Certification – Notice sent 236’, in and of itself, sufficiently
establishes that notice was appropriately sent;” it satisfies all requirements of sending notice and cannot
be disputed).
The burden is on “the recipient to prove that the
notice was not received. Notably, testimony alone
will not rebut the presumption” of receipt. The “mere
assertion by counsel that the notice was not received
[is] insufficient to overcome the presumption” that
the notice had been mailed. Wheeler v. Red Rose
Transit Auth., 890 A.2d 1228, 1231 (Pa. Cmwlth 2006).
See, O’Hare v Mezzacappa, No. 2012-3442, 2014 WL
3774010, at *14 (C.P. Northampton July 08, 2014) (a
bald and unsupported denial of receipt of mail notices
is not sufficient), affirmed mem. 125 A.3d 465 (Pa.
Super. 2015) (Table). Consequently, the factually
unsupported claims by KWS’s attorneys that KWS did
not receive the proper notice and documents are
insufficient to establish lack of notice.
In the present case, by stating, “Notice Under Rule
236 Given. Notice Under 237.1 Given,” the docket
entry establishes that all of the requirements of notice
have been satisfied and notice cannot now be disputed.
Corn., Dep’t of Transp., Bureau of Driver Licensing v.
Grassi, 129 Pa. Cmwlth. 387, 391, 565 A.2d 865, 866
(1989) (driver would be deemed to have received notice
of trial court’s action on his license revocation appeal
on the date noted on the docket, regardless of driver’s
claim that he did not receive notice until a later date),
appeal dismissed as improvidently granted, 607 A.2d
1073 (Pa. 1992).
Moreover, KWS did not present any facts supporting its claim that it did not receive the Rule 236 and

57a
237.1 notices and documents. Its bald claims that it
did not receive them are not evidence and did not rebut
the presumption of mailing and receipt.7
B. The petition to open was not timely filed
With regard to the first prong, whether the petition
to open was timely filed, the Superior Court has
stated:
The timeliness of a petition to open a
judgment is measured from the date that
notice of the entry of the default judgment
is received. The law does not establish a
specific time period within which a
7

An example of the type of evidence needed to rebut the presumption of mailing and receipt occurred in Donegal Mut. Ins. Co.
v. Ins. Dept, 719 A.2d 825, 827 (Pa. Cmwlth 1998):
Through witness testimony and documentation pertaining to their standard mailing practices, the Insurance Commissioner found that Donegal successfully
established the presumption that it mailed the
notice of cancellation and that it was received by the
Rothbergs. However, the Insurance Commissioner
then found that the Rothbergs successfully rebutted
this presumption by credibly denying receipt of the
notice and, more importantly, presenting corroborative
testimonial evidence from a disinterested third party.
Specifically, the Rothbergs presented the testimony
of David Davitch, the president of Presidential
Financial. Donegal allegedly mailed notices to both
the Rothbergs and Presidential Financial, but Mr.
Davitch testified that Presidential Financial, like the
Rothbergs, never received the notice. The Insurance
Commissioner considered Mr. Davitch’s testimony
highly credible and an excellent source of corroboration
because Presidential Financial no longer held the
Rothbergs’ mortgage and thus had no stake in the
outcome of this case.

58a
petition to open a judgment must be filed
to qualify as timely. Instead, the court
must consider the length of time between
discovery of the entry of the default
judgment and the reason for delay.
***
In cases where the appellate courts have
found a “prompt” and timely filing of the
petition to open a default judgment, the
period of delay has normally been less
than one month. See Duckson v. Wee
Wheelers, Inc., 423 Pa.Super. 251, 620
A.2d 1206 (Pa. Super. 1993) (one day is
timely); Alba v. Urology Associates of
Kingston, 409 Pa.Super. 406, 598 A.2d 57
(Pa. Super. 1991) (fourteen days is timely);
Fink v. General Accident Ins. Co., 406
Pa.Super. 294, 594 A.2d 345 (Pa. Super.
1991) (period of five days is timely).
[US Bank N.A. v. Mallory, 982 A.2d 986, 995
(Pa. Super. 2009)] (quotation omitted) (finding eighty-two day delay was not timely).
See Myers v. Wells Fargo Bank, N.A., 986 A.2d
171 (Pa. Super. 2009) (indicating delay of
fourteen days in filing petition to open was
timely); Pappas v. Stefan, 451 Pa. 354, 304
A.2d 143 (1973) (fifty-five day delay was not
prompt).
Kelly v. Siuma, 34 A.3d 86, 92 (Pa. Super. 2011) (tavern had no justifiable excuse for ten-month delay in
filing an answer to civil complaint, and thus, trial
court acted within its discretion in denying tavern’s
motion to open default judgment; tavern claimed to
have referred the matter to an attorney, but tavern

59a
did not provide a date when that occurred, and tavern
was a corporate defendant, which should have had in
place the means to monitor its legal claims).
KWS admits that on March 27, 2018, KWS received
notice of the entry of the default judgment. ¶ 12 of
Petition. That was the date Plaintiff’s counsel sent an
email to KWS that informed Vice President Roberts
“that the Praecipe to Enter Default Judgment was
filed against KWS.” ¶ 12 of Petition (emphasis added).
See, Scalla v. KWS, 2018 WL 6271646, at *3. KWS
removed the case to federal court on March 29, 2018,
and Judge Slomsky ordered it remanded on November
30, 2018. The federal court case record was mailed to
the Philadelphia Court of Common Pleas on December
20, 2018. The record was received by the Philadelphia
court on December 31, 2018.
KWS did not file a petition to open the default
judgment until January 25, 2019. That was twentyfive days after this court had regained jurisdiction
over this case, and 304 days after the entry of the
default judgment on the docket.
1. The failure to file a petition
to open in federal court
KWS argues that the time spent in federal court
should not count on the timeliness issue because KWS
was barred from filing a petition to open in state court
during that period and Plaintiff was contesting the
jurisdiction of the federal court. KWS, however, was
not barred from filing a petition to open the default
judgment in federal court during that time period.
A default judgment entered in state court before the
case is removed to federal court, “is valid and must be
treated as if it were entered in federal court.” J.K. ex
rel. Kpakah v. CSX Transp., No. CIV.A. 14-729, 2014

60a
WL 4632356, at *1-2 (E.D. Pa. Sept. 16, 2014)
(emphasis added, citations omitted). “‘Whenever any
action is removed from a State court to a district
court of the United States, . . . [41 injunctions, orders,
and other proceedings had in such action prior to its
removal shall remain in full force and effect until
dissolved or modified by the district court.’ 28 U.S.C.
§ 1450. After removal, the federal court takes the case
up where the State court left it off. The federal court
accepts the case in its current posture as though
everything done in state court had in fact been done in
the federal court.” Kurns v. Soo Line R.R., 72 A.3d 636,
639 (Pa. Super. 2013) (case citations and some quotes
omitted).
“The proper procedure respecting the opening vel
non of a removed default judgment is to file a motion
to set aside or open the default judgment in federal
court, Fed.R.Civ.P. 60(b), which treats the default
judgment removed from state court ‘as though it had
been validly rendered in the federal proceeding’. The
federal court tests the removed default judgment by
the same legal standard used for ones entered in the
federal forum.” Penna. Nat. Bank & Tr. Co. v. Am.
Home Assur. Co., 87 F.R.D. 152, 154 (E.D. Pa. 1980)
(case citations omitted). Accord, Merk Constr., Inc. v.
Jemco, Inc., No. 09-CV-1636, 2010 WL 11561118, at *1
(E.D. Pa. Dec. 15, 2010) (citations omitted) (“In a
removal case, a federal district court may open a
default judgment entered by the state court from
which the case was removed where . . . defendant files
a motion to open the default judgment in federal court
pursuant to Rule 60(b) of the Federal Rules of Civil
Procedure.”); Defillipis v. Dell Fin. Servs., No. 3:14CV-00115, 2014 WL 3921371, at *2 (M.D. Pa. Aug. 11,
2014) (citations omitted) (“[a]s far as the default
judgment previously entered in the State Court is

61a
concerned, there is no question that under the general
removal statute it is within the power of a Federal
Court to set aside a default judgment rendered by a
State Court before removal of a particular case”);
Robert E. Diehl, Inc. v. Morrison, 590 F. Supp. 1190,
1192 (M.D. Pa. 1984) (“This court has authority to set
aside a judgment rendered by a state court before
removal of the action.”).
KWS did not exercise its right to ask the federal
court to open the default judgment. Instead, KWS
litigated the issue of whether it had been properly
served with the complaint. Nothing stopped KWS from
filing a petition to open the default judgment in the
federal court while simultaneously litigating the
service issue. The filing of such a petition would have
satisfied the state and federal tests to open default
judgments. KWS was required to file a petition to open
the default judgment at the earliest opportunity.
Whether Judge Slomsky would have ruled upon it, is
of no moment.
What is important is that for 304 days, KWS slept
on its duty to file a petition to open the default
judgment. “Those who sleep on their rights must
awaken to the consequence that they have disappeared.” Fulton v. Fulton, 106 A.3d 127, 131 (Pa.
Super. 2014) (citations omitted). See, Cintas, 549 Pa.
at 94, 700 A.2d at 919 [IA] petition to open a judgment
is an appeal to the equitable powers of the court.”). The
petition to open was not timely filed.
2. The 25-day delay after the court
regained jurisdiction
Also untimely was the twenty-five days between this
court regaining jurisdiction on December 31, 2018,
and the filing of the petition to open on January 25,

62a
2019. KWS did not present any verified facts in its
motion or reply briefs that reasonably explained why
one of its many defense attorneys or support staff
did not monitor the federal court docket or the state
court docket after Judge Slomsky’s November 30, 2018
order remanding the case to state court. Instead,
KWS presented unverified allegations that “do not
constitute evidence,” leaving this court with “absolutely no facts” before it from which to make a proper
determination. McKnight, 549 A.2d at 1358.
Had defense counsel monitored the dockets, they
would have discovered that the federal court record
was sent to state court on December 20, 2018, and was
received by the state court on December 31, 2018.
KWS also did not present verified facts to reasonably
explain why its counsel failed to understand that the
state court immediately regained jurisdiction over the
matter when it received the record from federal court.
3. A separate order is not needed to
effectuate a default judgment
KWS repeatedly recites the incorrect mantra that
a praecipe to enter a default judgment in a
Pennsylvania state court is not effective until an
actual court order granting a default judgment is
filed. Such a two-step process may be the rule in
federal court, but it is not the rule in state court. In
Pennsylvania state courts, a default judgment comes
into existence when the Prothonotary notes on the
docket that the Plaintiff has filed the required
praecipe for entry of default judgment. A separate
“default judgment order” is not generated by the
Prothonotary or the court, and is not required to
effectuate the default judgment.

63a
In this case, the default judgment was entered on
March 26, 2018, as the docket clearly indicates by
stating, “JUDGMENT ENTERED BY DEFAULT.”
“The prothonotary, on praecipe of the plaintiff, shall
enter judgment against the defendant for failure to file
within the required time a pleading to a complaint
which contains a notice to defend.” Pa.R.C.P. 1037(b)
(emphasis added). Plaintiff’s complaint contained the
required Notice to Defend. Plaintiff’s ten-day notice
and praecipe for the entry of a default judgment
complied with all of the requirements of Pa.R.C.P.
237.1 through 237.5.
Default judgments are granted ministerially by
prothonotaries and without judicial involvement.
Gotwalt v. Dellinger, 577 A.2d 623, 625 (Pa. Super.
1990). “It is clear that the prothonotary can enter judgment against the defendant for want of an appearance
or pleading to the complaint with the same effect as
if moved for in open court.” Roberts v. Gibson, 251 A.2d
799, 802 (Pa. Super. 1969).
Our situation also occurred in Gall v. Crawford, 982
A.2d 541 (Pa. Super. 2009). “After [defendants] failed
to respond timely to the complaint and after they
received notice of [plaintiff’s] intent to seek a default
judgment but failed to take any action, the prothonotary entered the default judgment. . . . Such procedure
is explicitly permitted by Pa.R.C.P. 1037(b)[.]” 982
A.2d at 546.
4.

The affidavit of Thomas Galligan

KWS filed its second reply brief on February 28,
2019, which attached for the first time, an affidavit by
defense counsel Thomas Galligan, Esq.

64a
Based on that affidavit, KWS’s attorneys claim that
“only after this case was remanded did KWS’ counsel
notice a docket entry indicating that a default
judgment was entered by the Court, which led KWS to
file its Petition to Open Default Judgment.” Second
Reply Brief p. 3 (dated Feb. 28, 2019). Mr. Galligan
stated in his Affidavit:
2. On Monday, December 3, 2018, I
reviewed the online docket for this case to
determine whether the matter had been
remanded back to this Court. Upon reviewing
the docket, I noticed for the first time that
beneath the docket entry for Plaintiffs
Praecipe to Enter Default Judgment was the
language: “JUDGMENT IN FAVOR OF ERIC
SCALLA AND AGAINST KWS INC A MEMBER OF THE THIELE GROUP FOR FAILURE TO FILE ANSWER WITHIN REQUIRED TIME. PRO-PROTHONOTARY.
NOTICE UNDER RULE 236 GIVEN.”
3. The foregoing language on the docket
came as a surprise because neither KWS
nor its counsel received any separate order
or judgment entered by this Court in response
to Plaintiffs Praecipe to Enter Default
Judgment.
Galligan Affidavit ¶¶ 2 & 3.
The Petition and its memorandum of law, and the
first reply brief filed February 26, 2019, do not
mention Mr. Galligan’s discovery of the default on
Dec. 3, 2018. Mr. Galligan’s discovery was first raised
by KWS in its second reply brief filed on February 28,
2019. KWS has not alleged that it only discovered Mr.
Galligan’s proposed evidence between February 26th

65a
and 28th. Thus, the affidavit cannot be considered
because a reply brief, especially a second reply
brief, cannot raise new facts or legal arguments that
could — and should — have been raised in the original
petition. See discussion on pages 13 to 15.
The affidavit misrepresents the text of the docket
entry in three important regards. First, it omits the
date of that entry, which was “12-MAR-2018.” That
was nine months before Mr. Galligan or any other
defense attorney apparently checked the docket.
Second, it omits the notation “JUDGMENT
ENTERED BY DEFAULT” which is the first line to
that entry. Third, it omits the next-to-the-last part of
the docket entry which stated: “NOTICE UNDER
237.1 GIVEN.” Rule 237.1 is the default judgment
rule; the docket entry states that KWS was given
notice of the entry of the default judgment pursuant to
Rule 237.1. The entire docket entry reads as follows:
26-MAR-2018 12:29:42
JUDGMENT ENTERED BY DEFAULT
26-MAR-2018
RYAN, TIMOTHY J.
PRAECIPE FOR ENTRY OF DEFAULT JUDGMENT FILED. JUDGMENT IN FAVOR OF ERIC
SCALLA AND AGAINST KWS INCA MEMBER
OF THE THIELE GROUP FOR FAILURE TO
FILE ANSWER WITHIN REQUIRED TIME.
PRO-PROTHONOTARY.
NOTICE UNDER RULE 236 GIVEN. NOTICE
UNDER 237.1 GIVEN.
AFFIDAVIT
FILED.

OF

NON-MILITARY

SERVICE

66a
The affidavit also misrepresents regarding when
KWS and its counsel first received notice of the entry
of the default judgment. KWS knew since March 27,
2018, and its counsel admit they knew at least since
May 3, 2018, that a default judgment had been entered
against KWS in state court. KWS’s attorneys admitted
that on March 27, 2018, KWS received notice of the
entry of the default judgment. ¶ 12 of Petition. That
was the date Plaintiff’s counsel sent an email to
KWS that informed Vice President Roberts “that the
Praecipe to Enter Default Judgment was filed against
KWS.” ¶ 12 of Petition (emphasis added); Exhibit “M”
to Plaintiff’s Answer to the Petition. She immediately
emailed it to her superiors in Germany. The next day,
March 28th, Arnd von Waldow, Esq., sent an email to
Plaintiff’s counsel stating that Reed Smith had been
retained by KWS in this matter. Exhibit “0” to Plaintiff’s Answer to the Petition. KWS also admits these
facts in paragraphs “g)” and “h)” on page four of its
second reply brief.
On March 29, 2018, attorneys Falk, von Waldow,
and Galligan filed a Notice of Removal in federal
court on behalf of KWS. On page 2 of the Notice, they
admit, “On March 26, 2018, Plaintiff filed a Praecipe
to Enter Default Judgment” in state court. They
attached a copy of the Praecipe for Enter Default
Judgement, along with its exhibits, as Exhibit “B” to
the Notice.8 Those exhibits included the return receipt
card for the certified mail copy of the complaint signed
for by Vice President Roberts on January 23, 2018, and
the FedEx and certified mail receipts for the ten-day
8

A copy of the complete Notice of Removal package was
attached as an exhibit to the Notification of Notice of Removal all
three attorneys filed in state court on April 2, 2019. All of the
documents are available on the Court’s electronic docket system.

67a
notice signed for by Vice President Roberts on March
13, 2019.
On May 3, 2018, the attorneys for KWS filed a
response to Plaintiff’s motion to remand in federal
court. It unequivocally stated that as of May 3, 2018,
KWS and its attorneys knew about the entry of the
default judgment: “Although a default judgment was
entered against KWS by the Court of Common Pleas,
service was improper.” Defendant KWS Inc.’s Response
in Opposition to Plaintiff’s Motion to Remand at ¶ 9
(emphasis added); Plaintiff’s Ex. “A” to Plaintiff’s SurSur Reply in Opposition to Defendant’s Petition to
Open Default Judgment, filed on March 4, 2019. This
judicial admission, that the attorneys for KWS knew
about the entry of the default judgment on May
3, 2018, was made almost 10 months before Mr.
Galligan’s February 28, 2019 affidavit stating that
the first defense counsel knew of the default judgment
was on December 3, 2018.
In KWS’s third reply brief, defense counsel again
admit that they knew in March 2018 of the filing of the
default judgment:
KWS readily acknowledges that in late
March 2018 it received Plaintiff’s Praecipe to
Enter Default Judgment and that during
federal court proceedings Plaintiff construed
that Praecipe as the equivalent of an actual
judgment. Nevertheless and notwithstanding
Plaintiff’s argument to the contrary (Reply to
Sur-Sur-Reply at pp. 2-4), knowledge of
these facts is not tantamount to knowledge of
an actual judgment by default having been
entered by the Prothonotary, particularly
when there is still today no copy of any judgment that was entered by the Prothonotary or

68a
served upon KWS as required by Rule
236(a)(2).
KWS Third Reply Brief page 7 (dated March 6, 2019).
A troubling issue is raised by defense counsels’
repeated insistence that they did not realize that a
default judgment had been entered until December 3,
2018. Mr. Galligan’s knowledge of the existence of
the default judgment was based solely on a docket
entry made on March 26, 2018 that clearly stated,
“JUDGMENT ENTERED BY DEFAULT.” That
docket entry did not change between March 26th and
December 3rd.
The only logical conclusion is that none of the
attorneys for KWS ever looked at the state court
docket until December 3rd. The same information that
led Mr. Galligan on December 3rd to realize that a
petition to open needed to be filed, was available on
the face of the docket beginning on March 26th.
The Court is left with two unpalatable conclusions.
In the first, defense counsel never checked the state
court docket during the first eight months of their
representation of KWS. In the second, defense counsel
are not being candid with the Court. The Court need
not decide which is correct, because either situation
prevents KWS from establishing a reasonable excuse
for the 304 day delay in filing the petition to open.
This petition to open the default judgment is
untimely and KWS failed to meet the first test.
C. The failure to file a timely answer
cannot be excused
“[W]hether an excuse is legitimate is not easily
answered and depends upon the specific circumstances of the case. The appellate courts have usually

69a
addressed the question of legitimate excuse in the
context of an excuse for failure to respond to the
original complaint in a timely fashion.” Kelly v. Siuma,
34 A.3d 86, 93 (Pa. Super. 2011) (tavern had no
justifiable excuse for ten-month delay in filing an
answer to civil complaint, and thus, trial court acted
within its discretion in denying tavern’s motion to
open default judgment; tavern claimed to have
referred the matter to an attorney, but tavern did not
provide a date when that occurred, and tavern was a
corporate defendant, which should have had in place
the means to monitor its legal claims).
This Court has no hesitancy in concluding that KWS
does not have a reasonable excuse for not answering
the complaint after it was served or after it received
the ten-day notice of intention to take a default
judgment. Judge Slomsky’s determination that Vice
President Roberts was the registered agent for service
of process upon KWS enjoys collateral estoppel effect.
See the portions of Judge Slomsky’s opinion quoted
above on pages 4 to 7.9
Vice President Robert testified that her “job
duties include the daily operation of the
office,” including opening the mail. Roberts
Dep. pp. 17, 19. Her routine was to “look
through it, pick out the checks and the bills,
and set the rest of it aside.” Id. p. 19.

9

Vice President Roberts admitted that documents filed with
the Oklahoma Department of State named her as the registered
agent for KWS, although she denied that she was the “registered
agent for service of process.” Roberts Dep. pp 30-31, 40, 41, 47,
52, 53, 54-55, 58, 59, 63-64, 70, 73. Judge Slomsky’s rejection of
that argument has collateral estoppel effect. See Scalla v. KWS,
2018 WL 6271646, at *4 & n. 8, quoted above on page 6.

70a
Q Do you open all of the mail on the day that
you receive it?
A No.
Q

At some point, do you open the mail?

A Not if I don’t recognize who it’s from.
Q So what do you do with mail if you don’t
recognize who it’s from?
A I just leave it to the side.
Q

And then what happens to it?

A It just stays there.
Q

Forever

A Well —
Q

or somebody at some

A occasionally, I —
Q

goes through it?

A Once it’s stacked up, I put it in the shred
pile.
Q Now, are your —is the process for you to
open mail and respond to mail — is that in —
in writing anywhere?
A No.
Q Did someone tell you, at KWS, if you don’t
recognize who the mail is from, to not open it
and put it aside?
A No.
Q Why do you — why do you — why do you
do that? Why don’t you just open it and see
what’s in it?

71a
A I just don’t have time.
Q If you receive a certified letter, and you
don’t know who it’s from, would you open it
then?
A Probably not.
Q A certified letter is when the postal
carrier has you actually sign the green card
that’s attached to the — to the package. Do
you understand that?
A Yes, sir.
Q Are you — are you telling me that there
are times that the mail carrier would hand
you a document and ask you to sign the green
card, you would sign it, and then put the mail
aside and never open it?
A Yes.
Q Did it concern you at all that the fact that
it was a certified mailing — it might be
important, and you should read it?
A Not really.
Roberts Dep. pp. 21-23.
Vice President Roberts admitted that her signature
appears on the return receipt card upon which she
wrote the date “1/23/18.” Roberts Dep. p. 29. She did
not open the package at that time. Id. p. 32. “I had no
clue what it was. ... I didn’t know what it was.” Id. p.
35. She agreed that the sender must have thought the
contents were important because the package had to
be received and signed for. Id. p. 36.

72a
Q (By Mr. Hessel) Do you remember what
you did with the package, when you got it, on
January 23rd of 2018?
A I’m sure I set it aside with the rest of the
mail that I didn’t open.
Q

Any reason you didn’t open the package?

A It was not a check, and it was not a — an
invoice, and it was not —
Q

How do you know?

MR. VON WALDOW:
done.
A And it
personally.

was

not

I’m sorry. She’s not
addressed

to

me

Q (By Mr. Hessel) So if mail comes in, and
it’s addressed just to KWS, do you — do you
open it?
A If it’s a check or if it’s an — a bill.
How do you — how did you know that what
was in this envelope that was sent certified
mail might not be a check or a bill?
A Because I don’t know the company.
Roberts Dep. pp. 36-37.
Q (By Mr.Hessel) Ms. Roberts, I just want to
be crystal clear on what your process is for
opening mail versus not opening mail, and
you had mentioned a couple of different
things. You’d said you open the envelopes if
there’s a check or an invoice in them; correct?
A Correct.

73a
Q And you also said you open mail if you
know who it’s being sent from, but you don’t
open the mail if you don’t know who it’s being
sent from
A Right.
Q

— correct?

A Yes.
Q So — so how do you know that you might
not be getting a check or an invoice from some
company that you don’t recognize?
A Well, I don’t get checks from people that
are not customers, and I don’t get bills from
people I don’t do business with.
Q Okay. Has there ever been an occasion
where you opened an envelope not knowing
who the sender was?
A No.
Q Do you treat mail differently if it’s
addressed to KWS, Inc., versus Elizabeth
Roberts at KWS, Inc.?
A Yes.
Q

And how do you treat it differently?

A If it has my name on it, I for sure open it.
Q Is that true even if you don’t know who
the sender is?
A Yes.
Q And why is that? Why do you treat the
mail differently?
A Well, because they had the patience to
look up my name for my name to be on there.

74a
Q Any other reason why you treat mail
differently?
A No.
Q Does the — the president, Mr. Kurz — is
he aware that you don’t open mail if you don’t
know who it’s from?
A Yes.
Q And is he okay with that, as far as you
know?
A We are changing procedure, yes.
Q

What’s the new procedure?

A I open everything.
Q Have you ever been reprimanded for not
opening mail?
A No.
Roberts Dep. pp. 37-39 (emphasis added).
Because corporate entities have the means and
sophistication to monitor legal claims against them,
they cannot establish a reasonable excuse for not
timely answering a complaint when they do not have
in-house mechanisms for monitoring those claims.
E.g., Kelly v. Siuma, 34 A.3d at 94 (“BBK, Inc. is a
corporate defendant, which should have in place the
means to monitor its legal claims”); Myers v. Wells
Fargo Bank, N.A., 986 A.2d 171, 177 (Pa. Super. 2009)
(“U.S. Bank is a corporation and not a layperson,” and
it has “the means to monitor its legal claims”); Reid v.
Boohar, 856 A.2d at 161 (“We emphasize Appellant
is a layperson, not a corporate defendant with the
means to monitor its legal claims.”).

75a
KWS must accept the consequences of Vice President Roberts’ modus operandi regarding which mail
she chose to open. An analogous situation arose in
Autologic Inc. v. Cristinzio Movers, 481 A.2d 1362 (Pa.
Super. 1984), where the Superior Court held that the
trial court did not abuse its discretion in finding that
the defendant failed to reasonably explain or excuse
its default. The defendant’s failure to respond to the
complaint was due to its employee’s conscious decision
not to forward the complaint and notice of praecipe
for entry of default judgment to the insurer or her
superiors, a decision which the defendant had
empowered her to make.
[W]e find appellant’s excuse is rendered
no more reasonable because its reliance on
its insurance company was through what it
now characterizes as an “unsophisticated,
low-level employee.” The fact remains that it
was this type of employee that appellant
chose to give responsibility to for handling
damage claims. While it has been held that
an employee’s clerical error may constitute
sufficient legal justification to open a default
judgment, see e.g., Campbell v. Heilman
Homes, Inc., 233 Pa.Super. 366, 335 A.2d 371
(1975) (observing that the employee’s failure
to forward the complaint was not unlike a
clerical error), we do not believe the instant
case falls within that category.
Appellant gave Ms. Fahrer the responsibility not simply to forward in every case all
papers she received to her superiors, but to
make the decision whether or not there was
a need to do so. Thus, appellant’s failure to
respond to the complaint was not due simply

76a
to the inattentiveness of its employee, but to
her conscious decision which it had empowered her to make. We do not find it unjust
to hold appellant responsible for that decision. If we were to hold otherwise, employers
could cause interminable delays in litigation
simply by intentionally choosing unqualified
employees to handle claims brought against
them.
Autologic, 481 A.2d at 1364 (emphasis and break
added).
KWS failed to pass the second test for opening a
default judgment.
D. KWS did not state a meritorious defense
In order to assert a meritorious defense, a party
must assert a defense that, if proven at trial, would
entitle the party to judgment in its favor. Reid v.
Boohar, 856 A.2d 156, 162 (Pa. Super. 2004) (Appellant pled a “meritorious defense” by asserting facts
showing that Appellee actually caused the accident in
question).
Bald assertions of a meritorious defense are insufficient to open a default judgment. Kramer v. City of
Phila., 229 A.2d 875, 877 (Pa. 1967) (“the City’s bald
assertion in its petition that it has a valid action over
against the additional defendant does not meet the
requirement of showing that a defense exists on the
merits”).
“The requirement of a meritorious defense is only
that a defense must be pleaded that if proved at trial
would justify relief. The defense does not have to prove
every element of its defense[;] however, it must set
forth the defense in precise, specific and clear terms.”

77a
Seeger v. First Union Nat. Bank, 836 A.2d 163, 166
(Pa. Super. 2003) (citations omitted) (meritorious
defense test met because defendant’s proposed answer
and new matter set forth sufficient facts to support one
of its defenses).
“Merely asserting in a petition to open default
judgment that one has a meritorious defense is insufficient. The moving party must set forth its meritorious
defense. If any one of the alleged defenses would
provide relief from liability, the moving party will have
pled a meritorious defense and will have satisfied the
third requirement to open the default judgment.” Id.
“The meritorious defense must, however, be pleaded
in a fashion which shows that the defense asserted is
genuinely meritorious and that it can be established
at trial.” City of Philadelphia v. New Sun Ray Drug,
Inc., 394 A.2d 1311, 1313 (Pa. Cmwlth 1978) (“The
appellant’s petition amounting to nothing more than a
general denial of the averments of the city’s complaint
falls woefully short of this standard.”).
Consequently, a party must aver “the facts upon
which the meritorious defense is based.” Young v.
Mathews Trucking Corp., 119 A.2d 239, 239 (Pa.
1956). Accord, Seeger, 836 A.2d at 166; Explo, Inc. v.
Johnson & Morgan, 441 A.2d 384, 388 (Pa. Super.
1982) (meritorious defense not found where there
were no facts alleged in support of the “defense”);
Ecumenical Enterprises, Inc. v. NADCO Const., Inc.,
385 A.2d 392, 395 (Pa. Super. 1978) (mere allegations
are “insufficient for the purposes of demonstrating
the existence of a meritorious defense since the facts
underlying the defense [are] not averred”); Slott v.
Triad Distributors, Inc., 327 A.2d 151, 154 (Pa. Super.
1974) (citation omitted) (“It is clear that the petition to
open must set forth its defenses ‘in precise, specific,

78a
clear and unmistaken terms,’ and must set forth the
facts on which the defense is based.”); Girard Tr.
Bank v. Remick, 258 A.2d 882, 884 (Pa. Super. 1969)
(“A petition to open the judgment and to let in a
defense is proper only when sufficient facts are
pleaded to show that the defense is meritorious and
that the defense can be established at trial.”).
KWS’ principal defense is that service of the complaint was improper. ¶¶ 38-47 of Petition. That
defense fails due to Judge Slomsky’s conclusive ruling
that the complaint was validly served upon KWS. The
Petition specifies only these other defenses that
were raised in KWS’s federal court Answer to the
Complaint:
50. KWS’s answer denies all material
allegations and pleads numerous affirmative
defenses, that, if proved at trial, will absolve
it of liability. First, KWS denies that it
manufactured the product which is the
subject of Plaintiff’s lawsuit. Further, proof
that KWS produced this product has not been
presented.
51. If any product designed, manufactured, distributed and/or sold by KWS is, in
fact, made the basis of this lawsuit (which is
categorically denied), then KWS denies that
this product was in any way defective and/or
unreasonably dangerous.
52. KWS averred that to the extent it
manufactured the product at issue, this product was in all respects properly designed,
manufactured, assembled, tested, inspected,
distributed and/or sold, and the product
departed KWS’s control equipped with all

79a
elements necessary to make it safe and containing no elements making it unsafe, and
was properly equipped with all necessary
warnings and instructions for correct and
safe use, operation, maintenance and servicing. No proof to the contrary has been
presented.
53. Finally, in the further alternative,
KWS averred that if any defect is found to
have existed or exists in any KWS product
made the basis of this lawsuit, which was
again categorically denied, then KWS averred
that any such defect was caused solely and
wholly by the misuse, abuse, alteration,
modification, damage or improper maintenance, repair, operation, handling, servicing,
installation and/or contributory and comparative negligence, breach of duty and/or
fault of others now unknown.
All of these defenses are boilerplate allegations
devoid of any supporting facts that establish that they
are “genuinely meritorious and . . . can be established
at trial.” City of Philadelphia v. New Sun Ray Drug,
Inc., 394 A.2d at 1313. They fail the meritorious
defense test.
VI. Conclusion
For the foregoing reasons, the petition to open
default judgment filed by KWS was denied by this
Court.
BY THE COURT:
/s/ J. Lachman
LACHMAN, J.

80a

————
Exhibit “A”
Docket Entries
Philadelphia Court of Common Pleas
————

81a
FIRST JUDICIAL DISTRICT OF PENNSYLVANIA
TRIAL DIVISION-CIVIL
DOCKET REPORT
CASE NUMBER

CASE CAPTION
SCALLA VS KWS, INC.,
A MEMBER OF THE
THIELE GROUP

171202802
FILING DATE:
19-DEC-2017

COURT: JC

JURY: J

CASE TYPE: PRODUCT LIABILITY
STATUS: WAITING TO LIST ASSESSMENT
RELATED CASES:
Motions:
Motion
Description

Assign
Date

PETITION
TO OPEN
JUDGMENT

21-FEB2019

Date
Received

Judge
Name

25-JAN- LACHMAN
2019
MARLENE
19013624
F

82a
Parties:
Seq. Assoc. Expiration Party
No. With
Date
Type
1

ID

Party Name/ Address

APLF A78457 HESSEL, DANIEL L.
GOLKOW
HESSEL LLC
1628 PINE ST
PHILADELPHIA PA
19103
(215) 988-9400
(215) 988-0042 – FAX

2

1

PLF

@958
3294

SCALLA, ERIC
2594 MADLEY
HOLLOW RD
BUFFALO MILLS,
PA 15534

3

6

DFT

@958
3295

KWS INC
A MEMBER OF THE
THIELE GROUP
9950 55TH PL
TULSA, OK 74146

TL

J444

RAU, LISA M.
ROOM 593
CITY HALL
PHILADELPHIA PA
19107
(215) 686-3768

APLF

A316
975

RYAN, TIMOTHY J.
GOLKOW HESSEL
LLC
1628 PINE ST
PHILADELPHIA PA
19103
(215) 988-9400
(215) 988-0042 – FAX

4

5

01-APR2018

1

83a
6

ADFT

7

TL

A931
87

FALK, MICHAEL C.
REED SMITH LLP
THREE LOGAN
SQUARE
1717 ARCH STREET,
SUITE 3100
PHILADELPHIA PA
19103
(215) 851-8222
(215) 851-8222
(215) 851-1420 - FAX

J425

ROBINS-NEW,
SHELLEY
ROOM 673
CITY HALL
PHILADELPHIA
PA 19107

8

6

ADFT A3194 GALLIGAN,
87
THOMAS J.
REED SMITH LLP
REED SMITH
CENTRE
225 FIFTH AVE
SUITE 1200
PITTSBURGH, PA
15222
(412) 288-3121

9

6

ADFT A5662 VON WALDOW,
8
ARND N.
REED SMITH LLP
REED SMITH
CENTRE
225 FIFTH AVENUE
PITTSBURGH, PA
15222
(412) 288-3131
(412) 288-3063 - FAX

84a
Docket Entries:
Filing
Date/Time

Docket Entry

Date Entered

19-DEC-2017
10:47:44

ACTIVE CASE

19-DEC-2017

19-DEC-2017
10:47:44

E-Filing Number:
1712041566

19-DEC-2017
HESSEL,
DANIEL L.

COMMENCEMENT
CIVIL ACTION
JURY
19-DEC-2017
10:47:44

COMPLAINT FILED
NOTICE GIVEN
COMPLAINT WITH
NOTICE TO
DEFEND WITHIN
TWENTY (20) DAYS
AFTER SERVICE IN
ACCORDANCE
WITH RULE 1018.1
FILED

19-DEC-2017
10:47:44

JURY TRIAL
PERFECTED
12 JURORS
REQUESTED.

19-DEC-2017
HESSEL,
DANIEL L.

19-DEC-2017
HESSEL,
DANIEL L.

19-DEC-2017
10:47:44

WAITING TO LIST
CASE MGMT CONF

19-DEC-2017
HESSEL,
DANIEL L.

19-JAN-2018
14:17:08

PRAECIPE TO
REINSTATE CMPLT

19-JAN-2018
HESSEL,
DANIEL L.

85a
COMPLAINT WITH NOTICE TO
DEFEND WITHIN TWENTY (20)
DAYS AFTER SERVICE IN
ACCORDANCE WITH RULE
1018.1 REINSTATED. (FILED
ON BEHALF OF ERIC SCALLA)
26-JAN-2018
14:45:35

ORDER
ENTERED/236
NOTICE GIVEN

26-JAN-2018
RAU, LISA M.

NOTICE OF STANDING ORDER
FOR
ALL
CASES
PENDING
BEFORE JUDGE LISA M. RAU
AND NOW, THIS 15TH DAY OF
NOVEMBER, 2017, ALL PARTIES
AND COUNSEL ARE HEREBY
NOTIFIED THAT BECAUSE JUDGE
LISA RAU’S SPOUSE, LAWRENCE
KRASNER, WAS A CANDIDATE
FOR DISTRICT ATTORNEY IN
PHILADELPHIA, THERE IS A
POSSIBILITY THAT SOMEONE
INVOLVED IN THIS CASE (COUNSEL, PARTY, OR WITNESS) MAY
HAVE MADE A FINANCIAL CONTRIBUTION TO JUDGE RAU’S
SPOUSE’S OR ANOTHER DISTRICT
ATTORNEY CANDIDATE’S CAMPAIGN FUND OR PAC.
ALL COUNSEL AND PARTIES ARE
THEREFORE
DIRECTED
TO
REVIEW JUDGE RAU’S STANDING
ORDER, AVAILABLE AT HTTP://
WWW.COURTS.PHILA.GOV/PDF/CP

86a
CIVIL/RSO.PDF, WHICH DETAILS
THE PROCEDURES THAT THE
COURT IS IMPLEMENTING TO
ALLOW COUNSEL AND LITIGANTS TO RAISE ANY CONCERNS
THEY MAY HAVE WHERE SOMEONE INVOLVED IN A CASE
ASSIGNED TO JUDGE RAU HAS
MADE CONTRIBUTIONS TO JUDGE
RAU’S
SPOUSE’S
CAMPAIGN
FUND OR PAC OR THAT OF
ANOTHER CANDIDATE WHO RAN
FOR DISTRICT ATTORNEY.
BY THE COURT:
LISA M. RAU, J.

87a
FIRST JUDICIAL DISTRICT OF PENNSYLVANIA
TRIAL DIVISION-CIVIL
DOCKET REPORT
26-JAN-2018
14:45:36

NOTICE GIVEN
UNDER RULE 236

29-JAN-2018

NOTICE GIVEN ON 29-JAN-2018
OF ORDER ENTERED/236 NOTICE
GIVEN ENTERED ON 26-JAN-2018.
02-FEB-2018 AFFIDAVIT OF SER13:33:23
VICE FILED

02-FEB-2018
HESSEL,
DANIEL L.

AFFIDAVIT OF SERVICE OF PLAINTIFF’S COMPLAINT UPON KWS
INC A MEMBER OF THE THIELE
GROUP BY CERTIFIED MAIL ON
01/23/2018 FILED. (FILED ON
BEHALF OF ERIC SCALLA)
10-MAR-2018 LISTED FOR CASE
17:45:47
MGMT CONF

10-MAR-2018

12-MAR-2018 ENTRY OF
13:31:15
APPEARANCE

12-MAR-2018
RYAN,
TIMOTHY J.

ENTRY OF APPEARANCE OF
TIMOTHY J RYAN FILED. (FILED
ON BEHALF OF ERIC SCALLA)
14-MAR-2018 NOTICE GIVEN
00:30:19

14-MAR-2018

26-MAR-2018 JUDGMENT
12:29:42
ENTERED BY
DEFAULT

26-MAR-2018
RYAN,
TIMOTHY J.

88a
PRAECIPE FOR ENTRY OF
DEFAULT JUDGMENT FILED.
JUDGMENT IN FAVOR OF ERIC
SCALLA AND AGAINST KWS INC
A MEMBER OF THE THIELE
GROUP FOR FAILURE TO FILE
ANSWER WITHIN REQUIRED
TIME. PRO-PROTHONOTARY.
NOTICE UNDER RULE 236 GIVEN.
NOTICE UNDER 237.1 GIVEN.
AFFIDAVIT OF NON-MILITARY
SERVICE FILED.
26-MAR-2018 WAITING TO LIST
12:39:04
ASSESSMENT

26-MAR-2018

28-MAR-2018 ENTRY OF
14:51:36
APPEARANCE

28-MAR-2018
FALK,
MICHAEL C.

ENTRY OF APPEARANCE OF
MICHAEL C FALK FILED. (FILED
ON BEHALF OF KWS INC A
MEMBER OF THE THIELE
GROUP)
30-MAR-2018 ENTRY OF
14:28:03
APPEARANCE

02-APR-2018
GALLIGAN,
THOMAS J.

ENTRY OF APPEARANCE OF
THOMAS J GALLIGAN FILED.
(FILED ON BEHALF OF KWS, INC.
AND KWS INC A MEMBER OF THE
THIELE GROUP)

89a
30-MAR-2018 ENTRY OF
17:14:12
APPEARANCE

02-APR-2018
VON
WALDOW,
ARND N.

ENTRY OF APPEARANCE OF ARND
N VON WALDOW FILED. (FILED
ON BEHALF OF KWS INC. AND
KWS INC A MEMBER OF THE
THIELE GROUP)
02-APR-2018 NOT OF REMOVAL
14:51:12
TO US DIST CT

02-APR-2018
FALK,
MICHAEL C.

NOTICE OF REMOVAL TO THE
U.S. (EASTERN) DISTRICT COURT
UNDER 2:18-CV-01333. (FILED ON
BEHALF OF KWS INC A MEMBER
OF THE THIELE GROUP)
31-DEC-2018
15:17:06

REMANDED BY US
DISTRICT COURT

31-DEC-2018

ORDERED THAT THIS CASE IS
REMANDED TO THE COURT OF
COMMON PLEAS OF
PHILADELPHIA.
04-JAN-2019
13:50:43

WAITING TO LIST
ASSESSMENT

04-JAN-2019

25-JAN-2019
13:20:39

PETITION TO OPEN
JUDGMENT

25-JAN-2019
FALK,
MICHAEL C.

90a
24-19013624 RESPONSE DATE
02/14/2019. (FILED ON BEHALF OF
KWS INC A MEMBER OF THE
THIELE GROUP)
14-FEB-2019 ANSWER (MOTION/
11:04:44
PETITION) FILED

14-FEB-2019
HESSEL,
DANIEL L.

24-19013624 ANSWER IN OPPOSITION OF PETITION TO OPEN
JUDGMENT FILED. (FILED ON
BEHALF OF ERIC SCALLA)
19-FEB-2019 MOTION ASSIGNED
10:53:14

19-FEB-2019

24-19013624 PETITION TO OPEN
JUDGMENT ASSIGNED TO JUDGE:
ROBINS-NEW, SHELLEY . ON
DATE: FEBRUARY 19, 2019
21-FEB-2019 MOTION
09:02:54
ASSIGNMENT
UPDATED

21-FEB-2019

24-19013624 REASSIGNED TO
JUDGE LACHMAN, MARLENE F
ON 21-FEB-19
26-FEB-2019 MOTION/PETITION
09:54:10
REPLY FILED

26-FEB-2019
FALK,
MICHAEL C.

24-19013624 REPLY IN SUPPORT
OF PETITION TO OPEN JUDGMENT FILED. (FILED ON BEHALF
OF KWS INC A MEMBER OF THE
THIELE GROUP)

91a
27-FEB-2019 MOTION/PETITION
09:46:36
REPLY FILED

27-FEB-2019
HESSEL,
DANIEL L.

24-19013624 REPLY IN
OPPOSITION OF PETITION TO
OPEN JUDGMENT FILED. (FILED
ON BEHALF OF ERIC SCALLA)
28-FEB-2019 MOTION/PETITION
15:12:21
REPLY FILED

28-FEB-2019
FALK,
MICHAEL C.

24-19013624 REPLY IN SUPPORT
OF PETITION TO OPEN
JUDGMENT FILED. (FILED ON
BEHALF OF KWS INC A MEMBER
OF THE THIELE GROUP)
04-MAR-2019 MOTION/PETITION
09:47:41
REPLY FILED

04-MAR-2019
HESSEL,
DANIEL L.

24-19013624 REPLY IN
OPPOSITION OF PETITION TO
OPEN JUDGMENT FILED. (FILED
ON BEHALF OF ERIC SCALLA)
06-MAR-2019 MOTION/PETITION
09:46:47
REPLY FILED

06-MAR-2019
FALK,
MICHAEL C.

24-19013624 REPLY IN SUPPORT
OF PETITION TO OPEN JUDGMENT FILED. (FILED ON BEHALF
OF KWS INC A MEMBER OF THE
THIELE GROUP)

92a
06-MAR-2019 MOTION/PETITION
13:26:21
REPLY FILED

06-MAR-2019
HESSEL,
DANIEL L.

24-19013624 REPLY IN
OPPOSITION OF PETITION TO
OPEN JUDGMENT FILED. (FILED
ON BEHALF OF ERIC SCALLA)
07-MAR-2019 MOTION/PETITION
11:01:31
REPLY FILED

07-MAR-2019
FALK,
MICHAEL C.

24-19013624 REPLY IN SUPPORT
OF PETITION TO OPEN JUDGMENT FILED. (FILED ON BEHALF
OF KWS INC A MEMBER OF THE
THIELE GROUP)
08-MAR-2019 MOTION/PETITION
08:39:00
REPLY FILED

08-MAR-2019
HESSEL,
DANIEL L.

24-19013624 REPLY IN
OPPOSITION OF PETITION TO
OPEN JUDGMENT FILED. (FILED
ON BEHALF OF ERIC SCALLA)
11-MAR-2019 MOTION/PETITION
10:49:15
REPLY FILED

11-MAR-2019
FALK,
MICHAEL C.

24-19013624 REPLY IN SUPPORT
OF PETITION TO OPEN
JUDGMENT FILED. (FILED ON
BEHALF OF KWS INC A MEMBER
OF THE THIELE GROUP)
*** End of Docket ***

93a

————
EXHIBIT “B”
Docket Entries — U.S. District Court
From Exhibit “P” to Plaintiff’s Answer to Defendant
KWS’s Petition to Open
————

94a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF PENNSYLVANIA
(PHILADELPHIA)
————
CIVIL DOCKET FOR CASE #: 2:18-cv-01333-JHS
————
SCALLA v. KWS, INC.

Date Filed: 03/29/2018
Date Terminated:
Assigned to:
11/30/2018
HONORABLE JOEL
Jury Demand: Defendant
H. SLOMSKY
Cause: 28:1332 Diversity- Nature of Suit: 365 P.I.:
Personal Inj. Prod.
Product Liability
Liability
Jurisdiction: Diversity
Plaintiff
ERIC SCALLA
represented by

DANIEL L. HESSEL
GOLKOW HESSEL LLC
1800 JOHN F. KENNEDY
BLVD
SUITE 1010
PHILADELPHIA, PA 19103
215-988-9400
Email:
dhessel@golkowhessel.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

v.
Defendant
KWS, INC.
A MEMBER OF THE THIELE GROUP

represented by

95a
MICHAEL C. FALK
REED SMITH LLP
THREE LOGAN SQUARE
1717 ARCH STREET
SUITE 3100
PHILADELPHIA, PA 19103
215-851-8222
Fax: 215-851-1420
Email: mfalk@reedsmith.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
ARND N. VON WALDOW
REED SMITH CENTRE
225 FIFTH AVE
PITTSBURGH, PA 15222
412-288-7242
Email:
avonwaldow@reedsmith.com
ATTORNEY TO BE NOTICED
WAYNE W. RINGEISEN
REED SMITH LLP
435 6TH AVE
PITTSBURGH, PA 15219
412-288-3314
Fax: 412-288-3063
Email: wringeisen@
reedsmith.com
ATTORNEY TO BE NOTICED

96a
Date Filed

#

03/29/2018

1 NOTICE OF REMOVAL by KWS,
INC. from Court of Common Pleas
of Philadelphia County,
Pennsylvania, case number 1712
02802 together with Certificate of
Service. (Filing fee $ 400 receipt
number 175948) (Attachments: # 1
Exhibit)(ti, ) (Entered: 04/02/2018)

03/29/2018

2 Disclosure Statement Form
pursuant to FRCP 7.1 by KWS,
INC.(ti, ) (Entered: 04/02/2018)

03/29/2018

Docket Text

Case Eligible for Arbitration(ti, )
(Entered: 04/02/2018)

04/05/2018

3 ANSWER to Complaint with
Affirmative Defenses by KWS,
INC., (FALK, MICHAEL)
(Entered: 04/05/2018)

04/10/2018

4 NOTICE of Appearance by WAYNE
W. RINGEISEN on behalf of KWS,
INC. with Certificate of Service
(RINGEISEN, WAYNE) (Entered:
04/10/2018)

04/10/2018

5 NOTICE of Appearance by ARND
N. VON WALDOW on behalf of
KWS, INC. with Certificate of
Service(VON WALDOW, ARND)
(Entered: 04/10/2018)

04/13/2018

6 NOTICE of Hearing:
ARBITRATION HEARING SET
FOR 8/22/2018 09:30 AM IN

97a
Philadelphia. (jwl, ) (Entered:
04/13/2018)
04/19/2018

7 MOTION to Remand to State
Court filed by ERIC
SCALLA.Memorandum of Law,
Certificate of Service.
(Attachments: # 1 Exhibit
Exhibits)(HESSEL, DANIEL)
(Entered: 04/19/2018)

05/03/2018

8 RESPONSE in Opposition re 7
MOTION to Remand to State
Court filed by KWS, INC.. (FALK,
MICHAEL) (Entered: 05/03/2018)

05/10/2018

9 REPLY to Response to Motion re 7
MOTION to Remand to State
Court filed by ERIC SCALLA.
(HESSEL, DANIEL) (Entered:
05/10/2018)

05/11/2018

10 ORDER THAT A HEARING ON
PLAINTIFFS’ MOTION TO
REMAND TO STATE COURT
(RE: DOC. NO. 7) WILL BE
HELD ON 5/29/2018, AT 4:00 PM,
IN COURTROOM 13A. SIGNED
BY HONORABLE JOEL H.
SLOMSKY ON 5/10/2018.
5/11/2018 ENTERED AND
COPIES E-MAILED. (amas)
(Entered: 05/11/2018)

05/30/2018

11 ORDER THAT THE PARTIES
SHALL HAVE UNTIL 7/30/18 TO
ENGAGE IN FACT DISCOVERY

98a

05/31/2018

ON THE ISSUE OF THE SUFFICIENCY OF THE SERVICE OF
PROCESS; ETC.. SIGNED BY
HONORABLE JOEL H. SLOMSKY
ON 5/29/18. 5/30/18 ENTERED
AND E-MAILED.(jl, ) (Entered:
05/30/2018)
12 Minute Entry for proceedings held
before HONORABLE JOEL H.
SLOMSKY Motion Hearing held
on 5/29/18 re 7 MOTION to
Remand to State Court filed by
ERIC SCALLA Court Reporter:
ESR. (fdc, ) (Entered: 05/31/2018)

06/22/2018

13 TRANSCRIPT of MOTIONS
HEARING Proceedings held on
5/29/18 before Judge JOEL H.
SLOMSKY. COURT
REPORTER/ESR. (jaa, ) (Entered:
06/25/2018)

06/29/2018

14 ORDER REFERRING CASE TO
ARBITRATION AND
APPOINTING ARBITRATORS
FOR 8/22/18 AT 9:30 AM..
SIGNED BY HONORABLE JOEL
H. SLOMSKY ON 6/29/18. 6/29/18
ENTERED AND COPIES EMAILED. COPY TO ARB. (va, )
(Entered: 06/29/2018)

07/26/2018

15 ORDER THAT FRANCINE
HOLLY MAULTZ IS REPLACED
AS AN ARBITRATOR WITH
ALICE WALKER BALLARD.

99a
SIGNED BY HONORABLE JOEL
H. SLOMSKY ON 7/24/18. 7/26/18
ENTERED AND COPIES EMAILED.(jwl, ) (Entered:
07/26/2018)
07/30/2018

16 Supplemental Brief in Support re
7 MOTION to Remand to State
Court filed by ERIC SCALLA.
(Attachments: # 1 Text of
Proposed Order, # 2 Exhibit, # 3
Exhibit, # 4 Exhibit, # 5 Exhibit,
# 6 Exhibit, # 7 Exhibit, # 8
Exhibit, # 9 Exhibit, # 10 Exhibit,
# 11 Exhibit, # 12 Exhibit, # 13
Exhibit, # 14 Exhibit) (HESSEL,
DANIEL) Modified on 8/2/2018
(tjd). (Entered: 07/30/2018)

08/02/2018

17 MOTION for Extension of Time to
File Response/Reply as to 16
Response in Support of Motion,
filed by KWS, INC..Certificate of
Service.(FALK, MICHAEL)
(Entered: 08/02/2018)

08/02/2018

18 RESPONSE to Motion re 17
MOTION for Extension of Time to
File Response/Reply as to 16
Response in Support of Motion,
filed by ERIC SCALLA.
(Attachments: # 1 Text of
Proposed Order, # 2 Exhibit, # 3
Exhibit) (HESSEL, DANIEL)
(Entered: 08/02/2018)

100a
08/03/2018

19 RESPONSE in Support re 17
MOTION for Extension of Time to
File Response/Reply as to 16
Response in Support of Motion,
filed by KWS, INC.. (Attachments:
# 1 Exhibit A, Declaration of
Thomas Galligan, # 2 Exhibit B,
Email correspondence)(FALK,
MICHAEL) (Entered: 08/03/2018)

08/03/2018

20 ORDER THAT DEFENDANT
KWS, INC.’S MOTION FOR
EXTENSION OF TIME IS
GRANTED. DEFENDANT
SHALL FILE A RESPONSE TO
PLAINTIFF’S SUPPLEMENTAL
BRIEF IN SUPPORT OF HIS
MOTION TO REMAND ON OR
BEFORE 8/13/2018.. SIGNED BY
HONORABLE JOEL H. SLOMSKY
ON 8/3/2018.8/3/2018 ENTERED
AND COPIES E-MAILED. (kp, )
(Entered: 08/03/2018)

08/07/2018

21 MOTION Motion to Cancel, or
Alternatively, Reschedule
Compulsory Arbitration Hearing
filed by KWS, INC.. Certificate of
Service.(FALK, MICHAEL)
(Entered: 08/07/2018)

08/09/2018

22 ORDER THAT DAVID RICHMAN
IS REPLACED AS AN ARBITRATOR WITH FLORA L. BECKER..
SIGNED BY HONORABLE JOEL
H. SLOMSKY ON 8/8/18. 8/9/18

101a
ENTERED AND COPIES EMAILED.(jwl, ) (Entered:
08/09/2018)
08/10/2018

23 ORDER THAT DEFENDANT’S
MOTION IS GRANTED. THE
ARBITRATION HEARING IS
CANCELLED. THE CLERK OF
COURT SHALL DOCKET THE
ATTACHED LETTER.. SIGNED
BY HONORABLE JOEL H.
SLOMSKY ON 8/10/2018.
8/10/2018 ENTERED AND
COPIES E-MAILED.(kp,)
(Entered: 08/10/2018)

08/10/2018

24 Letter from DANIEL L. HESSEL
TO JUDGE SLOMSKY ON
8/10/2018 RE:p REQUEST TO
CANCEL ARBITRATION. (kp, )
(Entered: 08/10/2018)

08/13/2018

25 Memorandum In Opposition re 7
MOTION to Remand to State
Court (Supplemental) filed by
KWS, INC.. (Attachments: # 1.
Exhibit A, # 2 Exhibit B, # 3
Exhibit C)(FALK, MICHAEL)
(Entered: 08/13/2018)

11/30/2018

26 MEMORANDUM AND/OR
OPINION. SIGNED BY HONORABLE JOEL H. SLOMSKY ON
11/30/2018. 11/30/2018 ENTERED
AND COPIES E-MAILED.(kp,)
(Additional attachment(s) added

102a
on 11/30/2018: # 1 Exhibit) (kp, ).
(Entered: 11/30/2018)
11/30/2018

12/20/2018

27 ORDER THAT PLAINTIFF’S
MOTION TO REMAND IS
GRANTED. THE CLERK OF
COURT IS DIRECTED TO
REMAND THIS CASE TO THE
COURT OF COMMON PLEAS
PHILADELPHIA COUNTY..
SIGNED BY HONORABLE JOEL
H. SLOMSKY ON 11/30/2018.
11/30/2018 ENTERED AND
COPIES E-MAILED.(kp,)
(Entered: 11/30/2018)
Certified Copy of Memorandum
and Order, dated 11/30/2018,
along with docket entries, mailed
to the Court of Common Pleas of
Philadelphia County on
12/20/2018. (md) (Entered:
12/20/2018)

103a

————
Exhibit “C”
Opinion — Slomsky, J.
————

104a
2018 WL 6271646
Only the Westlaw citation is currently available.
UNITED STATES DISTRICT
COURT, E.D. PENNSYLVANIA
[Filed: November 30, 2018]
————
Civil Action No. 18-1333
————
Eric SCALLA,
Plaintiff,
v.
KWS, INC., a Member of the Thiele Group,
Defendant.
————
Attorneys and Law Firms
Daniel L. Hessel, Golkow Hessel LLC,
Philadelphia, PA, for Plaintiff.
Michael C. Falk, Reed Smith LLP,
Philadelphia, PA, Arnd N. Von Waldow,
Wayne W. Ringeisen, Reed Smith LLP,
Pittsburgh, PA, for Defendant.
————
OPINION
Slomsky, District Judge
I. INTRODUCTION
On December 19, 2017, Plaintiff Eric Scalla (“Plaintiff”) filed a Complaint against Defendant KWS, Inc.
(“Defendant” or “KWS”) in the Court of Common Pleas
of Philadelphia County (Doc. No. 1 at 5) seeking to
recover damages for personal injuries sustained while

105a
Plaintiff was assisting in the use of an overhead crane
to move excavation equipment. (Id. at 6.) Plaintiff
claims that the equipment unexpectedly unhooked
from the chain hook on the crane, causing the equipment to fall on him, and that the defective crane was
manufactured and sold by Defendant. (Id.)
Defendant removed the action to this Court based
on diversity of citizenship jurisdiction pursuant to 28
U.S.C. § 1332(a).1 Defendant asserts that this action
was properly removed because the Notice of Removal
was filed within thirty days of receipt of Plaintiffs
Complaint by KWS, in accordance with the requirements of 28 U.S.C. §§ 1441(a)2 and 1446(b).3 (Doc. No
1-1 at 2.)
As noted, the Complaint was filed in state court on
December 19, 2017. On March 26, 2018, while this
case was still pending there, Plaintiff filed a Praecipe
to Enter Default Judgment. Defendant claims that
1

28 U.S.C. § 1332(a) provides in relevant part: “The district
courts shall have original jurisdiction of all civil actions where
the matter in controversy exceeds the sum or value of $75,000,
exclusive of interest and costs, and is between . . . citizens of
different States . . . .”
There is no dispute here that the parties are citizens of different states.
2

28 U.S.C. § 1441(a) provides, in relevant part: “any civil
action brought in a State court of which the district courts of the
United States have original jurisdiction, may be removed by the
defendant or defendants, to the district court of the United States
for the district and division embracing the place where such
action is pending.”
3

28 U.S.C. § 1446(b) provides, in relevant part: “[t]he notice of
removal of a civil action or proceeding shall be filed within 30
days after the receipt by the defendant, through service or
otherwise, of a copy of the initial pleading setting forth the claim
for relief upon which such action or proceeding is based . . . .”

106a
on March 27, 2018, it received notice of this lawsuit
for the first time in an email sent by Plaintiffs counsel
to Defendant, to which the Praecipe to Enter Default
Judgment was attached. Two days later, Defendant
removed the action to this Court believing that the
removal was timely under 28 U.S.C. § 1446(b), and on
April 5, 2018, Defendant filed an Answer to the
Complaint in this Court. (Doc. No. 3.)
Before the Court is Plaintiffs Motion to Remand
the case back to the Court of Common Pleas of
Philadelphia County. (Doc. No. 7.) Plaintiff claims
that Defendant had notice of this case, not on March
27, 2018, but on January 23, 2018, when service of
process was made on its authorized agent, a person
named Elizabeth Roberts (“Roberts”). For this reason,
Plaintiff submits that removal was untimely. Defendant opposes Plaintiffs Motion to Remand (Doc. No. 8.),
and on May 10, 2018, a hearing was held on the
Motion. At the hearing, the Court noted that it would
afford the parties the opportunity to engage in fact
discovery on the issue of sufficiency of the service of
process, which they did. (Doc. No. 11.) On July 30,
2018, Plaintiff filed a Supplemental Brief in Support
of its Motion to Remand. (Doc. No. 16.) On August 13,
2018, Defendant filed a Supplemental Brief in Support
of its Opposition to Plaintiffs Motion to Remand. (Doc.
No. 25.) The Motion to Remand is now ripe for a
decision. For reasons that follow, Plaintiffs Motion to
Remand will be granted.
II. FACTUAL BACKGROUND
On March 30, 2016, Plaintiff was assisting in the
use of an overhead crane to move an excavation ripper

107a
with a KWS F 33210 clevis cradle style grab hook,4
which he alleges was designed, manufactured, distributed, supplied, and/or sold by Defendant. (Doc. 1-1 ¶
8.) The equipment unexpectedly unhooked from the
chain hook of the machine, causing it to fall on Plaintiff. (Id. ¶ 10.) As a result, Plaintiff sustained serious
and permanent injuries, including but not limited to
a crush injury to his right foot, which resulted in a
below-the-knee amputation, physical pain and suffering, mental and emotional anguish, loss of life’s pleasures and enjoyment, loss of earnings and/or loss or
diminishment of future earning capacity, past and
future medical expenses, disfigurement and scarring,
embarrassment and humiliation, and other physical,
emotional and economic injuries. (Id. ¶ 13.) Plaintiff
alleges that the incident was caused by a defective and
unreasonably dangerous condition involving the chain
hook. (Id. ¶ 12.)
In the Complaint, Plaintiff alleges claims of strict
liability in Count I, negligence in Count II, and breach
of express and/ or implied warranties of merchantability and fitness for particular purpose in Count III, all
stemming from the design, manufacture, distribution,
supply, assembly, installment, sale, service, repair
and/or maintenance of the chain hook, which Plaintiff
asserts contained defective and unreasonably dangerous conditions. (Doc. 1-1 at 10-18.)
On January 23, 2018, Plaintiff served the Complaint
through certified mail at Defendant’s principal place
of business in Tulsa, Oklahoma. (Doc. No. 7, Ex. B.)5
4

This is a type of hook that usually is attached to a machine
that handles heavy loads.
5

On the return receipt, signed by Elizabeth Roberts, is handwritten by her, the date “1/23/18.”

108a
The envelope was addressed to “KWS, Inc., a member
of the Thiele Group.” (Id.) Defendant KWS has one
office in the United States, which is located in Tulsa,
Oklahoma. (Doc No. 16, Ex. G at 20:3-5.) Elizabeth
Roberts accepted service of the Complaint by signing
for it on behalf of Defendant. (Id., Ex. B, G at 30:8-19.)
On the return receipt, Ms. Roberts did not check either
box to the right of the signature line, which designated
“Agent” in one box and “Addressee” in the other. (Id.,
Ex. B.)
Roberts is KWS’s Vice President of Operations
and the only employee who regularly works in the
Oklahoma office. (Id., Ex. G at 10:21.) All other
company employees are located in KWS’s Germany
offices. (Id. at 26:1-3.) Among other things, Roberts is
responsible for receiving the mail on behalf of KWS
at its Oklahoma location. (Id. at 19:25; Id. at 26:1-2.)
This includes signing receipts for certified mail. (Id. at
24:4-8.) According to documents filed with the Office of
the Secretary of State of Oklahoma, Roberts is also
authorized to receive service of process on behalf of
Defendant KWS.6 Neither Roberts nor anyone else at
6

In its Supplemental Brief, Plaintiff has submitted the following documents, retrieved from the Office of the Secretary of State
of Oklahoma, to prove that Roberts is KWS’s authorized agent:
(1) a three-page certificate issued by the Office of the Secretary
of State of Oklahoma, and signed by the Secretary of State, which
states that Elizabeth Roberts “is the registered agent for service
of process for [KWS, Inc.]” (Doc. No. 16, Ex. B.); (2) a certificate
of Successor Registered Agent, which appointed Elizabeth
Roberts as the successor registered agent on September 8, 2009
(Id., Ex. C); (3) a document entitled “Resignation of Registered
Agent Couple with Appointment of Successor” showing the
appointment of Elizabeth Roberts to succeed another person as
registered agent. (Id., Ex. D-3.) These three documents were
submitted as part of an affidavit from Plaintiff’s counsel stating
that he requested the aforementioned forms from the Oklahoma

109a
KWS took any action to respond timely to the
Complaint after receiving it.
Thereafter, on March 13, 2018, Plaintiff served
Defendant with a 10-day notice of intention to enter
default judgment, pursuant to Pennsylvania Rule of
Civil Procedure 237.l, urging Defendant to file an
answer within ten days to avoid the entry of the
default judgment. (Doc. No. 7, Ex. E.) Roberts also
received and signed for this notice. (Id.) Again no
response was forthcoming, so on March 26, 2018,
Plaintiff filed a Praecipe to Enter Default Judgment,
alleging that Defendant failed to respond to the
Complaint within 20 days, as required. (Id., Doc. 1-1,
Ex. B at 21-22.) A default judgment was then entered
in favor of Plaintiff and against Defendant in the
Court of Common Pleas of Philadelphia County. (Doc.
No. 7, Ex. D.)
The next day, on March 27, 2018, Plaintiffs counsel,
Mr. Dan Hessel, Esquire sent an email to KWS, Inc.’s
company email address, listed on its website (sales@
kwschain.com), notifying them that the company is in
default for failure to respond to the Complaint. (Id.,
Ex. E.) Roberts read the email, and KWS then
secured counsel in this case. (Id.) On March 28, 2018,
Defendant’s counsel responded to Plaintiffs email,
stating that they have been retained to represent
KWS in the matter and that they would respond to
the Complaint that day. (Id., Ex. G.) On March 29,
2018, however, Defendant removed the action to this
Court. (Doc. No. 1.)
Office of the Secretary of State and was directed to download
them from their website. (Id., Ex. D.) Attached to this Opinion
are copies of the documents numbered 1 to 3, as well as the
affidavit of Plaintiffs counsel, designated as Document 4.

110a
III. STANDARD OF REVIEW
A district court has original jurisdiction over a civil
action between citizens of different states where “the
matter in controversy exceeds the sum or value of
$75,000.” 28 U.S.C. § 1332(a)(1). Removal predicated
on diversity of citizenship jurisdiction requires that
the amount in controversy is satisfied and that there
is “complete diversity between the parties, that is,
every plaintiff must be of diverse state citizenship
from every defendant.” In re Briscoe, 448 F.3d 201, 215
(3d Cir. 2006) (citation omitted).
Pursuant to 28 U.S.C. § 1441(a), a defendant may
remove “any civil action brought in a state court of
which the district courts of the United States have
original jurisdiction.” 28 U.S.C. § 1441 (a). This statute
must be construed against removal. Samuel-Bassett v.
KIA Motors Am., Inc., 357 F.3d 392, 396 (3d Cir. 2004);
see also Boyer v. Snap-On Tools Corp., 913 F.2d 108,
111 (3d. Cir. 1990) (holding that the removal statutes
“are to be strictly construed against removal and all
doubts should be resolved in favor of remand”).
Under 28 U.S.C. § 1446(b), the petition for removal
of a civil action from state court to federal court
“shall be filed within thirty days after the receipt by
the defendant, through service or otherwise.” 28
U.S.C. § 1446(b). This thirty-day period is mandatory
and cannot be extended by the Court. Typh, Inc. v.
Typhoon Fence of Pennsylvania, Inc., 461 F. Supp. 994,
996 (E.D. Pa. 1978). A party seeking removal carries
the burden of proving that removal is proper. SamuelBassett, 357 at 396 (3d Cir. 2004). As such, “a party
who urges jurisdiction on a federal court bears the
burden of proving that jurisdiction exists.” Boyer, 913
F.2d at 111 (3d Cir. 1990).

111a
IV. ANALYSIS
Plaintiff moves to remand this case to the Court of
Common Pleas of Philadelphia County, arguing that
(1) KWS’s removal was untimely; (2) service of the
Complaint on KWS was proper under Pennsylvania
law; and (3) KWS waived any argument that service
was improper by not asserting the affirmative defense
in a responsive pleading. (Doc. No. 16 at 7-22.) In
response, Defendant argues that (1) Plaintiff has not
met his burden of proving service was effective; (2)
KWS did not waive service prior to removal; and (3)
the removal deadline was not triggered until March
27, 2018, when Roberts read the email with the notice
that Defendant was in default for failure to respond
to the Complaint. (Doc. No. 25 at 5-13.) The Court
will address each argument in turn.
A. KWS Was
Complaint.

Properly

Served

With

the

Under Pennsylvania Rule of Civil Procedure 404(2),
service outside the Commonwealth of Pennsylvania
may be made by mail in the manner provided by Rule
403. Rule 403 provides, in relevant part: “[i]f a rule of
civil procedure authorizes original process to be served
by mail, a copy of the process shall be mailed to the
defendant by any form of mail requiring a receipt
signed by the defendant or his authorized agent.
Service is complete upon delivery of mail.” Pa. R. Civ.
P. 403.
Thus, Pennsylvania law only requires “delivery of
any form of mail” and a “receipt signed by the
defendant or his authorized agent.” Pa. R. Civ. P. 403
(emphasis added). In order for service of process upon
an authorized agent to be effective, the party asserting
the validity of process needs to demonstrate that the

112a
agent had either implied or express authority to accept
process. United States ex rel. Thomas v. Siemens AG,
708 F. Supp. 2d 505, 519 (E.D. Pa. 2010). Implied
authority depends upon the relationship between the
person receiving process and the party to the litigation. Grand Entm’t Group v. Star Media Sales, 988 F
.2d 476, 478 (3d Cir. 1993). There must be a sufficient
connection between the person served and the defendant to demonstrate that service was reasonably calculated to give the defendant notice against it. Cintas
Corp. v. Lee’s Cleaning Servs., 549 Pa. 84, 96 (1997).
Here, Plaintiff has shown that on January 23, 2018,
Ms. Roberts, the registered agent7 who was authorized
to accept service of process on behalf of KWS (Doc. No.
16, Exs. B, C, H) signed and returned the receipt.
(Doc. No. 7, Ex. B.) According to the documents filed
by KWS with the seal of the Secretary of State of
Oklahoma, she is the authorized agent to accept
service of process and was appointed on September 8,
2009. The documents from the Secretary of State also
show that she was the registered agent for service of
process at least until May 31, 2018, and that no one
else has been designated as the registered agent for
KWS. Moreover, she signed the return receipt on
January 23, 2018, accepting service of the Complaint,
and the fact that she did not check either box as

7

A registered agent is a person authorized to accept service of
process for another person, especially a foreign corporation, in a
particular jurisdiction. Registered Agent, BLACK’S LAW
DICTIONARY (10th ed. 2014). Even though KWS was incorporated
in Oklahoma and is not a foreign corporation in that state, the
definition of a registered agent is still pertinent.

113a
“addressee” or “agent” is irrelevant, given her status
as the registered agent to accept service of process.8
On its face, the return receipt expressly shows that
service was complete. Despite this clear showing,
Defendants argue that the Certificate obtained from
the Office of the Secretary of State of Oklahoma (Doc.
No. 16, Ex. B), which certifies that Elizabeth Roberts
is “the registered agent for service of process . . .”
is dated May 28, 2018, five months after attempted
service on KWS, and therefore does not establish that
Roberts was the registered agent on January 23, 2018.
The record does not support this argument. Plaintiffs counsel has submitted an affidavit confirming
that the Office of the Secretary of State of Oklahoma
issued the documents he relies on. (Id., Ex. D.)
Further, the documents themselves are signed and
8

In her deposition, Roberts testified that even though her
signature was on the successor form, and she considered herself
to be the registered agent, she did not consider herself to be the
registered agent for service of process. (Doc. No. 16, Ex. G at
31:22-25; Id. at 32: 1-10; Id. at 42: 9-10; Id. at 47: 18-24; Id. at
48:1-6; Id. at 60: 1-25; Id. at 64: 1-4.) This testimony contradicts
the express authority given to her to accept service in the filings
with the Secretary of State of Oklahoma, and does not change
her legal status to accept service as set forth in the documents.
Under Oklahoma law, every domestic corporation is required to
designate a registered agent to remain in the state to be generally
present at the corporation’s office to accept service of process and
otherwise perform the functions of registered agent. 18 Okl. St.
Ann. § 1022. KWS was incorporated in the state of Oklahoma
(Doc. No. 16, Ex. D-4), and Roberts was so designated. As the
designated individual to serve as registered agent on behalf of
KWS, she was the person to be served with the Complaint. Accord
Build Servs. v. V., No. CJ-2012-6543, 2012 Okla. Dist. LEXIS
3570 (Dist. Ct. Okla. November 21, 2012) (service on the
company’s registered service agent was deemed good and
effective service).

114a
sealed. (Id., Exs. B, C, D-3, D-4, D-5, D-6, D-7.) They
show that from September 8, 2009 to May 31, 2018,
Roberts was the registered agent of KWS to accept
service of process. This time period covers January 23,
2018, the date that service of the Complaint was made
on Roberts. Defendant offers no evidence that another
registered agent for service of process existed at the
time the Complaint was served.
Defendant’s further argument that service was
improper because the mailing was not addressed to
Ms. Roberts is also unpersuasive. Roberts admitted
in her deposition that she was employed at KWS since
it was founded in 1996. (Id., Ex. G at 8:14-17.) In 2009,
she was promoted from her position as Director of
Sales to the Vice President of Operations at KWS.
(Id. at 10: 16-25.) Since 2016, she has been the only
employee of KWS that regularly reported to the
company’s Oklahoma office. (Id. at 16:4-9.) She is
responsible for all mail to the office. (Id. at 20: 18-21.)
All higher-ranking officers of the company are based
in Germany. (Id. at 25: 19-25; Id. at 26: 1-3.) She has
met the sole shareholder many times. (Id. at 28: 1017.) She has access to KWS bank accounts and the
authority to write checks and pay bills on behalf of
KWS. (Id. at 24: 17-25.) In addition to the express
authority given to her in the documents filed with
the Secretary of State of Oklahoma, which show that
she was the registered agent for service of process, her
background with KWS establishes a sufficient connection between Roberts and KWS to confirm her
implied authority to accept service of process on
behalf of KWS. Borah v. Monumental Life Ins. Co., No.
04-3617, 2005 WL 83261, at *3 (E.D. Pa. Jan. 14, 2005)
(finding that service was proper under Pennsylvania
law when it was addressed to the President and CEO
of defendant company, signed for by a mail clerk and

115a
then delivered to the addressee’s secretary); Thomas
v. Stone Container Corp., No. 89-1537, 1989 WL 69499,
at *3 (E.D. Pa. June 21, 1989) (finding service proper
where a secretary to a vice president of the defendant
company received a complaint that was addressed to
Defendant’s office and served through certified mail).9
B. KWS Failed to File the Notice of Removal in
a Timely Manner.
Given that Roberts was an authorized agent to
accept service of process, Defendant’s time for removal
began on January 23, 2018, when it was served with
the Complaint. Defendant argues that the time for
removal began to run on March 27, 2018, the date on
which it first received notice of this lawsuit through an
email from Plaintiffs counsel attaching the Praecipe to
Enter Default Judgment. But as discussed above, on
January 23, 2018 KWS was properly served with the
Complaint, and the thirty-day time period for removal
began to run on this day.

9

Defendant also argues that Plaintiffs decision not to use
the option of restricted delivery offered by the United States
Postal Service contributes to its claim that service was improper.
(Doc. No. 25 at 10.) The official note following Pa. R. Civ. P. 403
explains restricted delivery. It notes: “[t]he United States Postal
Service provides for restricted delivery of mail, which can only
be delivered to the addressee or his authorized agent.” Pa. R. Civ.
P. 403. There is no requirement, however, that restricted delivery
be used. The official note only puts one on notice that this form
of service exists, but it is evident that its use is optional.
Pennsylvania law only requires that Plaintiff serve an authorized
agent of Defendant through the mail and provide a return receipt,
which was done here. Accordingly, the Court finds that Plaintiffs
service of the Complaint on January 23, 2018 was proper under
Pennsylvania law.

116a
The statute governing removal is 28 U.S.C.
§ 1446(b), which provides that a petition for removal
must be filed by the defendant within thirty days
after its receipt “through service or otherwise” of a
copy of the initial pleading. International Equity
Corp. v. Pepper & Tanner, Inc., 323 F. Supp. 1107,
1109 (E.D. Pa. 1971). In other words, defendant’s time
to remove starts with “receipt of a copy of the
Complaint, however informally . . . .” Murphy Bros.,
Inc. v. Michetti Pipe Stringing, Inc., 526 U.S. 344, 356
(1999). This has been interpreted to mean that time
for removal commences to run when an agent of a
corporation receives the Complaint. Maglio v. F.W.
Woolworth Co., 542 F. Supp. 39, 41 (E.D. Pa. 1982).
Therefore, since the Court agrees that service of
the Complaint was made on January 23, 2018, the
Notice of Removal, filed on March 29, 2018 was
untimely because it was filed sixty-five days after Ms.
Roberts received the Complaint on behalf of KWS.
Accordingly, for this reason, Plaintiffs Motion to
Remand (Doc. No. 7) will be granted.
C. KWS Waived its Right to Challenge Service.
Plaintiff argues that KWS waived its right to challenge service because it failed to raise the issue of
improper service in a responsive pleading under
Federal Rule of Civil Procedure 12(b). (Doc. No. 16
at 7-9.) Fed. R. Civ. P. 12(b) provides that “[e]very
defense to a claim for a relief in any pleading must
be asserted in the responsive pleading if one is
required . . .” Fed R. Civ. P 12(b). Insufficient service
of process is a defense that may be asserted by motion.
Id.
In response, Defendant submits that it did not waive
its right to assert the defense of insufficient service of

117a
process in state court because under Federal Rule of
Civil Procedure 81(c)(2), they could assert it after
removal. (Doc. No. 25 at 11-12.)
Specifically, Federal Rule of Civil Procedure 81(c)(2)
provides:
After removal, repleading is unnecessary
unless the court orders it. A defendant who
did not answer before removal must answer
or present other defenses or objections under
these rules within the longest of these
periods:
(A) twenty days after receiving the initial pleading stating the claim for relief;
(B) twenty days after service of the summons for an initial pleading on file at the
time of service; or
(C) seven days after the notice of
removal is filed.
Since this case was removed from state court to
federal court, Rule 81 applies. Purcell v. State Farm
Mut. Auto. Ins. Co., No. 11-7004, 2012 WL 425005
(E.D. Pa. Feb. 10, 2012) (holding that Plaintiff
mistakenly relied on Fed. R. Civ. P. 12(a) when asserting that Defendant’s motion was untimely since it was
filed more than 21 days after service of the Complaint
because Fed. R. Civ. P. 81(c)(2) applies once a case
is removed from state court to federal court, and
Defendant timely filed its motion within seven days
after removal). Accordingly, KWS was required to
file its answer or present other defenses or objections
to the Complaint within seven days after March 29,
2018, when its Notice of Removal was filed. (Doc. No.
1.) On that day, KWS filed a Notice of Removal,

118a
alleging that it was not properly served. (Id. at 5.)
Seven days later, on April 5, 2018, KWS filed an
Answer in this Court. (Doc. No. 3.) However, in its
Answer, KWS did not set forth the affirmative defense
of improper service of process. (Id.) It also did not
file any responsive pleading to the Complaint alleging
improper service. Federal Rule of Civil Procedure
81(c)(2) cannot be read to authorize the raising of a
defense or other objection in a Notice of Removal.
Aside from mentioning improper service in its Notice
of Removal, KWS did not argue that it was improperly
served until it opposed Plaintiffs Motion to Remand on
May 3, 2018. (Doc. No. 8.) Therefore, under Federal
Rule of Civil Procedure 81(c) (2), KWS waived its
right to challenge service of process because it did
not raise the issue within seven days after removing
the case to this Court. Plaintiffs Motion to Remand
(Doc. No. 7) will be granted for this additional reason.
D. The Court Will Not Award Plaintiff Fees and
Costs Associated With The Remand To State
Court.
In this case, the Court will not award fees and
costs to Plaintiff associated with the remand to state
court. 28 U.S.C. § 1447(c) provides that “[a]n order
remanding the case may require payment of just costs
and actual expenses, including attorney’s fees,
incurred as a result of the removal.” 28 U.S.C.
§ 1447(c).
In Martin v. Franklin Capital Corp., the United
States Supreme Court held that absent unusual
circumstances, courts may award attorney’s fees
under § 1447(c) only where the removing party lacked
an objectively reasonable basis for seeking removal.
546 U.S. 132, 141 (2005). An award of fees under

119a
§ 1447(c) is left to the discretion of the district court.
Id. at 140.
In this case, there was an objectively reasonable
basis for seeking removal even though it was untimely
and a remand is warranted. First, there was diversity
of citizenship between the parties in this case. Second,
though its contentions were unpersuasive, Defendant
asserted that it received notice of this case for the first
time on March 27, 2018, when Plaintiff’s counsel sent
an email to KWS notifying them that the company was
in default for failure to respond to the Complaint.
There is no reason to believe that Defendant’s position
is not asserted in good faith. Therefore, the Court will
not award Plaintiff attorney’s fees and costs associated
with removal.
V. CONCLUSION
For all the foregoing reasons, Plaintiff’s Motion to
Remand (Doc. No. 7) will be granted. Plaintiffs
request for attorney’s fees and costs associated with
the removal will be denied. An appropriate Order
follows.

120a
Document “1”
OFFICE OF THE SECRETARY OF STATE
STATE OF OKLAHOMA
[SEAL]
I, THE UNDERSIGNED, Secretary of State of the
State of Oklahoma, do hereby certify that I am, by the
laws of said state, the custodian of the records of the
state of Oklahoma relating to the right of corporations
to transact business in this state and am the proper
officer to execute this certificate.
I FURTHER CERTIFY that KWS, INC., was
granted a charter on the 2nd day of November, 1995, a
corporation duly organized and existing under and by
virtue of the laws of the State of California
I FURTHER CERTIFY that ELIZABETH
ROBERTS whose address is 9950-C EAST 55TH PL
TULSA OK 74114 is the registered agent for service of
process for said corporation.
IN TESTIMONY THEREOF, I heretofore set my
hand and affixed the Great Seal of the State of
Oklahoma, done at the City of Oklahoma City, this 31st
day of May, 2018.
[SEAL]

/s/ [Illegible]
Secretary of State

121a
OFFICE OF THE SECRETARY OF STATE
STATE OF OKLAHOMA
[SEAL]
I, THE UNDERSIGNED, Secretary of State of the
State of Oklahoma, do hereby certify that I am, by the
laws of said state, the custodian of the records of the
state of Oklahoma relating to the right of corporations
to transact business in this state and am the proper
officer to execute this certificate.
I FURTHER CERTIFY that KWS, INC., was
granted a charter on the 2nd day of November, 1995, a
corporation duly organized and existing under and by
virtue of the laws of the State of California
I FURTHER CERTIFY that ELIZABETH
ROBERTS whose address is 9950-C EAST 55TH PL
TULSA OK 74114 is the registered agent for service of
process for said corporation.
I FURTHER CERTIFY that KWS, INC. is a
Domestic Fore Profit Business Corporation duly
organized and existing under and by virtue of the laws
of the state of Oklahoma and is in good standing
according to the records of this office. This certificate is
not to be construed as an endorsement, recommendation or notice of approval of the entity’s financial
condition or business activities and practices. Such
information is not available from this office.
IN TESTIMONY THEREOF, I heretofore set my
hand and affixed the Great Seal of the State of
Oklahoma, done at the City of Oklahoma City, this 31st
day of May, 2018.

122a
Document “2”
OFFICE OF THE SECRETARY OF STATE
STATE OF OKLAHOM
[SEAL]
WHEREAS, a Certificate of Resignation of Registered Agent Coupled wit Appointment of Successor
Agent, executed and acknowledged by
KWS, INC.
a corporation organized and existing under the laws of
Oklahoma has been filed of the Secretary of State as
provided by the laws of the State of Oklahoma
NOWTHEREFORE, I the undersigned Secretary of
State of the State of OK virtue of the powers vested in
me by law, do hereby certify that
ELIZABETH ROGERS
at
9950-C EAST 55TH PL
TULSA OK 74114
has become the successor registered agent of said
corporation so ratifying and approving such change.
IN TESTIMONY THEREOF, I heretofore set my
hand and affixed the Great Seal of the State of
Oklahoma.
[SEAL]

Filed in the city of Oklahoma City this
8th day of September, 2009.
/s/ [Illegible]
Secretary of State

123a
Document “3”
RESIGNATION OF REGISTERED AGENT
COUPLED WITH
APPOINTMENT OF SUCCESSOR
TO: OKLAHOMA SECRETARY OF STATE
[street address illegible]
Oklahoma City, Oklahoma [illegible]
[phone number illegible]
The undersigned, for the purpose of changing the
name of the registered agent and address of the
registered office of the corporation, as provided by
Section 1025 of the Oklahoma General Corporation
Act, hereby certifies:
1.

The name of the corporation is
KWS Inc.

2. The state of [illegible] jurisdiction of its [illegible]:
OK
3. The undersigned, [illegible] registered agent in the
State of Oklahoma, [illegible] agent of said corporation
for service of process.
4. Upon the filing of this document with the Secretary of State, the capacity of the undersigned at such
and the successor agent and the address of the registered office for said corporation shall be:
Elizabeth Roberts 9950-C East 55th Place, Tulsa OK
Name of Agent Street Address City County Zip Code
Tulsa County 741
(P.O. BOXES ARE NOT ACCEPTED)
[STAMP]
(CONTINUED ON REVERSE SIDE)

124a
IN WITNESS WHEREOF, the undersigned registered
has caused this this 30 day of July, 2009.
ACKNOWLEGEMENT BY AN AGENT THAT IS A
[ILLEGIBLE]
/s/ Elizabeth Roberts
Signature

Elizab
P

EXACT BUSINESS ENTITY NAME
[illegible]

[illegible]

PLEASE PRINT NAME
P
The undersigned corporation does hereby [illegible]
and approve the [illegible] on this 30 day of July 2009.
by [signature cut off]
ATTEST
/s/ Elizabeth Roberts
by:
Secretary
Elizabeth Roberts
(PLEASE PRINT NAME)

125a
Document “4”
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF PENNSYLVANIA
————
Civil Action No. 2:18-cv-18-01333 JHS
————
ERIC SCALLA
Plaintiff,
v.
KWS, INC., A MEMBER OF THE THIELE GROUP
Defendant.
————
AFFIDAVIT OF DANIEL L. HESSEL, ESQ.
Upon information and belief and in good faith,
Daniel L. Hessel, Esq. hereby swears, affirms and
makes this Affidavit, stating as follows:
1. I am an attorney admitted to the practice before the
United States District Court for the Eastern District of Pennsylvania and I understand the obligations of an oath.
2. Following oral argument of this matter on May 29,
2018, I conducted research on the corporate filings
of Defendant KWS, Inc. with the Oklahoma Secretary of State.
3. Upon request, the office of the Oklahoma Secretary
of State sent me a series of e-mails entitled “Your
Requested Information,” which directed me to a
secure page on its website at www.sos.ok.gov
which contained links to download KWS’ corporate

126a
filings. See, emails and screenshots reflecting downloaded documents, attached hereto as Exhibit D-1.
4. I downloaded the following documents from the
Oklahoma Secretary of State’s website
a. Certified Copy of Defendant’s Certificate of
Incorporation, Exhibit “D-2” (37227790002219
07464.pdf)
b. Certified Copy of the 09/08/09 Resignation of
Registered Agent Coupled with Appointment of
Successor, Exhibit “D-3” (37227790002219074
5-1.pdf)
c. Certified Copy of the 09/08/09 Certification of
Successor Registered Agent, Exhibit “D-4” (372
27900922190745-3.pdf)
d. Certified copies of Certificates listing Elizabeth
Roberts as the “registered agent for service of
process” Exhibit “D-5” (37227790 [illegible]
90024.pdf)
e. Certified Copy of Defendant’s Certificate of
Good Standing, Exhibit “D-6” (372277900
021.pdf)
f. Certified Copy of All Documents on File for
Defendant, Exhibit “D-7”, (372277900025.pdf)
g. Printout listing KWS, Inc. corporate information, including identifying Elizabeth Robers
as the agent, Exhibit “D-8” (372277 [illegible]
22.pdf)
SIGNED UNDER THE PAINS AND PENALTIES OF
PERJURY
/s/ Daniel L. Hessel, Esq.
DANIEL L. HESSEL, ESQ.

7-30-18
Date

127a
Sworn to before me and subscribed in my presence this
30 day of July, 2018.
Notary Public

/s/ [Illegible]

My commission expires Aug. 2021
[STAMP]

128a
APPENDIX G
IN THE COURT OF COMMON PLEAS
OF PHILADELPHIA COUNTY
FIRST JUDICIAL DISTRICT
OF PENNSYLVANIA
CIVIL TRIAL DIVISION
[Filed: September 30, 2019]
————
No. 02802
Superior Court Docket No. 2003 EDA 2019
————
ERIC SCALLA
vs.
KWS, INC.
————
December Term, 2017
————
OPINION PER Pa.R.A.P. 1925(b)
Lachman, J.

September 27 , 2019

The court adopts as its principal Pa.R.A.P. 1925(b)
opinion, its opinion dated April 10, 2019, denying the
petition to open default judgment filed by DefendantAppellant KWS, Inc. A copy of that opinion and its
exhibits is appended hereto. The court’s original 36page opinion thoroughly discusses the issues raised by
the petition to open. The court will discuss below the
other issues raised in KWS’s timely filed Pa.R.A.P.
1925(b) Statement.

129a
A. Failure to monitor the docket.
One of the most important facts in this case is the
utter failure of the attorneys for KWS to check the
Philadelphia docket at any point in time before
December 3, 2018, even though they had entered their
appearances on March 28 and 30, 2018. The only
evidence that any of KWS’s three attorneys ever
checked the docket was in the February 28, 2019
affidavit of Thomas Galligan, Esquire. He said he
reviewed the online docket on December 3, 2018, and
“I noticed for the first time” that a default judgment
had been entered against KWS on March 26, 2018, or
251 days earlier. KWS did not assert that defense
counsel or their staff had looked at the docket on
previous occasions.
The only interpretation of Mr. Galligan’s surprise
is that he, his co-counsel, and their staff had never
actually looked at the docket before that date. The
docket entry also states that notice of the entry of
default was given under Rules 236 and 237.1 (the
default judgment rule). The petition to open was
untimely because it was filed on January 25, 2019, 304
days after the entry of the default on March 26, 2018.
Mr. Galligan’s affidavit states that on December 3,
2018, he reviewed the docket “to determine whether
the matter had been remanded back to this court.”
Affidavit ¶ 2. Had he made additional reviews of the
docket, he would have discovered that the record had
been returned on December 31st. Instead of monitoring the docket he states in his affidavit that on
December 5, 2018, he spoke with an unidentified
“person at this Court’s office.”1 This unidentified
1

If Mr. Galligan is referring to the office of this judge, he is
mistaken; no such call was received by any of my staff. My

130a
person purportedly told him, “[o]nce the federal court
transferred the record back to state court the parties
would get an electronic notice and would again be able
to file documents in the state court case at that time.”
Affidavit ¶ 7.
The information Mr. Galligan says he was told in
this alleged conversation is not true. Housekeeping
details such as the return of the record and event
listings are placed on the docket and counsel are not
given e-mail notification of them. That is why attorneys have the duty to frequently monitor the docket
themselves to keep informed of what is happening in
their cases.
The federal court mailed the record to the
Philadelphia Court of Common Pleas on December
20th, which counsel would have known had they
monitored the federal docket. The record was received
by our court on December 31st, which counsel would
have known had they monitored the court of common
pleas docket. Mr. Galligan did not monitor the docket
and did not discover until January 23, 2019, that
the record had been returned. He said he learned this
fact in a telephone conversation with an unidentified
person in “this Court’s office.” Affidavit ¶ 9.2,3
involvement with this case did not begin until February 21, 2019,
when the petition to open was assigned to me for disposition.
2

No such conversation occurred with any of my staff. See footnote 1.
3

The trial court did not find credible Mr. Galligan’s affidavit
primarily for three reasons. First, the affidavit misrepresented
when KWS and its counsel first received notice of the entry of
the default judgment. KWS knew since March 27, 2018, and its
counsel admitted they knew at least since May 3, 2018, that a
default judgment had been entered against KWS in state court.
Petition to Open ¶ 12; Defendant KWS Inc.’s Response in

131a
“It is plaintiffs duty to move the case forward and
to monitor the docket to reflect that movement.” Golab
v. Knuth, 176 A.3d 335, 339 (Pa. Super. 2017) (citation
and brackets omitted). Counsel for KWS had access
to this court’s electronic docket and provide no reason
for their failure to check the docket, discover the entry
of the default judgment and the return of the record,
and file the petition to open in a timely manner. See
Lebby v. Septa, April Term 2004, No. 4602, 2006 WL
1768248, at *1 (C.P. Phila. June 12, 2006) (petition to
open denied as untimely where attorney failed to
monitor the docket and did not discover the entry of a
judgment of non pros for 14 months).
Neglecting to monitor the court’s docket was not
justified even when the docket was kept only in paper
form and attorneys had to send their secretaries or
paralegals to City Hall to obtain copies of it. There
is even less justification for failing to monitor the
electronic docket of this court. Our electronic docket
permits attorneys to sit in their offices and, at their
convenience, review the docket to keep apprised of
what is happening in their cases. To allow attorneys to
ignore entirely the electronic information at their
fingertips would severely undermine the benefits for
both courts and litigants fostered by the electronic
docket system.
B. Due process.
Paragraph 2 of KWS’s 1925(b) statement claims
that the trial court’s order denying the petition to open
Opposition to Plaintiff’s Motion to Remand at ¶ 9. See pages 2527 of the court’s original opinion. Second, Mr. Galligan admittedly failed to monitor the docket. Third, he failed to identify the
court personnel he allegedly spoke with on December 5, 2018, and
on January 23, 2019.

132a
default judgment “violates KWS’s right to due process
of law under the United Sates and Pennsylvania
Constitutions.” This claim is waived. The court does
not recall KWS ever mentioning in its original petition
or five separate reply briefs that denying its petition
would be an unconstitutional denial of due process.
“[I]t is not the responsibility of this Court to scour
the record to prove that an appellant has raised an
issue before the trial court, thereby preserving it for
appellate review.” Phillips v. Lock, 86 A.3d 906, 920
(Pa. Super. 2014), quoting Commonwealth v. Baker,
963 A.2d 495, 502 n. 6 (Pa. Super. 2008) (citations
omitted).
The trial court certainly does not recall any actual
legal argument with citation to pertinent authorities
on this issue by KWS. “It is well settled that issues not
raised below cannot be advanced for the first time in
a 1925(b) statement or on appeal. See Pa.R.A.P. 302(a)
(Issues not raised in the lower court are waived and
cannot be raised for the first time on appeal.’)”. Irwin
Union Nat. Bank & Trust Co. v. Famous, 4 A.3d 1099,
1104 (Pa. Super. 2010). If KWS actually raised this
issue in the trial court, it should have no difficulty
citing in its appellate brief the page of the record
where it appears.
This issue also is waived because it does not state
how or why the Court’s decision violates due process;
it is mere boilerplate. The due process issue, as stated
by KWS, is waived because it is “too vague for the trial
court to identify and address the issue to be raised on
appeal.” Commonwealth v. Dowling, 778 A.2d 683, 686
(Pa. Super. 2001). “When a court has to guess what
issues an appellant is appealing, that is not enough for
meaningful review.” Id. (citation omitted). “In other
words, a Concise Statement which is too vague to allow

133a
the court to identify the issues raised on appeal is
the functional equivalent of no Concise Statement at
all.” Id. 804 A.2d at 686-687 (defendant’s 1925(b)
statement claiming trial court erred “by prohibiting
counsel from cross examining based on a prior inconsistent statement of an eyewitness on the issue of
identification,” was not sufficiently specific for the
trial court to identify and address the issue to be
raised on appeal, and thus, the issue was waived).
See also, Commonwealth v. Reeves, 907 A.2d 1, 2 (Pa.
Super. 2006) (case citations omitted) (defendant waived
claim that transit authority was not a “person” within
meaning of statute that criminalized securing execution of documents by deception, where statement of
matters complained of merely asserted that evidence
was insufficient to support verdict); Commonwealth v.
Lemon, 804 A.2d 34, 37 (Pa. Super. 2002) (1925(b)
statement was too vague when it merely stated that
the verdict was “against the evidence,” “against the
weight of the evidence,” and “against the law”). Hassel
v. Franzi, 207 A.3d 939, 949 (Pa. Super. 2019) (citations omitted) (plaintiff failed to preserve for appeal
the issue of the improper use of learned treatises in
a medical malpractice trial, where his unclear 1925(b)
statement did not identify which treatises he intended
to challenge, the relevant parts of the witnesses’ direct
or cross- examination testimony, and where in the
record the challenges were preserved for appeal).
C. Pa.R.C.P. 237.3(b).
This issue is discussed on page 15 and n. 6 of the
Court’s original opinion. Briefly, KWS’s petition and
memorandum of law sought to open the default judgment under the traditional three-part test, and never
mentioned Rule 237.3(b). Rule 237.3(b) permits a
default judgment to be opened upon meeting only one

134a
of those tests — a meritorious defense. KWS’s reply
brief and its sur-reply brief also litigated the threepart test and did not mention Rule 237.3(b). KWS
raised Rule 237.3(b) for the first time in its sur-surreply brief filed on March 6, 2019. That was too late.
Furthermore, Rule 237.3(b) may be invoked only “if
the petition is filed within ten days after the entry
of a default judgment on the docket.” Pa.R.C.P.
237.3(b)(1). “Rule 237.3(b) clearly does not apply to
this case because the petition to open was filed 304
days after the entry of the default judgment.” Original
opinion p. 15 n. 6. Rule 237.3(b) would not apply even
if the clock began to run when our court received the
remanded federal court record on December 31, 2018.
The petition to open was not filed until January 25,
2019, beyond the ten-day grace period.
D. Copies of the notice given by the court of the
default judgment.
Paragraphs 4(d) and 4(e) of KWS’s 1925(b) statement concern the notice given by the court to KWS of
the entry of the default judgment. KWS asserts that
“the Court has no copy of any such notice sent to
KWS and no such copy is available on the docket for
download unlike is [sic] the case with other filings.”
The entry of the default judgment occurred when the
Plaintiff filed his praecipe for the entry of the default
judgment including all of the necessary documents,
and that fact was placed on the docket. The praecipe
and related documents are downloadable. “Neither the
Court nor the Office of Judicial Records are required
to maintain a hard copy of any legal paper or exhibit,
notice, or order filed or maintained electronically
under this rule.” Phila. Civil Rule *205.4(0(6).

135a
The allegation that copies of Rule 236 notices are
“available for download” in other case filings is simply
erroneous. The trial court assumes that KWS is
referring to the documents generated when a party
to an action files a document electronically:
(2) Upon receipt of the legal paper, the
Office of Judicial Records shall provide the
filing party with an acknowledgment, which
includes the date and time the legal paper
was received by the Electronic Filing System.
(3) After review of the legal paper, the
Office of Judicial Records shall provide the
filing party with e-mail notification, or notification on the Electronic Filing System, that
the legal paper has been accepted for filing
(“filed”) or not accepted or refused for filing.
Phila. Civil Rule *205.4(0(2) & (0(3). The Office of
Judicial Records is not a “filing party” and Rule 236
notices and other notations by the court on the
docket, are not “legal papers” covered by this electronic filings rule. See Pa.R.C.P. 205.4(a)(2) (definitions). Consequently, they do not generate e-mail
notifications.
The trial court does not recall the lack of a downloadable copy of the notice being raised in the trial
court. See Phillips, 86 A.3d at 920 (“[I]t is not the
responsibility of this Court to scour the record to
prove that an appellant has raised an issue before
the trial court, thereby preserving it for appellate
review.”); Irwin Union Nat. Bank & Trust Co., 4 A.3d
at 1104 (“It is well settled that issues not raised below
cannot be advanced for the first time in a 1925(b)
statement or on appeal.”). If KWS actually raised this
issue in the trial court, it should have no difficulty

136a
citing in its appellate brief the page of the record
where it appears.
E. Waiver of “certain arguments and issues.”
Paragraph 4(f) of KWS’s 1925(b) statement asks
“whether the Court erred in concluding that . . . . (f)
KWS waived certain arguments and issues that it
raised in certain of its reply briefs and accompanying
exhibits filed in support of its Petition.” Which arguments? What issues? Which reply briefs? This claim
is waived because it is too vague to permit the trial
court, or the appellate court, to know what arguments
and issues KWS is attempting to raise. Dowling, 778
A.2d at 686.
It is axiomatic that when a court has to
guess what issues a defendant is appealing,
that is not enough for meaningful review.
Similarly, when a defendant fails adequately
to identify in a concise manner the issues
sought to be pursued on appeal, the trial court
is impeded in its preparation of a legal
analysis which is pertinent to those issues. In
other words, a concise statement which is
too vague to allow the court to identify the
issues raised on appeal is the functional
equivalent of no concise statement at all. In
light of the foregoing, Appellant has waived
this challenge for appellate review.
Hassel, 207 A.3d at 949 (citations omitted) (plaintiff
failed to preserve for appeal the issue of the improper
use of learned treatises in a medical malpractice trial,
where his unclear 1925(b) statement did not identify
which treatises he intended to challenge, the relevant
parts of the witnesses’ direct or cross- examination

137a
testimony, and where in the record the challenges
were preserved for appeal).
F. Sur-sur-sur-sur-reply briefs.
Paragraph 4(g) of KWS’s 1925(b) statement asks
“whether the Court erred in concluding that . . . . (g)
Parties may not raise new issues in a reply brief filed
in support of a trial court petition to open even though
no Rule of Civil Procedure provides for that; default
judgment are disfavored as a matter of law; and the
appellate court decisions cited by the Court were
interpreting an existing appellate rule of procedure
that has no applicability to this court’s proceedings.”
This issue is addressed at pages 13-15 of the court’s
original opinion.
The court’s original opinion cited three Pennsylvania
Supreme Court and one recent Superior Court decisions that held that reply briefs cannot be used to raise
new issues or to remedy the original brief’s deficient
discussion of an issue. This trial court recognized that
those cases were discussing appellate procedure but
believed, and still believes, that “the principles they
espouse are equally relevant to reply briefs filed in the
trial courts.” Original opinion p. 14 n. 5.
The usual course of events is that a lawyer files a
motion, the opponent files an answer, and the first
lawyer may file a reply. There is no provision in the
Pennsylvania Rules of Civil Procedure or in the local
Philadelphia Civil Rules that permitted KWS to file its
sur-reply, sur-sur-reply, sur-sur-sur-reply, and sursur-sur-sur-reply.
Further research revealed that the issue of surreplies, sur-sur-replies, etc., is apparently one of first
impression for Pennsylvania trial courts, although
Pa.R.A.P. 2113(c) mandates that after a reply brief is

138a
filed, “no further briefs may be filed except with leave
of court.” The issue has been discussed at length by the
federal courts. While federal court decisions are not
binding on Pennsylvania courts, this Court found the
reasoning of the federal cases discussed below to be
very persuasive.4
“Neither the Federal Rules of Civil Procedure nor
this Court’s Local Rules authorize the filing of
surreplies.” Porter v. Am. Cast Iron Pipe Co., No. 2:09CV-0845-AKK, 2010 WL 11507904, at *1 (N.D. Ala.
May 28, 2010) (citations omitted), aff’d on other
grounds, 427 F.App’x 734 (11th Cir. 2011) (nonprecedential). “[C]ourts have interpreted [F.R.C.P.]
Rule 56’s silence with respect to surreplies to mean
that such filings are not automatically permitted” in
the summary judgment context. Id. (citation omitted).5
“Parties do not have the right to file surreplies and
motions are deemed submitted when the time to reply
has expired. The court generally views motions for
4

”[D]ecisions of the federal district courts are not binding on
Pennsylvania courts, but we may look to them as persuasive
authority.” Czimmer v. Janssen Pharm., Inc., 122 A.3d 1043,
1048 n.5 (Pa. Super. 2015) (citation omitted). See Ira G. Steffy &
Son, Inc. v. Citizens Bank of Pa., 7 A.3d 278, 284 & n.7 (Pa. Super.
2010) (repeated the principle that the “decisions of federal district
courts are not binding on Pennsylvania courts,” but quoted and
relied on an unpublished federal district court decision and found
it to be “illuminating”); Dietz v. Chase Home Finance LLC, 41
A.3d 882, 886 n.3 (Pa. Super. 2012) (decisions of the federal
district courts are not binding on Pennsylvania courts; however,
they “are persuasive authority and helpful in our review of the
issue presented”).
5

The general practice in Pennsylvania state courts is to
hyphenate “sur-reply,” but not in the federal courts. This court
has left the federal practice alone instead of interrupting the text
with repetitive Tr or “[sic].”

139a
leave to file a surreply with disfavor. However, district
courts have the discretion to either permit or preclude
a surreply.” Garcia v. Biter, 195 F.Supp.3d 1131, 113334 (E.D. Cal. 2016) (citations omitted). Courts have
“warned that ‘[t]o allow such surreplies as a regular
practice would put the court in the position of
refereeing an endless volley of briefs.’” Porter, 2010
WL 11507904, at *1 (citation omitted).
An endless volley of briefs and sur-replies occurred
in the often-cited case of U.S. ex rel. Hockett v.
Columbia/HCA Healthcare Corp., 498 F.Supp.2d 25
(D. D.C. 2007). The court set forth the standard of
review as follows:
The decision to grant or deny leave to file a
sur-reply is committed to the sound discretion
of the court. If the movant raises arguments
for the first time in his reply to the nonmovant’s opposition, the court will either
ignore those arguments in resolving the
motion or provide the non-movant an opportunity to respond to those arguments by
granting leave to file a sur-reply.
498 F. Supp. 2d at 35.
A “popular mode of advocacy” in Hockett were
motions seeking to strike filings or seeking leave to file
surreplies. 498 F.Supp.2d at 34. This left the “Court as
the owner of what may be the world’s first sur-sursurreply, a position in which no Court should ever find
itself.” Id. at 35. The court granted the Plaintiff leave
to file the sur-sur-surreply because it responded to
evidence first raised in HCA’s reply. Id.
The Court also was presented “with something it
never thought it would see, a sur-sur-sur-surreply
(hereinafter, ‘reply’). All of these papers, particularly

140a
the reply, add very little that is new, and do not
respond to any improper argument. We are now several steps removed from a substantive motion, and are
faced only with filings about filings. Eventually we
reach a point where all this metapleading must stop,
and this is that point. The Motion . . . is denied.”
Hockett, 498 F.Supp.2d at 36 (emphasis added). See
Greene v. IPA/UPS Sys. Bd. of Adjmt., No. 3:15-CV00234-TBR, 2016 WL 6884689, at *2 (W.D. Ky. Nov.
21, 2016) (citations omitted) (“Greene’s proposed memorandum . . . is actually a sur-sur-sur-reply . . . .
Greene’s proposed memorandum is indeed of a rare
breed. . . . Although there may be an extraordinary
case that calls for six rounds of argument on a single
motion, the Court is satisfied that this is not such a
case.”).
The problem with KWS’s fusillade of sur-reply briefs
was they raised issues and facts that could have been,
and should have been, raised either in KWS’s petition
or in its first reply brief. Plaintiff raised issues in his
answer to the Petition that certainly warranted a
reply by KWS discussing them. Instead of discussing
all of those issues in one reply brief, however, KWS
spread them out among four separate sur-reply briefs,
which necessitated Plaintiff filing four of his own surreply briefs in response. Between February 27 and
March 11, 2019, the court was forced to endure a death
by a thousand cuts from eight separate sur-reply
briefs.
For example, KWS did not deign to submit the
affidavit of Thomas Galligan, Esquire, until KWS’s
second reply brief, i.e., its first sur-reply, on February
28th. The matters Mr. Galligan discussed all occurred
in the month before the petition to open was filed; they

141a
were not newly-discovered after the first reply brief
had been filed by KWS.
The matters set forth in the affidavit went to the
heart of KWS’s claim that the petition to open was
timely filed. Timeliness was the first of the three
elements KWS had to prove to open the default
judgment. The affidavit should have been filed as part
of the petition to open to prove that the petition was
filed timely. There should have been no difficulty in
obtaining the affidavit in time for inclusion in the
petition to open because Mr. Galligan is counsel of
record for KWS in this case. After Plaintiffs answer
to the petition disputed timeliness, the affidavit
should have been included in KWS’s first reply to the
Plaintiff’s answer, not in its second reply. Counsel for
KWS have never explained why they failed to include
Mr. Galligan’s affidavit in the petition to open or in
their first reply to Plaintiff’s answer to the petition.
G. Commonwealth Court cases
Many Commonwealth Court decisions are cited in
the court’s original opinion. The trial court is bound by
Commonwealth Court cases as much as it is bound by
Superior Court decisions. The trial court recognizes
that the Superior Court “is not bound by decisions of
the Commonwealth Court. However, such decisions
provide persuasive authority, and we may turn to our
colleagues on the Commonwealth Court for guidance
when appropriate.” Petow v. Warehime, 996 A.2d 1083,
1089 n. 1 (Pa. Super. 2010), quoting Maryland Casualty
Co. v. Odyssey Contracting Corp., 894 A.2d 750, 756 n.
2 (Pa. Super. 2006).

142a
H. Conclusion.
It is respectfully submitted that the Superior Court
should affirm the denial of Appellant KWS, Inc.’s
petition to open default judgment.
BY THE COURT:
/s/ J. Lachman
LACHMAN , J.

